uspto
        Performance and Accountability Report
                             fiscal year 2012
                                                             Financial and Related Highlights
                                                                                                                        % Change                 September 30,           September 30,
                                         (Dollars in Thousands)
                                                                                                                      2012 over 2011                 2012                    2011

Fund Balance with Treasury                                                                                                      5.9%             $	1,726,955             $	1,631,206
Property, Plant, and Equipment, Net                                                                                           14.7%                      236,980             206,628
Other Assets                                                                                                                  16.1%                        18,188             15,663
	     Total Assets                                                                                                              6.9%             $	1,982,123             $	1,853,497

Deferred Revenue                                                                                                             (1.8%)              $	830,955               $	845,782
Accounts Payable                                                                                                            (12.2%)                        75,186             85,640
Accrued Payroll, Benefits, and Leave                                                                                            6.6%                     217,364             203,956
Other Liabilities                                                                                                             13.7%                      131,744             115,859
	     Total Liabilities                                                                                                         0.3%             $	1,255,249             $	1,251,237
Net Position                                                                                                                  20.7%                      726,874             602,260
Total Liabilities and Net Position                                                                                              6.9%             $	1,982,123             $	1,853,497

Total Program Cost                                                                                                              8.0%             $	2,320,947             $	2,148,097
Total Earned Revenue                                                                                                            8.5%             	(2,427,082)            	(2,236,374)
Net Income from Operations                                                                                                    20.2%              $	(106,135)             $	(88,277)

Budgetary Resources Available for Spending                                                                                    11.7%              $	2,612,627             $	2,338,600

Total Collections, Net of Outlays                                                                                           (57.8%)              $	(80,894)              $	(191,593)

Federal Personnel                                                                                                             12.9%              	11,531                 	10,210

Disbursements by Electronic Funds Transfer (EFT)                                                                                    —            	100%                   	100%

On-Time Payments to Vendors                                                                                                  (1.0%)              	99%                    	100%


                                                                       Perfor mance Highlights
                                                                                                                           FY 2012                   FY 2012             Performance
                                        Performance Measures
                                                                                                                            Target                    Actual               Results1
Patent Average First Action Pendency (months)                                                                                     22.6                     21.9              Met
Patent Average Total Pendency (months)                                                                                            34.7                     32.4              Met
Patent Quality Composite Rate                                                                                                   48-56           	72.4                        Met
Patent Applications Filed Electronically                                                                                       96.0%                     97.1%       2       Met
Trademark Average First Action Pendency (months)                                                                          2.5 to 3.5                           3.2           Met
Trademark Average Total Pendency (months)                                                                                         12.0                     10.2              Met
Trademark First Action Compliance Rate                                                                                         95.5%                     96.2%               Met
Trademark Final Compliance Rate                                                                                                97.0%                     97.1%               Met
Exceptional Office Action                                                                                                      20.0%                     26.1%               Met
Trademark Applications Processed Electronically                                                                                74.0%                     77.0%               Met
Percentage of prioritized countries for which country teams have made
progress on at least 75% of action steps in the country-specific action
plans along the following dimensions:
   1. institutional improvements of IP office administration for advanc-
      ing IP rights,                                                                                                              75%                      75%               Met
   2. institutional improvements of IP enforcement entities,
   3. improvements in IP laws and regulations, and
   4. establishment of government-to-government cooperative
      mechanisms.
1	   The performance result of a given measure is either met (100 percent or greater of target), slightly below (95 to 99 percent of the target), or not met
     (below 95 percent of target).
2	   This is preliminary data and is expected to be final by December 2012 and will be reported in the fiscal year (FY) 2013 PAR.
Table of Contents
Message from the Under Secretary of Commerce for Intellectual Property and
Director of the United States Patent and Trademark Office	                                  3
Management’s Discussion and Analysis	                                                       7
    Mission and Organization of the USPTO	                                                  8
    Performance Goals and Results	                                                         12
        USPTO Strategic Plan	                                                              13
        Strategic Goal 1: Optimize Patent Quality and Timeliness	                          15
        Strategic Goal 2: Optimize Trademark Quality and Timeliness	                       27
        Strategic Goal 3: Provide Domestic and Global Leadership to Improve Intellectual
        Property Policy, Protection and Enforcement Worldwide	                             35
        Management Goal: Achieve Organizational Excellence	                                45
    Management Challenges and What’s Ahead	                                                56
    Accompanying Information on USPTO Performance	                                         60
        Performance Audits and Evaluations	                                                60
    Management Assurances and Compliance with Laws and Regulations	                        62
    Financial Discussion and Analysis	                                                     68
Financial Section	                                                                         81
    Message from the Chief Financial Officer	                                              82
    Principal Financial Statements and Related Notes	                                      84
    Independent Auditors’ Report	                                                          113
Other Accompanying Information	                                                            123
    Schedule of Spending	                                                                  124
    Inspector General’s Top Management Challenges Facing the USPTO	                        125
    Summary of Financial Statement Audit and Management Assurances	                        166
    Improper Payments Information Act of 2002, as amended	                                 167
    The Nature of the Training Provided to USPTO Examiners	                                169
    Measures that Have Been Either Discontinued or Changed Since the FY 2011 PAR	          173
    FY 2012 USPTO Workload Tables	                                                         174
Glossary of Acronyms and Abbreviation List	                                                205


           Web address for the USPTO Performance and Accountability Report

                                www.uspto.gov/about/stratplan/




                                     ABOUT THIS REPORT
   The USPTO Performance and Accountability Report (PAR) for FY 2012 provides a
   comprehensive summary of program and financial results and is structured to help
   the President, the Congress, and the American public assess our performance relative
   to our mission and accountability for our financial resources.
                                                                             M E S S AG E F R O M T H E U N D E R S E C R E TA RY


Message from the Under Secretary of Commerce
for Intellectual Property and Director of the
United States Patent and Trademark Office



N
        avigating historic change is the                                    The USPTO made history in July when it
        new normal at the United States                                     opened its first ever satellite office. The
        Patent and Trademark Office                                         Elijah J. McCoy Satellite Office in Detroit,
(USPTO). Our efforts here directly                                          Michigan, is already processing patent
improve both the quality of life for our                                    applications. One hundred patent
nation’s citizens and the environment                                       examiners and 20 administrative patent
for innovation and invention. We are                                        judges are expected to be on staff
near completion of our implementa-                                          within the office’s first year of operation.
tion of paradigm-shifting patent reform                                     History will be made three more times
legislation, and are reaping the fruits                                     as the USPTO in the coming years opens
of newly developed metrics to accu-                                         more satellite offices in Dallas-Fort Worth,
rately measure quality and perfor-                                          Denver, and Silicon Valley. The four
mance across the agency.                                                    offices will function as hubs of innova-
                                                                            tion and creativity, helping protect and
Central to our historic change was the implementation        foster American innovation in the global marketplace,
of most of the provisions of the Leahy-Smith America         helping businesses cut through red tape and creating
Invents Act (AIA), the most significant reform to patent     new economic opportunities in each of the local
law since 1836. The USPTO has implemented several            communities.
key rules addressing both the patent application
process and administrative trials proceedings, through       A highlight of this past year was our significant reduction
a newly renamed Patent Trial and Appeal Board (PTAB).        in unexamined utility patent applications. We reduced
Formerly the Board of Patent Appeals and Interferences,      our backlog to 608,283 applications from more than
the PTAB boasts dozens of new administrative patent          750,000 applications at the start of our efforts in 2009.
judges hired from the top echelon of the U.S. intellectual   That is the lowest level in more than five years. We
property community. The agency is on track to issue          concurrently reduced first action pendency to 21.9
its final AIA rules on schedule in the spring of 2013.       months from 25.4 months in August 2009, and reduced
Throughout the AIA implementation process the agency         total patent application pendency to 32.4 months from
has been transparent in its operations and has               34.3 months in August 2009.
engaged with stakeholders and the public, soliciting
input and providing education.                               We continue to see an increase in trademark applica-
                                                             tions, and fiscal year 2012 was a historic year, with
Innovators seeking quicker resolution of their patent        415,026 new classes filed, a four percent increase over
applications now have access to our new Track One            the previous year. We increased engagement with our
process, which prioritizes applications to reach final       stakeholder community through a series of roundtables,
disposition in just 12 months, and offers a 50 percent       while extending our educational outreach to the small
discount for small businesses. We have already issued        business and entrepreneurial community. The USPTO
606 patents through our Track One process in fiscal          continues to maintain consistent first office action
year 2012, and did so in an average of less than six         trademark pendency figures within the target range of                  3
months.



                                                                                                             www.uspto.gov
    MESSAGE FR O M TH E UN DER SECR ETARY




    2.5 to 3.5 months, with disposal pendency also at a        We are proud of the many things we have accom-
    low rate of 10.2 months.                                   plished. Our goals for the future are ambitious. We
                                                               move forward with a clear vision of what we must do
    The USPTO continues to be a leader in telework             to ensure our continued progress and achieve these
    programs, part of our ongoing efforts to work smarter      goals, fully cognizant of near-term revenue uncer-
    and more efficiently. Today, more than 7,300 employees     tainty as we implement a more certain financial foun-
    agencywide work from home at least one day per             dation in fiscal year 2013 through a fee system that
    week, an increase of nearly 700 from the beginning of      fully recovers our costs.
    fiscal year 2012. Our program has emerged as a model
    for other Federal agencies as well as for the private      We are confident that the USPTO’s financial and
    sector. In fiscal year 2012, the USPTO met with dozens     performance data are complete, reliable, accurate
    of Federal agencies to provide guidance as they            and consistent as we improve our ability to measure
    implement or expand telework programs.                     progress toward our performance goals. For the 20th
                                                               consecutive year, we earned an unqualified audit
    Information Technology (IT) is a mission-critical          opinion on our annual financial statements. For fiscal
    enabler for every USPTO business function. The perfor-     year 2012 financial reporting, the independent
    mance of IT determines how well the agency can             auditors did not identify any material weaknesses, or
    respond to its stakeholders, grant patents and issue       instances of non-compliance with laws and
    trademarks. The agency is implementing an aggres-          regulations.
    sive multi-year plan to upgrade its IT infrastructure by
    stabilizing its aging data center and networks,            It is clear that the USPTO has a clear mission and a
    updating automated IT systems, and migrating to            capable staff dedicated to meeting it. We are leading
    “cloud” computing. In our commitment to make the           the way to a 21st century intellectual property system
    experience with USPTO better, we will implement a          that benefits all of society in ways large and small.
    Patents End-to-End processing system, provide the          We anticipate another fine year of accomplishments
    Trademarks Next Generation system, improve                 by our outstanding employees, working closely with
    financial processing with the Fee Processing Next          our stakeholder community. Our shared sense of
    Generation system, and continue working towards            purpose ensures the United States will continue to
    supporting a nationwide workforce.                         lead the world in innovation and ingenuity.

    Empowered by the AIA, the USPTO has taken the lead
    internationally in promoting a 21st century intellec-
    tual property system. We joined as part of the IP5—        David J. Kappos
    the five largest patent offices in the world—in a          Under Secretary of Commerce for Intellectual Property and
    commitment to greater work sharing and harmoniza-          Director of the United States Patent and Trademark Office
    tion of patent laws. We are currently partnering with      November 7, 2012
    24 other patent offices around the world on the
    Patent Prosecution Highway, which allows an
    applicant to fast-track examination in one office after
    a finding by another office that one or more corre-
    sponding claims are allowable. We have also been
    active in the World Intellectual Property Organization
    (WIPO), playing a key role in the signing of the WIPO
    Audiovisual Performances Treaty in Beijing, China.


4




    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
         2011
Certificate of Excellence
         Management's
Discussion and Analysis
    Mission and Organization
    of the USPTO

    Mission
    Fostering innovation, competitiveness and economic growth, domestically and abroad to deliver
    high quality and timely examination of patent and trademark applications, guiding domestic and
    international intellectual property policy, and delivering intellectual property information and
    education worldwide, with a highly skilled, diverse workforce.




    T                                                          Our Organization
          he United States Patent and Trademark Office’s
          (USPTO) mission is derived from Article I, Section
          8, Clause 8, of the Constitution “to promote the
    progress of science and useful arts, by securing for       The USPTO is an agency of the United States within
    limited times to authors and inventors the exclusive       the DOC. As shown in Figure 1, the agency is led by
    right to their respective writing and discoveries,” and    the Under Secretary of Commerce for Intellectual
    the Commerce Clause of the Constitution (Article 1,        Property and Director of the USPTO who consults with
    Section 8, Clause 3) supporting the federal registra-
    tion of trademarks.

    For most of the last century, the United States has
    been the clear leader in developing new technolo-
    gies, products, and entire industries that provide high-
    value jobs for Americans, enabling us to maintain our
    economic and technological leadership.

    As a part of the Department of Commerce (DOC),
    the USPTO is uniquely situated to support the accom-
    plishment of the Department’s mission to create the
    conditions for economic growth and opportunity by
    promoting innovation, entrepreneurship, competitive-
    ness, and stewardship.                                       Under Secretary David Kappos awards the National
8                                                                Inventors Hall of Fame medal on May 2, 2012.




    PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




the Patent Public Advisory Committee (PPAC) and                     authority that will be essential to USPTO’s sustainable
the Trademark Public Advisory Committee (TPAC).                     funding model.
The USPTO has two major components: the Patent
organization and the Trademark organization, which                  As the clearinghouse for U.S. patent rights, the USPTO
are teamed with several other supporting units, as                  is an important catalyst for U.S. economic growth as
shown in the organization chart above (Figure 1).                   it plays a key role in fostering the innovation that
Headquartered in Alexandria, Virginia, the USPTO also               drives job creation, investment in new technology,
has a satellite office in Detroit, Michigan, which                  and economic recovery.Through the prompt granting
opened on July 13, 2012. In addition, the USPTO has                 of patents, the USPTO promotes the economic vitality
two storage facilities located in Virginia and                      of American business, paving the way for invest-
Pennsylvania.                                                       ment, research, scientific development, and the
                                                                    commercialization of new inventions. The USPTO also
The USPTO has evolved into a unique government                      promotes economic vitality by ensuring that only valid
agency. In 1991, under the Omnibus Budget Recon-                    patent applications are approved for granting, thus
ciliation Act (OBRA) of 1990, the USPTO became fully                providing certainty that enhances competition in the
supported by user fees to fund its operations. In 1999,             marketplace.
the American Inventors Protection Act (AIPA) estab-
lished the USPTO as an agency with performance-based                The Patent Organization. The Patent organization
attributes, for example, a clear mission statement,                 examines patent applications to compare the scope
measurable services and a performance measure-                      of claimed subject matter to a large body of techno-
ment system, and known sources of funding. Last year,               logical information to determine whether the claimed
President Obama signed into law the Leahy-Smith                     invention is new, useful, and non-obvious. Patent
America Invents Act (AIA). The new law will promote                 examiners also provide answers on applications
innovation and job creation by improving patent                     appealed to the Patent Trial and Appeal Board (PTAB),
quality, clarifying patent rights, reducing the applica-            prepare initial memoranda for interference1 proceed-
tion backlog, and offering effective alternatives to                ings to determine priority of invention, and prepare
costly patent litigation. It also provides fee-setting              international preliminary examination reports for inter-                9

1	Apatent interference is a determination of which party first invented the commonly claimed invention (priority contest) between an
 application and either another application or an issued patent.


                                                                                                                      www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




       A patent drawing of an inline roller skate placed on the left-hand side          T. Markey celebrates the National
       of a child wearing inline roller skates.                                         Trademark Expo on October 14, 2011.



     national applications filed under the Patent Cooper-            to establish regulatory and enforcement mechanisms
     ation Treaty (PCT). The patent process includes                 that meet international obligations relating to the
     performing an administrative review of newly-filed              protection of IP.
     applications, publishing pending applications, issuing
     patents to successful applicants, and disseminating             The performance information presented in this report
     issued patents to the public.                                   is the joint effort of the Under Secretary‘s office, the
                                                                     Patent organization, the Trademark organization, the
     The Trademark Organization. The Trademark orga-                 Office of the Administrator for Policy and External Affairs,
     nization registers marks (trademarks, service marks,            and the Office of the Chief Financial Officer (OCFO).
     certification marks, and collective membership
     marks) that meet the requirements of the Trademark
     Act of 1946, as amended, and provides notice to the             Our People
     public and businesses of the trademark rights
     claimed in the pending applications and existing                At the end of FY 2012, the USPTO work force (Figure 2)
     registrations of others. The core process of the                was composed of 11,531 federal employees
     Trademark organization is the examination of appli-             (including 7,935 patent examiners and 386 trademark
     cations for trademark registration. As part of that             examining attorneys).
     process, examining attorneys make determinations
     of registrability under the provisions of the Trademark
     Act, which includes searching the electronic
     databases for any pending or registered marks that
     are confusingly similar to the mark in a subject appli-
     cation, preparing letters informing applicants of the
     attorney’s findings, approving applications to be
     published for opposition, and examining statements
     of use in applications filed under the Intent-to-Use
     provisions of the Trademark Act.

     Domestically, the USPTO provides technical advice
     and information to executive branch agencies on IP
     matters and trade-related aspects of IP rights. Inter-
     nationally, the USPTO works with foreign governments

10




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
America Invents Act

P
       resident Obama signed the             ●●   Notice of Inquiry published in the
       Leahy-Smith America Invents                Federal Register on August 16,
       Act (AIA) (Pub. L. No. 112-29)             2012 to request public comment
into law on September 16, 2011. This              on options for adjusting
sweeping reform introduced some of                trademark application fees.
the biggest changes to the patent
system in 200 years.                         For more information regarding
                                             AIA-related rulemaking, associated
Since its enactment, the USPTO has           comments, etc. please go to www.
worked diligently to implement the           uspto.gov/aia_implementation/.
AIA’s statutory requirements to
improve patent quality, reduce the           AIA Studies
backlog of patent applications,
                                             The AIA requires the USPTO to conduct
reduce domestic and global
                                             three studies into certain areas of the
patenting costs for U.S companies,
                                             intellectual property law and make
provide greater certainty in patent
                                             recommendations to Congress based
rights, and offer effective alternatives
                                             on study findings. The AIA-mandated
to costly and complex litigation.
                                             studies concern prior user rights, inter-
                                             national patenting by small businesses,         TOP: The USPTO new satellite office locations.
In this fiscal year, the USPTO has
                                             and confirmatory genetic testing.
accomplished the following signifi-                                                          BOTTOM: On September 12, 2012, the USPTO
                                             For more information about these
cant milestones in implementing the                                                          hosted a public roadshow in Alexandria,
                                             AIA-required studies, please see
AIA:                                                                                         Virginia, to share information about new final
                                             www.uspto.gov/aia_implementation.
                                                                                             rules implementing provisions of the America
Rulemaking                                                                                   Invents Act.
                                             AIA Programs
In order to implement the provisions of
                                             The AIA requires the USPTO to establish
federal statutes, agencies typically
                                             certain programs to assist applicants          ●●   Public “roadshows” to share
must first make them a part of their
                                             to file and prosecute patent appli-                 information about new final rules
regulatory scheme by engaging in
                                             cations, to build a methodology for                 implementing provisions of the AIA.
rulemaking. The following is a summary
                                             studying the diversity of patent appli-
of USPTO’s rulemaking progress:                                                             ●●   AIA micro-site created to house all
                                             cants, and to establish three satellite
                                                                                                 AIA implementation information.
                                             offices. The initial satellite office opened
●●   12 Notices of Proposed
                                             in Detroit, Michigan on July 13, 2012.         ●●   AIA implementation status report
     Rulemaking (NPRM) implementing
                                             Three additional locations – Denver,                posted monthly on AIA micro-site.
     five patent-related provisions and
                                             Colorado; Dallas-Ft. Worth, Texas; and
     four Patent Trial and Appeal Board                                                     ●●   AIA Subscription Center created
                                             Silicon Valley, California – will be
     (PTAB)3 related provisions were                                                             and utilized to distribute AIA
                                             opening in the coming years. For more
     published for public comment by                                                             implementation information to
                                             information about USPTO progress for
     February 2012. Final Rules for                                                              subscribers.
                                             these programs, please see www.uspto.
     these same provisions were
                                             gov/aia_implementation.                        ●●   More than 200 external AIA
     published by mid-August 2012.
                                                                                                 presentations given in U.S. and
●●   One First-Inventor-to-File NPRM and     Target Outreach to AIA                              abroad.
     one First-Inventor-to-File Proposed     Specific Topics
                                                                                            ●●   Press releases, subscription center
     Examination Guidance were
                                             It is the USPTO’s top priority to keep our          blasts, and social media
     published for public comment in
                                             stakeholders informed and as involved               communications issued for every
     July 2012.
                                             in the AIA implementation as much as                major AIA implementation event,
●●   One Fee Setting NPRM was                possible. These are a few of the import-            such as NPRM publication in the
     published on September 6, 2012.         ant steps we took to ensure maximum                 Federal Register.
                                             transparency and participation:                                                                  11



3   Note that the USPTO entity “Board of Patent Appeals and Interferences” (BPAI) was renamed “Patent Trial and Appeal Board” on
    September 16, 2012 in accordance with AIA requirements.
     Performance Goals and Results
     Introduction to Performance
     In FY 2010, the USPTO issued its 2010-2015 Strategic
     Plan, which recognizes that innovation has become
     the principal driver of our modern economy by stimu-
     lating economic growth and creating high-paying
     jobs. America’s innovators rely on the U.S. patent and
     trademark systems to secure investment capital and
     to bring their products and services to the market-
     place as soon as possible. Therefore, it is critical for
     America’s innovators to have a well-run USPTO.

     Strategic Planning Performance Framework
                                                                       on patentability), and average total pendency
     The USPTO’s mission is to foster innovation and compet-
                                                                       to 20 months (average time from filing until the
     itiveness by providing high quality and timely exam-
                                                                       application is issued as a patent or abandoned)
     ination of patent and trademark applications, guiding
     domestic and international intellectual property             ●●   Improve quality of patent examination
     policy, and protecting intellectual property rights.         ●●   Improve/enhance patent appeal and post-grant
     The USPTO 2010-2015 Strategic Plan (www.uspto.gov/
                                                                       processes
     about/stratplan/) provides three strategic goal and
     one management goal in support of the agency’s               ●●   Optimize trademark quality and maintain
     mission with a focus on achieving results. The strategic          pendency
     objectives under the first three goals define what the       ●●   Demonstrate global leadership in all aspects
     agency needs to do in order to achieve the goals.
                                                                       of IP policy development
     The management goal provides the administrative
     support foundation for USPTO to achieve organiza-            ●●   Improve IT infrastructure and tools
     tional excellence.                                           ●●   Implement a sustainable funding model
     The USPTO strategic planning performance framework                for operations
     is designed to strengthen the capacity of the USPTO          ●●   Improve relations with employees and
     by focusing on a specific set of goals and the steps              stakeholders.
     we must take to reach those goals, as follows:
                                                                  These priorities support the DOC’s theme of economic
     ●●   Provide timely examination of patent applications:      growth, and the goal of delivering the tools, systems,
          Reduce the average time to first office action for      policies, and technologies critical to transforming our
12
          patent applications to 10 months (average time          economy, fostering U.S. competitiveness, and driving
          from filing until an examiner’s initial determination   the development of new businesses.



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                             M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




There are 11 Strategic Plan performance outcome                 mance commitments, the plan includes a Balanced
measures, all designed to achieve the USPTO’s strategic         Scorecard which identifies the objectives, initiatives,
goals. Annual performance targets were developed                and performance measures associated with each
for each measureable outcome.                                   strategic goal. These performance commitments are
                                                                outlined in the strategic framework presented in Table 1.
The USPTO met its targets for all 11 performance
measures as shown in Figure 3.                                  Following the presentation of the Strategic Planning
                                                                Framework, a summary table (Table 2) provides trend
Our plan communicates the USPTO’s priorities and                information on performance results within each
directions, and serves as the foundation for program-           strategic goal. This is followed by a more detailed
matic and management functions. As a management                 discussion of our strategy and performance results, by
tool for tracking progress in meeting each of our perfor-       strategic objective within each strategic goal.


                                    TA B L E 1   2010-2015 Strategic Plan
                                                         Mission
     Fostering innovation, competitiveness and economic growth, domestically and abroad by delivering high
     quality and timely examination of patent and trademark applications, guiding domestic and international
      intellectual property policy, and delivering intellectual property information and education worldwide,
                                     with a highly skilled, and diverse workforce.
                                                          Vision
                   Leading the Nation and the World in Intellectual Property Protection and Policy.
        Strategic Goals with
                                                                             Objectives
        Resources Invested
                                       Re-Engineer Patent Process to Increase Efficiencies and Strengthen Effectiveness
             GOAL 1:                   Increase Patent Application Examination Capacity
      Optimize Patent Quality          Improve Patent Pendency and Quality by Increasing International Cooperation
          and Timeliness               and Work Sharing
    Obligations: $2,112.7 million      Measure and Improve Patent Quality
    Total Cost: $2,079.4 million       Improve Appeal and Post-Grant Processes
                                       Develop and Implement the Patent End-to-End Processing System
                                       Maintain Trademark First Action Pendency on Average between 2.5 – 3.5 Months
                                       with 12.0 Months Final Pendency
              GOAL 2:                  Continuously Monitor and Improve Trademark Quality
    Optimize Trademark Quality         Ensure Accuracy of Identifications of Goods and Services in Trademark Applications
          and Timeliness               and Registrations
     Obligations: $216.9 million       Enhance Operations of Trademark Trial and Appeal Board (TTAB)
     Total Cost: $201.3 million        Modernize IT System by Developing and Implementing the Trademark Next
                                       Generation IT System
                                       Develop a New Generation of Trademark Leaders
              GOAL 3:                  Provide Domestic Leadership on IP Policy Issues and Development of a National IP
   Provide Domestic and Global         Strategy
 Leadership to Improve Intellectual    Provide Leadership on International Policies for Improving the Protection and
   Property Policy, Protection and     Enforcement of IP Rights (IPR)
      Enforcement Worldwide
      Obligations: $45.1 million
      Total Cost: $40.3 million
       MANAGEMENT GOAL:                Improve IT Infrastructure and Tools
                                                                                                                                         13
      Achieve Organizational           Implement a Sustainable Funding Model for Operations
            Excellence                 Improve Employee and Stakeholder Relations



                                                                                                                   www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     Summary of Strategic Goal Results
     The following table summarizes FY 2012 actual performance results against established goals and targets for
     each key performance measure. The table also includes actual performance results for the past four fiscal
     years. For the latest updated status for these and other performance measures, please visit our Dashboard
     at our Data Visualization Center at: www.uspto.gov/about/stratplan/dashboards.jsp.


      TABLE 2    	                       Summary of Strategic Goal Results for FY 2008 - FY 2012
                                                                       FY 2008     FY 2009      FY 2010     FY 2011      FY 2012     FY 2012
                Strategic Goals Performance Measures                    Actual      Actual       Actual      Actual       Target      Actual
      GOAL 1: Optimize Patent Quality and Timeliness

      Average First Action Pendency                                      25.6         25.8        25.7        28.0         22.6        21.9

      Average Total Pendency                                             32.2         34.6        35.3        33.7         34.7        32.4

      Patent Quality Composite Rate                                      N/A          N/A         N/A         30.7        48-56        72.4

      Patent Applications Filed Electronically                          71.7%        82.4%       89.5%       93.1%        96.0%       97.1%1
      GOAL 2: Optimize Trademark Quality and Timeliness

      Average First Action Pendency                                       3.0         2.7          3.0         3.1      2.5 to 3.5      3.2

      Average Total Pendency                                             11.8         11.2        10.5        10.5         12.0        10.2

      First Action Compliance Rate                                      95.8%        96.4%       96.6%       96.5%        95.5%       96.2%

      Final Compliance Rate                                              N/A         97.6%       96.8%       97.0%        97.0%       97.1%

      Exceptional Office Action                                          N/A          N/A         N/A        23.6%        20.0%       26.1%

      Trademark Applications Processed Electronically                    N/A         62.0%       68.1%       73.0%        74.0%       77.0%
      GOAL 3: Provide Domestic and Global Leadership to Improve Intellectual Property Policy, Protection and Enforcement Worldwide

      Percentage of prioritized countries for which country              N/A          NA          75%         100%         75%          75%
      teams have made progress on at least 75% of action
      steps in the country-specific action plans along the
      following dimensions:

      1.	 institutional improvements of IP office
          administration for advancing IP rights,

      2.	 institutional improvements of IP enforcement
          entities,

      3.	 improvements in IP laws and regulations, and

      4.	 establishment of government-to-government
          cooperative mechanisms.

      The performance result of a given measure is either       Met (100 percent or greater of target), Slightly Below (95 to 99 percent of the
      target), or     Not Met (below 95 percent of target).
      N/A: Denotes new performance measures where data was not available.
      1 This is preliminary data and is expected to be final by December 2012 and will be reported in the FY 2013 PAR.




14




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
 What is a patent?

 A patent is an intellectual
 property right granted by
 the Government of the
 United States of America
 to an inventor “to exclude
 others from making, using,
 offering for sale, or selling
 the invention throughout
 the   United    States    or
                                 Patent number 2,091,077 for a “Lawn Mower,”
 importing the invention
                                 issued to H.C. Limbach in 1937.
 into the United States” for
 a limited time in exchange for public disclosure of the invention when
 the patent is granted.


 There are three types of patents. Utility patents may be granted to
 anyone who invents or discovers any new and useful process,
 machine, article of manufacture, or composition of matter, or any
 new and useful improvement thereof. Design patents may be granted
 to anyone who invents a new, original, and ornamental design for an
 article of manufacture. Plant patents may be granted to anyone who
 invents or discovers and asexually reproduces any distinct and new
 variety of plant.




PATENTS: Strategic Goal 1
Below are those Strategic Goal 1 measures for which enough data is available to establish performance
trends. The Patent Quality Composite Rate Measure is new and has insufficient data to show a trend
this year.
                                                                       M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




Strategic Goal 1: Optimize Patent Quality and Timeliness


T
     he USPTO is pleased to report that our AIA imple-      In order to achieve its goal to reduce pendency, the
     mentation efforts are proceeding on a timely           USPTO launched a major program called Clearing
     basis. America’s innovators are already seeing         Our Oldest Patent Applications 2.0 (COPA 2.0).
the benefits of this legislation. Seven provisions of the   COPA 2.0 is a continuation of the original COPA effort
AIA have been implemented – all within the time             to eliminate the “tail” of backlog applications.
frames prescribed by the Act – and proposed rules           For COPA 2.0, the “tail” is applications that were
have been published for nine more provisions.               13 months and older as of October 1, 2011, and had
The USPTO remains on track to timely implement all          not received a first office action. The goal for FY 2012
provisions of the AIA.                                      was to complete a first office action on 260,000
                                                            applications. As of the end of the year, we addressed
The USPTO is also proud of our ongoing, concurrent          more than 271,635 COPA 2.0 applications and
efforts to improve the patent examination process and       achieved over 100 percent of the goal. Clearing the
more quickly move important innovations to the              oldest patent applications is important to the
marketplace. For example, our backlog of patent             USPTO’s long-term success in reducing pendency
applications has been reduced to 608,283, the lowest        and the excess inventory of unexamined patent
level in several years despite significant increases in     applications.
filings last year and this year. Our total pendency was
reduced to 32.4 months and our first action pendency        The improvements and increased efficiencies are
was reduced to 21.9 months, much lower than the             shown in our COPA performance metrics in Figure 7,
previous year.                                              below.

 FIGURE 7   	                    Clearing the Oldest Patent Applications – FY 2012

                                       COPA “Tail” Cases in the Backlog




                                                                                                                                   17




                                                                                                             www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     OBJECTIVE 1: Re-engineer patent process                     Program by including all utility applications in all tech-
     to increase efficiencies and strengthen                     nology areas and filing dates. As with the previous First
     effectiveness                                               Action Interview pilot programs, the applicant is
                                                                 entitled to a first action interview, upon request, prior
     The USPTO is realizing benefits from the success of         to the first office action on the merits. This pilot has
     various initiatives, pilots, and operational improve-       been extended to run through November 16, 2012.
     ments. The agency is moving from a one-track                A total of 3,533 applicants have joined the programs
     patent examination process to a multi-track process         since April 2008, 870 interviews have been conducted,
     by adopting procedures and initiatives that incen-          and 1,304 of the applications have been allowed.
     tivize abandoning applications that are not                 The program has an overall first action allowance rate
     important to applicants; accelerating critical tech-        of 29.4 percent as compared with 11.5 percent for all
     nologies; permitting an applicant to accelerate             original non-continuing applications in FY 2012.
     applications; and exploring other incentive and
     accelerated examination options. Specific initia-           After Final Practice and Quick Path IDS (QPIDS)
     tives include:                                              Pilots
                                                                 As another part of our ongoing efforts toward
     Track One                                                   compact prosecution and increased collaboration
     The USPTO launched the AIA-mandated acceler-                between examiners and stakeholders, we recently
     ated examination program (Track One) that allows            announced the start of the After Final Consideration
     patent applications to be processed to completion           Pilot (AFCP) and QPIDS pilots. The AFCP allows addi-
     in 12 months and offers small businesses a discount         tional flexibility for applicants and examiners to work
     on this option. Since its inception, the agency             together in “after final” situations to move applications
     received more than 6,000 Track One patent applica-          toward allowance.
     tions, and more than 2,400 entrepreneurs have
     taken advantage of those 50 percent discounts.              Our QPIDS pilot provides consideration of an Informa-
     The agency completed more than 3,900 first actions          tion Disclosure Statement (IDS) submitted after the
     on Track One examinations in an average of 50 days,         payment of the issue fee without requiring a Request
     mailed over 1,085 allowances, and issued more               for Continued Examination (RCE). The objective of
     than 677 patents.                                           this new pilot program is to reduce the number of
                                                                 RCEs filed for consideration of an IDS after the issue
     First Action Interview Pilot Program                        fee is paid.

     The First Action Interview Pilot Program allows partici-    Table 3 below provides the relative cost effectiveness
     pants to conduct an interview with the examiner as          of the entire patent examination process over time,
     soon as the prior art search has been conducted.            or the efficiency with which the organization applies
     This program was expanded from a small pilot program        its resources to production.
     to include additional technical areas, enhance effi-
     ciency, and provide more options to participants.
     The program has many benefits including: (1) the             TABLE 3   	       Measure: Total Cost Per
                                                                  	                 Patent Production Unit
     ability to advance prosecution of an application;
     (2) enhanced interaction between the applicant and               FISCAL YEAR           TARGET            ACTUAL
                                                                          2008               $3,982           $3,773
     the examiner; (3) the opportunity to resolve patent-
                                                                          2009               $3,562           $3,523
     ability issues one-on-one with the examiner at the
                                                                          2010               $3,530           $3,471
     beginning of the prosecution process and; (4) the
                                                                          2011               $4,041           $3,594
     opportunity to facilitate early allowance. The First-Ac-             2012               $3,970           $3,617
     tion Interview Pilot Program notice was originally signed            2013               $4,041
     March 24, 2008. The USPTO launched the Full First                    2014               $3,878
18   Action Interview Pilot Program on May 16, 2011.              Target Met.
     This program expands on the First Action Interview Pilot




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                         M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




OBJECTIVE 2: Increase patent application                     opened in Detroit, Michigan on July 13, 2012.
examination capacity                                         This location and future locations will function as
                                                             hubs of innovation and creativity, helping protect
The USPTO continues to increase its examination              and foster American innovation in the global market-
capacity by employing new recruitment and devel-             place, assisting businesses to cut through red tape,
opment models to hire, train, and retain a highly            and creating hundreds of highly-skilled jobs in each
skilled and diverse workforce. While continuing to           of the local communities. The IP experts in the office
draw candidates from traditional sources, a targeted         will work closely with entrepreneurs and help further
hiring program was launched to focus on recruiting           reduce the backlog of patent applications and
experienced former examiners and IP professionals.           appeals. Reducing the backlog of patents and
The new hiring model seeks individuals with appro-           simultaneously speeding up the process will allow
priate technology backgrounds who also have                  businesses to move their innovation to market more
previous IP experience for patent examiner positions.        quickly. The new office is the first to open out of four
In contrast with previous hiring which focused on            announced USPTO satellite offices saving critical
scientific background and experience, this new               time and resources. The AIA, signed into law by
hiring model places more emphasis on recruiting              President Obama on September 16, 2011, requires
candidates with significant IP experience. This will         the USPTO to establish three satellite locations as
result in reduced training time as well as an                part of a larger effort to modernize the U.S. patent
increased ability to examine applications much               system by September 16, 2014.
sooner with an experienced new hire, thereby
increasing overall production output.                        In the coming years, the USPTO plans to open in
                                                             three new locations in or around Dallas, Texas,
For the first time ever, the USPTO has expanded its          Denver, Colorado, and Silicon Valley, California. These
operations outside of the Washington, DC metropol-           efforts, in conjunction with our ongoing implementa-
itan area as part of our ongoing effort to recruit and       tion of the AIA, are improving the effectiveness of our
retain the nation’s top professionals. The first USPTO       IP system, and breathing new life into the innovation
satellite office, the Elijah J. McCoy Satellite Office,      ecosystem.




                                                                                                                                     19
  A group of Patent Training Academy graduates pose with management officials and Deputy Under Secretary Theresa Rea.




                                                                                                               www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     OBJECTIVE 3: Improve patent pendency and                   Through a series of international work-sharing agree-
     quality by increasing international cooperation            ments, PPH has helped patent applicants receive IP
     and work-sharing                                           protection in 24 different countries—faster and at a
                                                                lower cost. This kind of international collaboration is
     Patent processing times are primarily gauged by two        especially important in breaking down the barriers
     measures – Average First Action Pendency (Table 4)         that impede smaller companies trying to export their
     and Average Total Pendency (Table 5). Average First        products into a global marketplace.
     Action Pendency is the average length of time it takes
     from filing until an examiner’s initial determination of   As of the end of FY 2012, over 17,400 applications at
     the patentability of an invention. Average Total           the USPTO had been received within the PPH program
     Pendency is the average length of time it takes from       since its inception (Figure 8). This achieved the goal
     filing until the application is issued as a patent or      of driving significant increase in usage for three years
     abandoned by the applicant. Due to our successful          running. Users benefit not only by fast portfo-
     effort, Average First Action Pendency has declined         lio-building, but also by enjoying the collective savings
     significantly from the previous year. This decrease was    of millions of dollars in the process. A study by our
     expected due to the efforts focused on clearing up         user community demonstrated that—in a single appli-
     the oldest patent applications from the backlog            cation—anywhere from $2,000 to $13,000 in reduced
     through the COPA 2.0 initiative.                           prosecution costs can be realized through PPH.
                                                                For international filers of all sizes, that level of savings
       TABLE 4   	    Measure: Patent Average First             adds up quickly.
      	                Action Pendency (Months)
            FISCAL YEAR            TARGET           ACTUAL      While PPH has grown tremendously in usage, we are
                2008                 26.9            25.6       working with our international partner offices to further
                2009                 27.5            25.8       improve the program. One of the first major steps was
                2010                 25.4            25.7       expansion of the PPH into the PCT system. This opened
                2011                 23.0            28.0       up the advantages of PPH to an entire sector of inter-
                2012                 22.6            21.9
                                                                national filers, while paving the way toward making
                2013                18.01
                                                                PCT the work-sharing model it was originally intended
                2014                15.81
                                                                to be. With the world’s patent offices making produc-
       Target Met.
                                                                tive use of each other’s work, the USPTO can reduce
       1   Outyear targets subject to change.                   the cost of doing business and help innovators move
                                                                their products to market faster, with greater predict-
       TABLE 5   	        Measure: Patent Average               ability and certainty.
      	                   Total Pendency (Months)
            FISCAL YEAR            TARGET           ACTUAL      Other important PPH metrics include:
                2008                 34.7            32.2
                2009                 37.9            34.6       ●●   An overall allowance rate of 90 percent, signifi-
                2010                 34.8            35.3            cantly higher than the overall USPTO average allow-
                2011                 34.5            33.7            ance rate;
                2012                 34.7            32.4
                2013                30.11                       ●●   A lower average appeal rate of 0.9 percent versus
                2014                26.11                            the overall USPTO average appeal rate of 3.0 per-
       Target Met.                                                   cent; and
       1   Outyear targets subject to change.                   ●●   An 11.0 percent rate of requests for continued
                                                                     examination versus the USPTO rate of 29.6 percent
     In recent years, the Patent Prosecution Highway (PPH)           requests for continued examination.
     has proven to be a significant work sharing initiative
20   for the USPTO, and a successful vehicle enabling           This program was selected by former Secretary of
     faster and less expensive multi-country patent prose-      Commerce, Gary Locke, as one of the first two
     cution for the IP community.                               programs to be awarded the Department’s first Perfor-



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                      M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




 FIGURE 8   	                              Cumulative Total PPH Filings




mance Excellence Award for outstanding efforts to          Collaboration with our PPAC - and the entire patent
improve business processes.                                community - led to the development of a compre-
                                                           hensive set of metrics that we use to monitor patent
                                                           quality from start to finish. These quality metrics are
OBJECTIVE 4: Measure and improve
                                                           reported to our stakeholders on a monthly basis via
patent quality
                                                           the USPTO Data Visualization Center – Patent’s
                                                           Dashboard (Figure 9), available at www.uspto.gov/
The USPTO continues to focus on delivering high-
                                                           about/stratplan/dashboards.jsp.
quality patents to innovators. More than two years
ago, the agency worked with our patent examiners’
                                                           To better measure the quality of services provided by
union to develop a new work credit system that gives
                                                           the patent examining staff, the USPTO expanded its
examiners more time to review the merits of an appli-
                                                           Patents External Quality Survey. This survey gives appli-
cation before making a decision. We have improved
our hiring practices, recruiting experienced IP profes-    cants an opportunity to provide feedback on the
sionals as well as recent engineering graduates.           patent process on a semi-annual basis. The survey
Comprehensive training is provided for new as well         provides a valuable complement to other quality
as experienced examiners.                                  initiatives, such as enhancing interview practice.
                                                           The survey results (Figure 10), along with customer
We implemented new performance standards that              outreach efforts and other initiatives, enable the
place a greater emphasis on examiners interacting          USPTO to improve service quality based upon the
with patent applicants earlier in the process to clarify   input collected through the survey process. In the
claims and enhance the quality of patent reviews.          Fall 2012 survey, 35 percent of customers felt that
                                                           overall examination quality had slightly or signifi­
                                                                                                                                  21
                                                           cantly improved over the previous three months.
                                                           These levels are consistent with those observed over



                                                                                                            www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




                                                               centage of UPRD office actions prior to allowance or
       FIGURE 9    	 USPTO Data Visualization Center
      	                   – Patent’s Dashboard                 final rejection that were found to be compliant with
                                                               applicable rules and laws. These quality measures
                                                               contribute to changing our focus from end-process
                                                               reviews to an emphasis on front-end quality.
                                                               These measures are being subsumed within the more
                                                               robust measure, the Patent Quality Composite Rate.

                                                                TABLE 6   	      Measure: Patent In-Process
                                                                	                   Compliance Rate
                                                                    FISCAL YEAR            TARGET             ACTUAL
                                                                        2009                 N/A               93.6%
                                                                        2010                94.0%              94.9%
                                                                        2011            94.6% - 95.6%          95.2%
                                                                        2012            94.6% - 96.0%          95.9%


                                                                TABLE 7   	   Measure: Patent Final Disposition
                                                                	                   Compliance Rate
                                                                    FISCAL YEAR            TARGET             ACTUAL
                                                                        2009                 N/A               94.4%
                                                                        2010                94.5%              96.3%
                                                                        2011            95.6% - 96.5%          95.4%
                                                                        2012            95.6% - 96.7%          96.6%

     the past year and remain some of the most positive
     ratings the USPTO has achieved since the inception        The USPTO implemented a new quality measure,
     of the survey.                                            “Patent Quality Composite Rate.” The new composite
                                                               quality metric is composed of seven total factors
                                                               that take into account stakeholder comments,
       FIGURE 10   	 Selected External Survey Findings         including three factors drawn from the USPTO’s
                                                               previous quality measurement procedure, and four
                                                               new factors that focus upon data never before
                                                               acquired and/or employed for quality measure-
                                                               ment purposes. The following factors have been
                                                               modified from the previous procedure measure:
                                                               (1) the quality of the action setting forth the final
                                                               disposition of the application; (2) the quality of the
                                                               actions taken during the course of the examination;
                                                               and (3) the perceived quality of the patent process
                                                               as measured through external quality surveys of
                                                               applicants and practitioners. The newly added
     Other measures of patent quality include the Patent       factors measure: (1) the quality of the examiner’s
     In-Process Compliance Rate (Table 6) and the Patent       initial search; (2) the degree to which the first action
     Final Disposition Compliance Rate (Table 7).              on the merits follows best examination practices;
     The Patent In-Process Compliance Rate provides the        (3) the degree to which global USPTO data is indic-
     percentage of Utility, Plant, Reissue, Design (UPRD)      ative of compact, robust prosecution; and (4) the
     allowances and final rejections reviewed that were        degree to which patent prosecution quality is
     found to be compliant with applicable rules and laws      reflected in the perceptions of the examination
22   regarding final patentability determination. The Patent   corps as measured by internal quality surveys.
     Final Disposition Compliance Rate provides the per-       Table 8 exhibits our recent progress on this new




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                      M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




measure. Note that FY 2011 was the baseline year          customer satisfaction. One of the quality manage-
for this new measure.                                     ment principles of ISO 9001 is the continual improve-
                                                          ment of overall performance.
In providing more effective training, the USPTO further
enhances patent examination fundamentals,                 Work product review, feedback, and training are
communication, and cooperation between the                interrelated quality components and are key to
examiner and applicant. The USPTO utilizes a highly       quality patent examination, a critical part of the
successful compact prosecution training and               USPTO’s strategic plan. In achieving ISO 9001:2008
refresher training program that encompasses over          certification by OPQA, the USPTO has ensured that
20 training modules designed to enhance examiners’        well-defined and documented standards and
knowledge and skills in procedural and legal topics       processes are in place and demonstrates to internal
pertaining to patent examination. In addition, the        and external stakeholders alike that it is dedicated
USPTO has also implemented the Patent Examiner            to providing consistent quality products and services.
Technical Training Program (PETTP) which provides
patent examiners with direct access to experts who         TABLE 8   	Measure: Patent Quality Composite Rate
are able to share their technical knowledge on prior          FISCAL YEAR                TARGET                ACTUAL
art and industry standards in areas of emerging                   2010                     N/A                  N/A
technologies and established technologies.                        2011                     N/A                  30.7
The PETTP provides an excellent opportunity for                   2012                    48-56                 72.4
communication between patent examiners and the                    2013                    65-73
                                                                  2014                    83-91
experts who work in the various technologies that
are examined throughout the USPTO. This enhanced           Target Met.
communication contributes to improving overall
patent quality and decreasing patent pendency.
Another new program is the Site Examiner Education        OBJECTIVE 5: Improve appeal and post-grant
(SEE) program, this program allows examiners to           processes
travel to companies and educational institutions to
learn about updates on technology or new technol-         September 16, 2012 marked a momentous occasion
ogies and experience how technologies operate in          for the Board of Patent Appeals and Interferences
the field.                                                (BPAI). On that day, the BPAI become the PTAB.
                                                          In keeping with that change, the Board opened for
In addition, the Office of Patent Training (OPT) has      business to accept petitions for some of the new AIA
provided a two-phase training program to new              post grant proceedings using the Patent Review
supervisory patent examiners which provides               Processing System (PRPS), our new, web-based
coaching and mentoring, leadership and software           e-filing tool.
training modules in an effort to help patent
examiners reach their full potential. Patent managers     The PTAB issued a record number of decisions in
and supervisors will continue to participate in a         FY 2012; 10,180. Because of the outstanding efforts
Leadership Development Program which focuses on           of the Judges and staff at the PTAB, the backlog of
educating and creating leaders. Furthermore, the          ex parte appeals has stopped growing for the first
OPT received recertification for the ISO 9001:2008.       time in several years. While we expect to keep
In addition, the USPTO’s Office of Patent Quality         making progress, there are many factors which play
Assurance (OPQA) received a certificate of registra-      into the reduction, including intake of new appeals,
tion for the International Standard ISO 9001:2008.        successful hiring in FY 2013, and intake of proceed-
The ISO 9001 quality standard is the most widely          ings authorized by the AIA. All indications are
recognized and established quality management             presently favorable that the PTAB will be making
system framework in the world, outlining require-         steady progress in reducing the backlog to a
ments that provide the foundation for both OPQA           manageable level. In addition, the PTAB coordi-                         23
and to meet customer expectations and achieve             nated and published new rules relating to the




                                                                                                            www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     processing of ex parte appeals. These new rules            OBJECTIVE 6: Develop and implement the
     streamline and simplify the appeal process, resulting      patent end-to-end processing system
     in greater efficiencies for both Appellants and the
     Board. In preparation for the implementation of the        The USPTO is implementing a variety of IT initiatives to
     AIA, the PTAB wrote and published rules to implement       improve our patent operations.
     the new procedures, and developed systems
     required to conduct Inter Partes Reviews, Post Grant       The Patent End-to-End (PE2E) and Patent Application
     Reviews, the Transitional Program Review for Covered       Text Initiative (PATI) will convert 55 million image-
     Business Methods Patents, and Derivation Proceed-          based pages into structured text. This effort will yield
     ings. PTAB is currently on track to implement the AIA      eXtensible Markup Language (XML) text versions of
     on time.                                                   the key documents for the entire active patent
                                                                backfile. Upon completion, legacy tools will provide
     The PTAB continues to improve communications               the converted documents to all patent examiners for
     with the Patent organization. PTAB continued its           seamless use within the legacy examination tools.
     program where senior patent examiners are detailed         Furthermore, it lays the foundation for PE2E’s content
     to the PTAB in order to develop a high-level under-        as PE2E grows to encompass the patent corps.
     standing of its operations, decision-making
     processes, and constraints. Patent examiners are           Universal Laptops (UL) have been deployed to patent
     detailed from the examination corps to work with           examiners. This 18-month effort was on time and on
     Administrative Patent Judges by researching both           budget, providing patent examiners with state-of-
     technical and legal issues raised in appealed cases        the-art laptops and collaboration tools to improve
     and apply court decisions in legal analysis to assist      productivity and facilitate telework and remote collab-
     judges crafting quality decisions. PTAB continues to       oration through video conferencing and Voice over
     liaise with USPTO technology center representatives        Internet Protocol capabilities.
     in order to enhance operational understanding
     throughout the agency.




       The Patent Trial and Appeal Board swearing-in ceremony held at the USPTO headquarters on March 1, 2012.




24




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                          M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




E-petitions allow applicants to obtain real-time            TABLE 9   	      Measure: Patent Applications
decisions on their petitions by automating the              	                    Filed Electronically
handling of common electronically filed petitions.               FISCAL YEAR                 TARGET                ACTUAL
E-petitions now account for more than a third of                     2008                     69.0%                 71.7%
petitions received by the USPTO.                                     2009                     80.0%                 82.4%
                                                                     2010                     90.0%                 89.5%
The USPTO’s network infrastructure has been upgraded                 2011                     92.0%                 93.1%
with connectivity to the internet at 3GBps, providing                2012                     96.0%                 97.11
Internet Service Provider (ISP)-grade network                        2013                     97.0%2
bandwidth to our examiners. This ensures that tele-                  2014                     97.0%2
workers have the highest quality remote access into          Target Met.
their examination tools, and it substantially improves       1	 Preliminary data and is expected to be final by December

the USPTO’s ability to support high definition video            2012 and will be reported in the FY 2013 PAR.
conferences between examiners and applicants.                2	Outyear    targets subject to change.


The USPTO continues to provide and enhance the
                                                           The improvements and increased efficiencies can
tools for applicants’ use for patent application filing.
                                                           be seen in some of our metrics in Figure 11.
The use of electronic filings as shown in Table 9
continues to rise, now at 97.1 percent, from last year
when 93.1 percent of applications were filed
electronically.


 FIGURE 11   	                                Various Patent Metrics


                               Applications Awaiting First Action FY 2008 – FY 2012




                                                                                                    (continued on next page)
                                                                                                                                      25




                                                                                                                www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




       FIGURE 11 Continued     	                       Various Patent Metrics


                             12 Month Rolling Average Actions Per Disposal by Bi-Week FY 2009 – FY 2012




                               12 Month Rolling Average Allowance Rate by Bi-Week FY 2009 – FY 2012




26




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
    What is a trademark or service mark?

    A trademark is a brand
    name. A trademark or
    service mark includes
    any    word,     name,
    symbol, device, or any
    combination, used or
    intended to be used to
    identify and distinguish
    the goods and services
    of one seller or provider
    from those of others,
                                A Transformers action figure is a good repre-
    and to indicate the         sentation of a trademark or service mark.
    source of the goods
    and services. Although federal registration of a mark is not mandatory,
    it has several advantages, including notice to the public of the regis-
    trant’s claim of ownership of the mark, legal presumption of ownership
    nationwide, and exclusive right to use the mark on or in connection
    with the goods and services listed in the registration.




TRADEMARKS: Strategic Goal 2
Below are those Strategic Goal 2 measures for which enough data is available to establish performance
trends. The Exceptional Office Action Measure is new and has insufficient data to show a trend this year.


      FIGURE 12                                                               Trademark Average First Action Pendency

               8                   6.6                               6.6          6.4
                      5.7                                  5.4                                                                                                          Target   Actual
               6                                                                           5.3
                                             4.3
 Months




                                                                                  6.3                    3.7       3.5          3.5       3.5          3.5        3.5
               4                                                     5.4
                      4.5                                                                  4.8
               2                             3.0           3.0                                           2.9       3.0          2.7       3.0          3.1        3.2
                                   2.7
               0
                    FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2012

  Trend: Target and actual trends are positive from FY 2000 to FY 2012. Additional discussion for this metric can be found on page 30.


      FIGURE 13                                                                     Trademark Average Total Pendency

              18            14.8
                                                   14.3
                                                                           13.0                   13.0                   12.5                   12.0                    Target   Actual
              14
 Months




              10            13.4
                                                   11.8                    11.2                   10.5                   10.5                   10.2
               6

               2
                        FY 2007                  FY 2008                  FY 2009            FY 2010                 FY 2011                FY 2012

  Trend: Target and actual trends are positive. Additional discussion for this metric can be found on page 30.


      FIGURE 14                                                                Trademark First Action Compliance Rate

              98%                                                                                         96.4%          96.6%           96.5%
                                                                          95.9%          95.8%                                                           96.2%
                                                          95.7%                                                                                                         Target   Actual
 Percentage




              96%                        95.3%

              94%                                                         95.5%          95.5%            95.5%          95.5%           95.5%           95.5%
                      92.1%
              92%                                         93.5%
                                         92.5%
                      91.7%
              90%
                     FY 2004         FY 2005         FY 2006          FY 2007           FY 2008          FY 2009         FY 2010      FY 2011           FY 2012

  Trend: Target and actual trends are positive from FY 2004 to FY 2012. Additional discussion for this metric can be found on page 30.


      FIGURE 15                                                                     Trademark Final Compliance Rate

              98%              97.6%                                                                                                                                    Target   Actual
 Percentage




                                                                  97.0%                          97.0%                           97.1%
              97%
                               97.0%                                                             97.0%                           97.0%
                                                                  96.8%

              96%
                              FY 2009                            FY 2010                     FY 2011                            FY 2012

  Trend: The target trend has remained stable. The actual trend has a slight variance.
  Additional discussion for this metric can be found on page 31.


      FIGURE 16                                                           Trademark Applications Processed Electronically
                                                                                                                                 77.0%
              80%
                                                                                                 73.0%                                                                  Target   Actual
 Percentage




                                                                  68.1%
              70%                                                                                                                74.0%
                               62.0%
                                                                                                 68.0%
              60%                                                 65.0%
                               62.0%

              50%
                              FY 2009                            FY 2010                     FY 2011                            FY 2012

  Trend: Target and actual trends are positive from FY 2009 to FY 2012. Additional discussion for this metric can be found on page 33.
                                                                 M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




Strategic Goal 2: Optimize Trademark Quality and Timeliness


T
     rademarks perform a valuable function
     by identifying the source of products and
     services and serve as an indicator of reliable
quality to the consumer. By registering trade-
marks and providing notice of marks in use, the
USPTO protects consumers and provides important
benefits to American businesses by allowing them to
strengthen and safeguard their brands and related
investments.

The Trademark organization has met and exceeded
its performance targets. Additional performance
targets and metrics are reported on a quarterly
basis throughout the year at the USPTO Data Visual-
ization Center – Trademark’s Dashboard (Figure 17)
is available at www.uspto.gov/about/stratplan/
                                                        Commissioner for Trademarks Deborah Cohn speaks
dashboards.jsp. Reporting these metrics, along with     at the National Trademark Expo.
definitions, increases transparency as well as
providing a more useful and interactive dialog with
the IP community.                                     OBJECTIVE 1: Maintain trademark first action
                                                      pendency on average between 2.5-3.5 months
                                                      with 12.0 months for final pendency
     FIGURE 17   	 USPTO Data Visualization Center
 	                    – Trademark’s Dashboard         The Trademark organization consistently met and
                                                      exceeded its pendency targets for first action and
                                                      final disposition. With final pendency less than
                                                      11 months – a sustained record low for the office – a
                                                      new application is registered or issued a notice of
                                                      allowance on average in less than a year. This rapid
                                                      processing allows applicants to act quickly on
                                                      marketing strategies and business plans. The exam-
                                                      iner’s first action is issued approximately three months
                                                      from the filing date, giving the applicant an important
                                                      early indication of registrability. First action pendency
                                                      has been consistently maintained between 2.5 and
                                                      3.5 months despite monthly variability in new appli-
                                                      cation filings.

                                                      Pendency has improved as electronic filing and
                                                      processing have become the primary means of
                                                      conducting business. Increased use of electronic
                                                      forms, particularly Trademark Electronic Application
                                                      System (TEAS) Plus, has improved the efficiency and
                                                      timeliness of examination. While 32 percent of new
                                                      applications are TEAS Plus filings, these applications                 29
                                                      account for 49 percent of first action approvals – the




                                                                                                       www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




       FIGURE 18       	Pendency by Filing Method (Months)        TABLE 11   	   Measure: Trademark Average
                                                                  	               Total Pendency (Months)
                                                                      FISCAL YEAR            TARGET            ACTUAL
                                                                          2008                 14.3             11.8
                                                                          2009                 13.0             11.2
                                                                          2010                 13.0             10.5
                                                                          2011                 12.5             10.5
                                                                          2012                 12.0             10.2
                                                                          2013                 12.0
                                                                          2014                 12.0
                                                                  Target Met.

     fastest and most cost-effective method to apply for
     and register a mark as illustrated in Figure 18.            OBJECTIVE 2: Continuously monitor and
                                                                 improve trademark quality
     Trademark Pendency Performance
                                                                 The Trademark organization continues to meet and
     Trademark first action pendency measures the                exceed standards for high quality examination.
     average number of months from the date of applica-          96.2 percent of all first actions (Table 12) and 97.1
     tion filing to the first office action. Trademark average   percent of all final (approvals and rejections)
     total pendency measures the average number of               decisions (Table 13) were compliant with the regis-
     days from date of filing to notice of allowance, notice     trability standards set by statute, and also met or
     of abandonment, or registration for applications            exceeded agency standards for writing quality.
     based on use in that month. First action pendency           Results for both the first and final compliance action
     (Table 10) has been maintained within its optimized         measures are at or above their targets and indicate
     range of 2.5 to 3.5 months every month for the past         high accuracy in decision-making and writing.
     six years. Average final pendency, including                To sustain these high performance levels, the
     suspended and inter partes cases, was 12.0 months.          Trademark organization continues to emphasize
     Excluding applications that were suspended or               and improve training and feedback, promote elec-
     delayed for inter partes proceedings, average total         tronic filing and processing, and make greater use
     pendency (Table 11) was 10.2 months.                        of online tools and enhanced processes.

       TABLE 10    	     Measure: Trademark Average               TABLE 12   	      Measure: Trademark First
      	                 First Action Pendency (Months)            	                 Action Compliance Rate
          FISCAL YEAR               TARGET          ACTUAL            FISCAL YEAR            TARGET            ACTUAL
              2008                 2.5 to 3.5         3.0                 2008                95.5%             95.8%
              2009                 2.5 to 3.5         2.7                 2009                95.5%             96.4%
              2010                 2.5 to 3.5         3.0                 2010                95.5%             96.6%
              2011                 2.5 to 3.5         3.1                 2011                95.5%             96.5%
              2012                 2.5 to 3.5         3.2                 2012                95.5%             96.2%
              2013                 2.5 to 3.5                             2013                95.5%
              2014                 2.5 to 3.5                             2014                95.5%
       Target Met.                                                Target Met.




30




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                               M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




 TABLE 13    	       Measure: Trademark Final                   TABLE 14   	          Measure: Total Cost Per
 	                      Compliance Rate                         	                   Trademark Office Disposal
      FISCAL YEAR             TARGET             ACTUAL              FISCAL YEAR                  TARGET                ACTUAL
          2009                 97.0%              97.6%                  2008                      $697                  $470
          2010                 97.0%             96.8%1                  2009                      $639                  $474
          2011                 97.0%              97.0%                  2010                      $607                  $520
          2012                 97.0%              97.1%                  2011                      $650                  $541
          2013                 97.0%                                     2012                      $607                  $560
          2014                 97.0%                                     2013                      $6091
 Target Met.                                                             2014                      $6081
 1                                                              Target Met.
     Within the target range of 97.0% considering the margin
     error of (+/- 0.6%).                                       1   Outyear targets subject to change.


The Trademark organization strives to enhance the              and related services over time; it does not represent
quality of examination by adopting more rigorous               the unit cost of a trademark since office disposals
customer-centric measures. The new “exceptional”               are only one measure among many products and
quality measure—which reflects comprehensive                   services that the USPTO performs each year.
excellence of the search, evidence, writing, and deci-
sion-making of the initial office action, while also
emphasizing the appropriate use of telephone and               OBJECTIVE 3: Ensure accuracy of
e-mail communications to settle or clarify issues with         identifications of goods and services in
the applicant or its attorney—exceeded its target by           trademark applications and registrations
6 percentage points (Figure 19). The target is an indi-
cation of the high standard that has been set in               The USPTO conducted public outreach and round-
defining excellence. Feedback from user groups is              tables aimed at addressing concerns about the
used to ensure that the standards of excellence                accuracy in the descriptions or identifications of
reflect users’ perception of excellence as well.               goods and services. USPTO practice regarding the
                                                               level of specificity of identifications, greater collabo-
Trademark Efficiency Performance                               ration with industry groups, and sharing interna-
                                                               tional databases of acceptable identifications were
The efficiency measure (Table 14) is calculated by             discussed with members of the user community.
dividing total expenses associated with the exam-
ination and processing of trademarks (including                The Trademark organization hosted a number of
associated overhead and allocated expenses) by                 public meetings as a follow-up to address issues
outputs or office disposals. The measure is a relative         concerning fraud, policing measures, and tactics.
indicator of the efficiency of the trademark process           Following up on one of the leading suggestions from
                                                               an earlier report, the USPTO issued a final rule to
 FIGURE 19       	   Exceptional Office Action                 implement a pilot program requiring additional
                                                               specimens or other evidence in connection with a
                                                               Section 8 and 71 Affidavit of Continued Use to assess
                                                               the level of accuracy of the identifications. The results
                                                               from the pilot are expected next year and could
                                                               yield information about the reliability of the trademark
                                                               register or whether a problem exists which may
                                                               require measures to address it.

                                                               The USPTO extended its collaboration with the inter-
                                                               national community on acceptable identifications.                           31
                                                               The agency hosted the 10th Annual Meeting of the




                                                                                                                     www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     Trademark Trilateral Offices at USPTO headquarters          posted suggestions from one intellectual property
     on December 5-7, 2011—the Japan Patent Office               organization. The Board’s attorneys and judges also
     (JPO) and the Office for Harmonization in the Internal      continued to emphasize and promote the benefits of
     Market (OHIM), the European Union’s trademark and           ACR options during speeches, panel discussions and
     design office. The meeting included both the Korean         through webinars.
     Intellectual Property Office (KIPO) and the Chinese
     State Administration for Industry and Commerce              In June 2012, the TTAB issued the first revision of the
     (SAIC) which were invited to join the Trademark Trilat-     third edition of the Trademark Board Manual of
     eral as full partners. The group will be renamed the        Procedure (TBMP): www.uspto.gov/trademarks/
     “TM5” to recognize the expansion. The partners,             process/appeal/. The manual was revised to incor-
     along with the World Intellectual Property Organiza-        porate new material related to December 2010
     tion (WIPO), shared information on the latest devel-        amendments of the Federal Rules of Civil Procedure,
     opments in each office. They discussed how to move          many precedential decisions issued by the Board and
     forward on existing and potential cooperative               the Court of Appeals for the Federal Circuit, and to
     projects such as the TM5 Identification of Goods and        acknowledge developments in practice since the
     Services Project, a harmonized list of identifications of   third edition was posted on the Board’s Web page in
     goods and services and their classifications that           May 2011. The Board also hired a senior level attorney,
     would be accepted in all TM5 offices, along with any        who will serve as the TBMP editor and ensure the
     additional national office that has “docked on” to the      manual is regularly revised.
     project, such as Canada, the Philippines, the Russian
     Federation, Mexico, and Singapore.                          Throughout the year, the Board continued its commit-
                                                                 ment to developing the law by issuing a substantial
                                                                 number of precedential opinions and orders, with 45
     OBJECTIVE 4: Enhance operations of                          such decisions issued on a wide variety of substantive
     Trademark Trial and Appeal Board                            and procedural matters. The TTAB’s precedential
                                                                 decisions on ex parte appeals provide procedural
     The TTAB hosted a public, roundtable discussion with        and substantive guidance to the agency’s trademark
     representatives of stakeholder organizations regard-        examining attorneys, trademark owners, and the
     ing Board performance measures in November, 2011.           trademark bar. The TTAB’s precedential decisions in
     The discussion promoted transparency in relation to         opposition and cancellation proceedings provide
     Board operations, explaining the basis for traditional      guidance to trademark owners and the bar on proce-
     performance measures, and involved the participants         dural matters pertaining to the Trademark Rules of
     in discussion of what additional information and            Practice, the application of the Federal Rules of Civil
     dashboards would serve a useful purpose for attor-          Procedure to Board cases, and on substantive legal
     neys, applicants, and registrants. The Board also           matters.
     received suggestions from participants about desir-
     able subjects for discussion in future roundtables.
                                                                 OBJECTIVE 5: Modernize IT system by
     The TTAB continued to work closely with the bar to          developing and implementing the
     expand and refine its Accelerated Case Resolution           Trademark Next Generation IT System
     (ACR) practice options. The TTAB saw increased use
     of ACR to expedite the disposition of inter partes          The Trademark organization is progressively becoming
     cases in FY 2012, with a 50 percent increase in the         a fully electronic organization. More than 98 percent
     number of cases decided based on utilization of             of new applications are received electronically and,
     some form of ACR than in either of the two prior fiscal     with progressive increases each year, in FY 2012 77.0
     years. To facilitate the use of ACR, the TTAB revised       percent were processed completely electronically
     materials posted on its Web page that provide stake-        from filing to final disposition (Table 15). This perfor-
32   holders with information about ACR. In addition, the        mance result demonstrates the success of outreach
     Board developed and posted on its Web page four             efforts to improve electronic correspondence
     suggested approaches, to add to the previously              following the initial filing. An e-government task force



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                          M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




was formed to work with applicants to address their         will continue to seek input from stakeholders as
concerns. Six focus sessions were held across the           progress continues to be made.
country with user groups to identify process enhance-
ments and novel practices that eliminate the need           Trademark E-Management
for paper-based filings and communications.
                                                            The number of electronically filed trademark appli-
                                                            cations has progressed steadily over the years as a
Trademark information has been combined into one
                                                            result of promotional events, increased number and
logical system with the release of the Trademark
                                                            type of applications available for filing electronically,
Status and Data Retrieval (TSDR). The new system
                                                            improved functionality and enhancements, and
incorporates additional features and links assign-
                                                            lower fees for filing electronically. The USPTO
ment, status and file content information. It reengi-
                                                            completed the launch of 11 informational trademark
neers the existing functionality that the Trademark
                                                            instructional videos that are available at the
Application and Registration Retrieval and Trademark
                                                            Trademark Information Network through www.uspto.
Document Retrieval systems previously provided sepa-
                                                            gov/trademarks/basics/. The Network was designed
rately, providing access to one place for viewing,
                                                            to present information in an entertaining manner
printing, and downloading snapshots of the data the
                                                            using news-style broadcast how-to videos, covering
USPTO maintains about a trademark application or
                                                            important topics and critical application filing tips, to
registration. TSDR is the first major release under the
                                                            address common filing mistakes.
Trademark Next Generation project.

 TABLE 15   	 Measure: Trademark Applications                 FIGURE 20   A
                                                                          	 pplications Completely Processed
 	               Processed Electronically                    	                  Electronically (Classes)
      FISCAL YEAR            TARGET         ACTUAL
          2009                62.0%          62.0%
          2010                65.0%          68.1%
          2011                68.0%          73.0%
          2012                74.0%          77.0%
          2013                74.0%1
          2014                76.0%1
 Target Met.
 1   Outyear targets subject to change.


Given the critical importance of the IT systems and         The measure “Applications Completely Processed
the existing state of its infrastructure and systems, the   Electronically,” identifies the degree to which the
USPTO is engaged in an ambitious IT modernization           Trademark organization is able to encourage appli-
program for Trademark systems. The program is being         cants to file and submit correspondence electroni-
conducted with rigorous and extensive technical and         cally as well as implement systems that can
managerial reviews to enhance functionality, avail-         electronically process, examine, and dispose of an
ability, security, scalability, quality of service, and     application in a completely electronic environment
overall cost efficiencies.                                  (Figure 20). This measure reports the percentage of
                                                            trademark applications that were filed, processed,
The program represents a major multi-year investment        and disposed of relying completely on electronic
to deliver the next generation of trademark systems.        systems and communications.
The USPTO has reached out to all key external and
internal stakeholders to identify needs, define require-    To increase electronic processing further, customer
ments, and assess and track the cost-benefits of the        focus sessions were conducted to identify best
investment. Prototypes are being developed to identify      practices, and issues that prevent them conducting
user preferences for the interface design. A number         all their transactions and communications electron-                       33
of demonstrations have been conducted along with            ically. As a result of the feedback, changes are being
a survey to gather user feedback. The organization          made in the electronic forms and notifications.



                                                                                                                www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     OBJECTIVE 6: Develop a new generation                     This year the Trademark organization devoted a full
     of Trademark leaders                                      day to bringing together all managers and supervi-
                                                               sors to discuss and improve our customer service,
     The Trademark organization continued programs in          communication, and motivation of diverse teams,
     support of the Trademark Human Capital Strategic          all in an electronic environment. Managers and
     Plan. The Trademark plan, which was developed to          supervisors also attended training throughout the
     further the objectives of the Office of Personnel         year as did aspiring leaders enthusiastically
     Management Federal Human Capital Strategic                attending instructor-led as well as computer-based
     Plan, has shown results. Teams continued to work on       training to improve their leadership skills. Over 162
     development programs and training in support of           enrollees in a large variety of courses covering such
     the three “human capital” objectives of talent            subjects as encouraging creativity, dealing with
     management, results-oriented performance culture,         conflict, and improving presentation skills will help us
     and leadership and knowledge management.                  motivate and inspire others while we build more
                                                               effective working relationships with employees and
     The Trademark organization continues to improve           stakeholders.
     upon its successful telework program through the
     continued expansion of telework opportunities and         The Trademark organization developed an organic
     by expanding the use of remote access and collab-         Strategic Human Capital Plan that strengthens our
     oration tools.                                            ability to engage employees, improve knowledge
                                                               management, and develop a future pool of aspiring
     The Trademark organization has been proactive this        leaders. We are developing an effective Succession
     year in providing multiple training opportunities for     Plan and already have focused on tools to help us
     aspiring and current leaders. We emphasized the           preserve and pass down knowledge critical to the
     need for employee engagement and satisfaction in          business unit. By creating and implementing a large
     an organization that uses telework, including hoteling    variety of work projects and career development
     and remote work, as a successful business strategy.       details, we are providing numerous avenues for
     While 90 percent of the Trademark organization            aspiring and current leaders to learn other areas in
     employees telework, we support our employees              the Trademark organization and the USPTO as a
     through the use of collaboration tools and strength-      whole. We developed a sophisticated intranet site
     ened leadership that motivates employees and              to preserve technical and legal knowledge in an
     takes the time to listen to their concerns.               accessible format with easy searching capability.




34




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
 What is the role of the USPTO and
 intellectual property policy?

 The passage of the
 American     Inventors
 Protection Act of 1999
 mandates the USPTO to
 advise the President,
 through the Secretary
 of Commerce, and all
 Federal agencies, on
 national and interna-
                            Under Secretary David Kappos testifies before
 tional IP policy issues,   the Senate Judiciary Committee regarding the
 including IP protection    implementation of the Leahy-Smith America
                            Invents Act and international harmonization
 in other countries. The
                            efforts on June 20, 2012.
 USPTO is also autho-
 rized by the AIPA to provide guidance, conduct programs and studies,
 and otherwise interact with international IP offices and international
 intergovernmental organizations on matters involving the protection of
 intellectual property. The Office of Policy and External Affairs (OPEA)
 executes these functions authorized by the AIPA.




INTELLECTUAL PROPERTY:
    Strategic Goal 3
Below is the Strategic Goal 3 measure for which enough data is available to establish performance
trends. The following measure has insufficient data for trend calculation: Percentage of foreign officials
trained who have initiated or implemented a positive change in the IP systems in their organizations
and/or countries.
                                                                  M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




Strategic Goal 3: Provide Domestic and Global Leadership
to Improve Intellectual Property Policy, Protection and
Enforcement Worldwide


T
     he USPTO develops and advances domestic
     and international U.S. IP policy objectives that
     include the establishment of strong and
balanced IP systems to serve the needs of all stake-
holders. The USPTO develops IP policy through infor-
mation gathering and analysis and stakeholder
consultations. Stakeholders include domestic and
foreign IP rights holders and users, consumers, U.S.
government agencies, foreign governments, and
the public at large. The USPTO furthers IP policy
goals through training foreign officials, providing
domestic and international educational outreach,
launching strategic cooperation projects between
national IP offices, deploying IP Attachés to critical
regions of the world, and advising on the IP aspects
of U.S. trade efforts, including participation in the
                                                         Tina M. Tchen, Executive Director of the White
current Trans-Pacific Partnership (TPP) negotiations.
                                                         House Council on Women and Girls, Director of the
                                                         White House Office of Public Engagement speaks
                                                         at the Woman Entrepreneurship event at USPTO
OBJECTIVE 1: Provide domestic leadership                 headquarters on March 1, 2012.
on IP policy issues

Provide Evidence on the Economic Impacts
                                                         FIGURE 22 A
                                                                   	 verage Weekly Wages of Private Wage
of IP Protection                                         and Salary Workers in IP-Intensive Industries, 2010
On April 11, 2012, the Secretary of Commerce
released a report titled “Intellectual Property in the
U.S. Economy: Industries in Focus” co-authored by
the USPTO and the Economics and Statistics Admin-
istration. The report details how U.S. companies in
our most competitive industries are using patents
and copyright to protect their innovations, and
trademarks to distinguish their goods and services
from those of competitors. The report identifies the
75 American industries most intensively using IP
protections, and uses statistical data from across the
U.S. government to examine both the important
trends and economic characteristics of these highly
IP-intensive industries. There are several important     Graph demonstrating that wages in the IP-intensive
findings contained in the report, including:             industries are significantly higher than in other sectors
                                                         of the economy (Source: Intellectual Property in the
                                                         U.S. Economy: Industries in Focus Report, April 2011).

                                                                                                                              37




                                                                                                        www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     ●●   The entire U.S. economy relies on some form of IP,       In addition to its work defending the USPTO Director
          because virtually every industry either produces         and Boards, OGC also plays an important role
          or uses it.                                              advising the Government on IP matters before the
                                                                   U.S. Supreme Court, both as a party and as an
     ●●   IP-intensive industries directly accounted for about
                                                                   amicus curiae. For example, OGC took steps to
          27 million American jobs in 2010, and indirectly
                                                                   ensure that the USPTO’s position is heard in federal
          supported an additional 13 million U.S. supply
                                                                   district court copyright litigation concerning the
          chain jobs. This equals 40 million American jobs,
                                                                   copying and subsequent submission of prior art
          or 27.7 percent of all U.S. employment.
                                                                   publications (known as “non-patent literature” or
     ●●   Jobs in IP-intensive industries pay well compared        “NPL”) to the USPTO by patent attorneys as part of
          to other jobs. Average weekly wages (Figure 22)          their clients’ duty to disclose information to the
          for IP-intensive industries were 42 percent higher       USPTO that is material to the examination of a patent
          than average weekly wages in other private-              application. In John Wiley & Sons v. McDonnell,
          sector industries in 2010. That wage differential        Boehnen, Hulbert & Berghoff LLP and three other
          was an impressive 75 percent higher for jobs in          district court cases, copyright holders have sued
          the patent- and copyright-intensive industries.          patent law firms for copyright infringement for
                                                                   copying and submission of NPL without first obtaining
     ●●   IP-intensive industries accounted for just over
                                                                   permission from the copyright holders. The USPTO,
          $5 trillion dollars in value added in 2010, or about
                                                                   working with the Department of Justice, successfully
          35 percent of U.S. gross domestic product.
                                                                   intervened on the side of patent applicants and
                                                                   patent attorneys to ensure, not only the integrity of
     Monitoring and Providing Policy Guidance on
                                                                   USPTO patent examination and re-examination
     Key IP Issues in Raised in Courts
                                                                   processes, but also that submission of these publi-
     The USPTO continues to shape IP law and policy                cations remains as easy and economical as
     through domestic litigation, both as a party and as           possible for practitioners. The USPTO’s position, on
     amicus curiae (“friend of the court”). The agency’s           which it has asked the district court to render a
     IP litigation responsibilities fall primarily on the Office   declaratory judgment, is that where copying is
     of the Solicitor (or, “Solicitor’s Office”) within the        “necessary and incidental” to the filing and prose-
     USPTO’s Office of General Counsel (OGC). The Solic-           cution of a U.S. patent application or proceedings
     itor’s Office defends, amongst other matters, the             concerning the scope or validity of an issued patent
     decisions of the agency’s two administrative boards           - even if the copied materials are not ultimately
     (i.e., PTAB and TTAB), decisions of the USPTO Director,       submitted - it constitutes “fair use” under copyright
     and the agency’s rulemaking and policies in court.            law.
     These decisions involve a wide variety of issues,
     affecting agency practice as well as substantive              OGC also continues to positively impact IP law and
     patent and trademark law, and impacting a broad               policy through the expansion of the Law School
     spectrum of IP law issues.                                    Clinical Certification Pilot Program, which is overseen
                                                                   by OGC’s Office of Enrollment and Discipline.
     Over the past four years, the number of administrative        The Law School Clinic Certification Pilot Program
     decisions defended by the Solicitor’s Office has more         currently includes 28 law school clinics practicing
     than doubled – a trend likely to continue as the PTAB         both patent and trademark law under the guidance
     expands by more than one hundred administrative               of a Law School Faculty Clinic Supervisor. This year,
     patent judges over the next few years. Further expan-         the Program expanded to include twelve additional
     sion in the Solicitor’s Office will most likely be neces-     schools – a trend the agency hopes to continue
     sary to respond to the PTAB’s increase in size, as well       over the next several years. The program also added
     as the anticipated increase in litigation following the       a Request to Make Special component, intended to
     full implementation of the AIA. Despite staffing chal-        provide students with the opportunity to respond to
38   lenges, the Solicitor’s Office has not seen a significant     a substantive Office action in patent applications
     decrease in its litigation success, particularly before       they have prepared and filed with the agency.
     the U.S. Court of Appeals for the Federal Circuit.            One of the main goals of the program is to increase



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                        M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




the number of highly-qualified patent and trademark        U.S. SMEs, with an audience of more than 4,227
attorneys practicing before the USPTO and in Federal       people for those programs [These numbers reflect
Court. In keeping with the AIA, schools are required       data through 9/30/2012 in Q4 of FY 2012]. Domestic
to provide pro bono legal services to independent          programs include outreach to Native American
inventors and small businesses.                            tribes, educational programs on IP awareness, and
                                                           China Road Shows providing IP information to SMEs
Providing Domestic Education Outreach and                  seeking to do business in China. The GIPA has
Capacity Building                                          increasingly engaged members of the judiciary
                                                           within the U.S. and abroad. Additionally, the GIPA
The USPTO, through the Global IP Academy (GIPA) in
                                                           partners to develop and deliver educational
the Office of Policy and External Affairs, provides IP
                                                           outreach programs with other areas of the United
educational opportunities to U.S. and foreign govern-
                                                           States Government (USG), in particular the Small
ment officials, domestic small and medium-sized
                                                           Business Administration, bureaus of the Department
enterprises (SMEs), universities, foreign officials, and
                                                           of Commerce including the Minority Business Devel-
the public. The GIPA provides expertise on adminis-
                                                           opment Agency, and the U.S. Export Assistance
tration, protection, and enforcement in all areas of
                                                           Centers of the U.S. Commercial Service.
domestic and international IP. In FY 2012, the GIPA
conducted 140 training programs for foreign govern­
                                                           The GIPA is using technology to make training
ment officials, reaching an audience of more than
                                                           programs more efficient and to expand the reach of
9,217 foreign government officials from 130 countries.
                                                           those programs. For example, the GIPA hosts a
The GIPA also conducted 40 programs targeted for
                                                           database of all training and capacity building activ-
                                                           ities conducted by U.S. government agencies.
                                                           In addition, the GIPA hosts e-learning modules on its
 FIGURE 23   	      Educational Programs
                                                           website. Those modules, which are available in
                                                           seven different languages, have received over
                                                           20,000 hits since they were first posted on the site in
                                                           2010. The GIPA also is using webinars to provide
                                                           “train-the-trainer” and small business outreach.
                                                           The efforts by the USPTO will facilitate the export
                                                           capabilities of domestic industry and SMEs, and
                                                           ensure their competitiveness around the world.
                                                           As illustrated in Figures 23, 24, and 25, these charts
                                                           provide the number of programs, officials, and
                                                           countries trained by the GIPA.



 FIGURE 24   	   Number of Attendees Trained                FIGURE 25   	Cumulative Number of Countries Trained




                                                                                                                                    39




                                                                                                              www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     Engaging USG Agencies and Congress on                     of the AIA, through speaking engagements, webcasts,
     Legislation that Improves the IP System                   a frequently updated microsite, roundtable discus-
                                                               sions, and roadshows. Interested Capitol Hill staff was
     Throughout FY 2012, the USPTO continued to engage
                                                               invited to attend these sessions.
     Congress, other U.S. government agencies, and stake-
     holders to discuss, develop, promote, and implement
     effective and balanced IP-related legislation.            OBJECTIVE 2: Provide leadership on
     Discussions and briefings focused on continued
                                                               international policies for improving the
     implementation of the AIA and matters related to
                                                               protection and enforcement of IP rights
     domestic and international IP rights.

                                                               Leading efforts at the WIPO and other
     In FY 2012, Under Secretary Kappos testified on Capitol
                                                               Intergovernmental/International Organizations
     Hill before the House Judiciary Committee on two
                                                               to Improve International IP Rights Systems
     occasions on the issues of “Prior User Rights” and
     “Implementation of the America Invents Act,” and          Throughout FY 2012, the USPTO continued to seek
     once before the Senate Judiciary Committee on             improved protection for IP multilaterally in several fora
     “Implementation of the America Invents Act and Inter-     including the WIPO, the World Trade Organization
     national Harmonization Issues.” He also testified on      (WTO), and other intergovernmental organizations.
     the “USPTO FY 2013 Budget Request” before the House
     Appropriations Subcommittee on Commerce, Justice,         In June 2012 in Beijing, China, a delegation from the
     Science, and Related Agencies. Deputy Under               USPTO joined U.S. Department of State and U.S.
     Secretary Rea provided testimony before the House         Copyright Office officials in negotiating and signing
     Judiciary Subcommittee on Intellectual Property,          of a landmark multilateral treaty that advances IP
     Competition, and the Internet on “International IP        rights for the creative content of audiovisual
     Enforcement: Protecting Patents, Trade Secrets, and       performers. The WIPO Beijing Treaty on Audiovisual
     Market Access.” USPTO Chief Economist, Dr. Stuart         Performances, or the “Beijing Treaty,” strengthens IP
     Graham provided testimony before the House                protections for actors, musicians, and dancers
     Homeland Security Subcommittee on Counterter-             globally by requiring countries to ensure updated
     rorism and Intelligence on “Economic Espionage:           and consistent standards of protection for performers
     A Foreign Intelligence Threat to American Jobs.”          in audiovisual works. The Treaty is the first significant
                                                               advance in international norm-setting in the copyright
     Under Secretary Kappos, Deputy Under Secretary Rea,       area in more than fifteen years.
     USPTO managers, and staff conducted numerous
     briefings throughout the year for Congressional staff     The USPTO also advanced work on issues relating to
     on IP policy issues, as well as budget, the potential     the protection of broadcast signals and the access
     impact of pending legislation and operational issues.     to copyrighted works by persons with print disabilities
     USPTO staff co-hosted a weekly conference call of         in the WIPO Standing Committee on Copyright and
     DOC and other administration officials that are           Related Rights.
     involved with IP matters to discuss current and antic-
     ipated policy developments. Congressional staff as        The USPTO actively engaged in the WIPO Intergovern-
     well as DOC’s leadership participated in “Day in the      mental Committee on Intellectual Property and
     Life of the USPTO” sessions at the Alexandria, Virginia   Genetic Resources, Traditional Knowledge and
     headquarters to learn about the daily work activities     Folklore to transmit a single consolidated text to the
     of typical patent and trademark examiners.                General Assembly that fully reflects the various
     Congressman Gerald Connolly of Virginia partici-          proposals suggested by committee members, as well
     pated in a town hall meeting with more than               as the “no mandatory disclosure” option supported
     100 USPTO staffers, toured the USPTO campus, and          by the U.S. and several other countries. The USPTO also
     met with senior managers to discuss USPTO opera-          continued to seek improvements in the WIPO registra-
40   tions. Finally, the USPTO conducted extensive outreach    tion services under the PCT and the Madrid Protocol
     with our stakeholder community on implementation          Concerning the International Registration of Marks.



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                           M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




                                                               FIGURE 26   	   Paris Route (PPH) and Patent 		
Improving Efficiency and Cooperation in the
                                                           	                   Cooperation Treaty (PCT-PPH)
Global IP System
In FY 2012, the USPTO continued to emphasize office-
to-office “work sharing” as a key international
engagement strategy for helping to reduce USPTO
examination backlogs, improve examination quality,
and promote streamlining of the international
patent system. The PPH, first launched in 2006,
remained the USPTO’s primary work sharing vehicle.
The PPH allows applicants to obtain patents faster
and more cheaply in multiple jurisdictions, while
enabling the participating offices to leverage each
other’s work in improving examination efficiency
and quality. See the performance history in Figure 26.         PPH is a framework in which an application whose
                                                               claims have been determined to be patentable in
The success of the PPH is evidenced by the continued           one country’s patent office is eligible to go through
trend in 2012 of substantial annual increases in user          an accelerated examination in another country’s
participation: As with 2010 and 2011, the number of            patent office.
PPH requests received by USPTO in 2012 is on track to
nearly double the total number of requests received
in all previous years combined. The average number        stakeholder-oriented environment in which appli-
of new requests per month continues to increase,          cants can plan and execute their global IP strategy
with 2012 already exceeding 2011 by over 100              and avoid the filing of duplicate documents in
requests per month. The PPH is also gaining in popu-      multiple offices. Among its many advantages, the
larity among patent offices around the world.             Global Dossier would allow “one-stop” management
The USPTO currently has PPH arrangements in place         of a patent portfolio and related documents, while at
with 24 other patent offices, and is in discussions       the same time optimizing work sharing and office-to-
with several others. At the same time, the USPTO is       office collaboration.
working on the development of a next-generation
PPH—PPH 2.0—that would consolidate the various            The “TM5” brings together the largest trademark
PPHs into a single, uniform framework that includes a     offices in the world to share information and collabo-
number of user-friendly enhancements.                     rate on projects that increase efficiencies in filing for
                                                          and maintaining international trademark portfolios.
The USPTO also made significant advances in other         The USPTO, JPO, and the European Community’s
areas of work sharing-related cooperation. One key        OHIM invited the KIPO and the Chinese SAIC to the
effort that has seen rapid progress in 2012 has been      TM5 discussions to share information regarding the
the Cooperative Patent Classification (CPC) project,      development of practice and procedure in these
jointly administered by the European Patent Office        offices for the benefit of all trademark owners.
(EPO) and the USPTO. The CPC combines the                 Through this collaboration, the TM5 launched a
European Classification system and the best classifi-     series of technical seminars on the problem of
cation practices of the two offices into a joint          “registry squatting,” i.e., bad faith trademark applica-
hierarchy that will promote greater harmonization         tions. These seminars have been well-received,
and consistency in the classification and searching       particularly in China, as collaborative attempts to
of patent documents. The initial launch of the CPC        find useful features of national Trademark Systems
is scheduled for January 2013.                            that can be implemented in different legal systems.
                                                          The USPTO has led the effort to coordinate the TM5
Another major project has been the joint develop-         discussions and move the solutions to implementa-
ment, with the JPO, of the “Global Dossier” initiative.   tion, particularly in China, but also in other countries                     41
The Global Dossier is envisioned as an electronic,        desiring to combat this practice.



                                                                                                                 www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     Improving Enforcement and Providing                       Combating the proliferation of counterfeit medicines
     Capacity Building and Technical Assistance                is a training priority. The USPTO organized a series of
     to Key Countries/Regions                                  workshops in Indonesia and Jordan. The U.S. Food
                                                               and Drug Administration, U.S. Department of Justice,
     A key challenge with overseas IP enforcement is the
                                                               and the U.S. Immigration and Customs Enforcement,
     need to increase awareness, skills, and resources of
                                                               Homeland Security Investigations participated in
     foreign enforcement officials. To improve enforce-
                                                               the workshops.
     ment in high-priority countries and regions, the
     USPTO has developed rigorous capacity-building
                                                               The USPTO convened four roundtables (three in
     programs for foreign enforcement officials, including
                                                               China and one in the U.S.) with U.S. industry repre-
     police and investigators, prosecutors, border
                                                               sentatives and published a Federal Register notice
     enforcement officials, as well as the judiciary.
                                                               to solicit input on their experiences enforcing patents
     The USPTO has taken an active role in working with
                                                               in China. The input received has been compiled
     foreign judiciaries and prosecutors to increase their
                                                               into a report, which was published on the USPTO’s
     understanding of IP issues through direct training
                                                               website. The report will help guide the USPTO’s
     and exchanges with U.S. officials, including U.S.
                                                               engagement with China on patent enforcement.
     judges and prosecutors who are experts in handling
     IP cases. The USPTO’s IP enforcement programs are
                                                               The GIPA offers training programs on protection, utili-
     also designed to address overarching rule-of-law as
                                                               zation, and enforcement of IP rights including
     well as court administration concerns in foreign
                                                               patents, trademarks, and copyrights. As demon-
     countries, by encouraging an environment of better
                                                               strated in Table 16, it is through the GIPA training
     consistency and predictability for IP litigants, which
                                                               programs that the USPTO is instrumental in achieving
     may have the added benefit of lowering litigation
                                                               its objectives of advancing IP policies. Note that the
     costs resulting from more efficient adjudication
                                                               FY 2012 results did not exceed the anticipated
     processes.
                                                               target. This was largely due to the emergent nature
                                                               of the supporting goal itself. The baseline was estab-
     The USPTO and U.S. Court of Appeals for the Federal
                                                               lished in 2011 based on the launch of GIPA’s three-
     Circuit (CAFC) held a joint program in Beijing, China
                                                               part survey methodology. A target was selected
     on IP adjudication with the Supreme People’s Court
                                                               from a sampling of capacity building programs.
     of China. This brought together over 1,500 partici-
                                                               The sampling for FY 2012 programs included two
     pants from a number of different countries and
                                                               WIPO workshops that included students, but not
     featured remarks by Chief Judge Rader and all of
                                                               foreign government officials. This somewhat skewed
     the judges from the CAFC, USPTO Director David
                                                               the evaluative efficacy of survey responses regarding
     Kappos, and many other Chinese and U.S. officials.
                                                               the impact of the programs on the participants’
     The Beijing conference was followed by visits by the
                                                               work. Another program using the survey process
     CAFC judges to Guangzhou and Shanghai, where
                                                               was on a very narrow topic, which may also have
     they met with local judges and IP officials.
                                                               caused an outlier effect on the results. To improve
                                                               on both the methodology and enhance the value
     The USPTO also partnered with the CAFC as well as
                                                               of the supporting performance metric, GIPA intends
     the Federal Judicial Center to host approximately 50
                                                               to apply the lessons learned from this initial round
     U.S. Federal judges from throughout the country for
                                                               into the next fiscal year and apply the surveys to a
     a program on the Patent Application Examination
                                                               larger pool of more diverse programs.
     Process, Patent Reexamination, and Post-Grant
     Proceedings. The participants were part of the             TABLE 16  	Supporting Measure: Percentage of foreign
     recently launched Patent Pilot Project, designed to         officials trained who have initiated or implemented
     strengthen patent law expertise among judges.              a positive change in the IP systems in their organi-
                                                                zations and/or countries
                                                                   FISCAL YEAR          TARGET           ACTUAL
42                                                                     2011             Baseline          79%
                                                                       2012               75%             69%




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                     M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




Providing Policy Advice and Expertise to
Other USG Agencies
The USPTO continued to provide policy advice and
technical expertise on IP administration, protection,
and enforcement both domestically and interna-
tionally to the DOC and other federal agencies.
The USPTO advised the Office of the United States
Trade Representative during the WTO accession
process of several countries in evaluating intellec-
tual property rights (IPR) laws, regulations, and
practices of countries and their consistency with the
Agreement on Trade-Related Aspects of Intellectual
Property.

The USPTO provides policy advice and expertise to
the U.S. Department of State regarding IP issues that      Under Secretary of Commerce for Intellectual Pro­
arise in various agencies of the United Nations            perty and Director of the USPTO, David Kappos and
including WIPO and the World Health Organization,          President of EPO signing the Joint Cooperative Patent
as well as the Organization for Economic Coopera-          Classification (CPC) statement in October 2010.
tion and Development.

Providing Technical Expertise in Negotiation             a public on-line database of trademark applications
and Implementation of Bilateral and                      and registrations. This will save U.S. companies time
Multilateral Agreements                                  and money and make it easier for them to take the
                                                         necessary steps to protect their trademarks in these
In FY 2012, the USPTO continued to provide expert        markets.
technical advice on IP protection in connection with
on-going negotiations and implementation of              The USPTO continued to play an active role in the
bilateral and multilateral agreements. For example,      negotiation of Science and Technology Agreements
the USPTO played an active role in the ongoing TPP       with several countries.
free trade agreement negotiations which seek to
ensure an effective and balanced approach to intel-      Increasing the effectiveness of IP Attachés
lectual property rights among the member countries.      in Prioritized Countries/Regions
The USPTO worked closely with USTR to assist Korea,
Colombia, and Panama with implementation of the          The USPTO places a high priority on increasing the effec-
IP provisions of their free trade agreements with the    tiveness of the IP systems in prioritized countries/regions.
United States. Among other things, these agree-          In 2012, The IP Attaché program instituted new vision
ments provide for state-of-the-art protection for U.S.   and mission statements that clearly linked program
trademarks such as expanding the definition of a         objectives and priorities to the overall mission of the
trademark to include protection for non-visually         USPTO. Standard operating procedures, developed by
perceptible marks, as well as recognizing the princi-    the IP Attaché Task Force, were implemented.
ples of priority and exclusivity in the relationship     They require Attachés to: (1) consult with stakeholders
between trademarks and geographical indications.         to define and prioritize IP-related business objectives in
Improved transparency provisions provide interested      their country and region; (2) build a matrix of U.S. and
parties the opportunity to oppose and cancel regis-      foreign stakeholder associations and companies, and
trations and to know the reason for decisions with       their respective IP-related concerns; (3) identify any
respect to registration. Finally, the agreements         existing bilateral agreements that support our objec-
memorialized each country’s commitment to                tives; and (4) seek to negotiate bilateral agreements, or               43
improving its trademark system by implementing an        informal work plans, and associated metrics with host
electronic application filing system and developing      governments.



                                                                                                           www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     Two new Attaché post locations were established in         a major trademark infringement case in Indonesia. In
     Mexico City, Mexico and Shanghai, China, respectively.     addition, construction began on a multi-million dollar
     The addition of the Shanghai position will increase the    patent-examination coordination center in Guang-
     USPTO’s presence in China from two cities to three, and    dong province in China. The Guangdong center is
     the addition of the Mexico City position will expand       a critical component of China’s patent-examination
     the USPTO’s overseas presence from seven countries         system. It will become the patent-examination head-
     to eight. Vacant IP Attaché positions will be filled for   quarters for South China and will represent the State
     Cairo, Egypt; Guangzhou, China; and Beijing, China         Intellectual Property Office locally.
     before the calendar year’s end.
                                                                The implementation of country-specific action plans
     Through its Attachés, the USPTO has met a number of        in prioritized countries is shown in Table 17. This reflects
     important objectives in host countries. Accomplish-        the USPTO’s continue efforts in engaging foreign IP
     ments include the issuance of a Management Notice          offices, enforcement entities, and their respective
     on the Purchasing of Counterfeit and Pirated Goods         legislative organizations.
     by Embassy Bangkok and Singapore and resolution of
                                                                  TABLE 17 	Measure: Percentage of prioritized countries
                                                                 for which country teams have made progress on
                                                                 at least 75% of action steps in the country-specific
                                                                 action plans along the following dimensions:
                                                                   1. institutional improvements of IP office
                                                                      administration for advancing IP rights,
                                                                   2. institutional improvements of IP enforcement
                                                                      entities,
                                                                   3. improvements in IP laws and regulations, and
                                                                   4. establishment of government-to-government
                                                                      cooperative mechanisms.
                                                                    FISCAL YEAR             TARGET            ACTUAL
       Deputy Administrator for Policy and External Affairs             2010                  50%               75%
       Jasemine Chambers meets with Vice Commissioner                   2011                  75%              100%
       Li Yuguang of the State Intellectual Property Office             2012                  75%               75%
       of China to discuss how both offices can cooperate               2013                  75%
       on matters concerning patent examination practice,               2014                  75%
       patent quality, patent database exchanges, and             Target Met.
       other topics of interest to both offices.




44




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
What is management’s focus on
maximizing the USPTO’s mission
performance?

The USPTO’s overarching management goal focuses on the shared
responsibility that is a prerequisite for achieving success as the USPTO
grows and modernizes. This goal advances the USPTO’s performance
on its three core mission strategic goals through effective alignment
and management of human capital, information resources,
infrastructure and security management, and sustainable financial
capital.




  MANAGEMENT GOAL
                                                                     M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




Management Goal: Achieve Organizational Excellence


F
     ulfillment of the USPTO’s mission requires strong    personal computers and laptops. The remaining two
     leadership and collaborative management.             projects are expected to be completed in FY 2013.
     While the three strategic goals focus on our core
mission, our overarching management priorities focus      In keeping with the administration’s commitments for
on the shared responsibility that is a prerequisite for   “Transparency, Participation, and Collaboration”, the
achieving those goals and objectives, namely, the         USPTO expanded access to all patent and trademark
priorities of sound resource management, solid            data through the www.data.gov and www.google.
workforce planning, corporate support services, and       com websites; has a “cloud first” policy; is working to
effective use of IT.                                      align the IT budget with modular development; is
                                                          reforming and strengthening the agency’s Investment
                                                          Review Boards; and has created “TechStat” and “Port-
OBJECTIVE 1: Improve IT infrastructure                    folioStat” models for the USPTO. The OCIO continues
and tools                                                 to work in improving the visibility of IT costs through
                                                          a standardized budget execution system with assis-
The USPTO continued to make improvements in our
                                                          tance from the OCFO. This has allowed for the OCIO
IT enterprise architecture, internal processes, and
                                                          to work with all of the USPTO business units to create
organizational alignment to improve our ability to be
                                                          an improved long-term IT investment strategy, which
more responsive and better manage and deliver
                                                          is discussed further in the USPTO Strategic Information
quality products at enhanced service levels.
                                                          Technology Plan for 2010-2015. See www.uspto.gov/
                                                          about/offices/cio/ITP_Overview.pdf.
In particular, these initiatives directly support the
USPTO 2010-2015 Strategic Plan to:
                                                          In fulfilling responsibilities under 44 U.S.C. § 3504(h),
                                                          the USPTO uses a Capital Planning and Investment
●●   Improve overall efficiency;
                                                          Control process to prioritize investments and deter-
●●   Improve availability of and streamline access to     mine funding levels for subsequent fiscal years.
     USPTO information, data, and services with           Projects are carefully managed throughout their life
     improvements to the USPTO website;                   cycle, and progress reviews are conducted at key
                                                          milestone dates to compare the project’s status to
●●   Serve an increasing, geographically dispersed
                                                          planned benefit, cost, and schedule, along with tech-
     workforce with the deployment of the UL;
                                                          nical efficiency and effectiveness measures. All major
●●   Implement faster, more secure information            IT system investments are reported in OMB Circular
     exchange by adhering to the Federal                  A-11 Exhibit 53, Exhibit 300A and 300B, and the USPTO’s
     Information Security Management Act (FISMA);         IT Investment Portfolio. See www.itdashboard.gov for
                                                          more information on USPTO’s IT investments.
●●   Continue expansion and improvement of e-filing,
     e-processing, and other e-government efforts;
                                                          The USPTO’s OCIO continued to work diligently with
     and
                                                          the Office of the Inspector General (OIG) and the
●●   Improve the USPTO’s IT infrastructure and tools.     DOC to improve the USPTO’s overall IT security program
                                                          and the quality of the certification and authorization.
Completed seven of nine infrastructure modern-            See www.oig.doc.gov for more detailed information.
ization projects comprising our Office of the Chief
Information Officer (OCIO) Road Map and Transfor-         The chart (Figure 27) shows trend of total number of
mation Plan on time and on budget. These initiatives      Open Plan of Actions and Milestones (POA&M) for
covered everything from basic network infrastruc-         the USPTO’s 39 operational systems at the end of
ture to connectivity to systems virtualization to new     FY 2011 and every quarter of FY 2012. Any known
                                                                                                                                 47




                                                                                                           www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     security weakness requiring remediation is tracked        to implement its newly conferred fee-setting authority
     using POA&M. Our goal is to bring total number of         through the publication of a draft fee schedule.
     open POA&Ms as low as possible by remediating             The agency consulted with its public advisory commit-
     security weaknesses in the systems.                       tees, stakeholders, and the public in reformulating the
                                                               fee structure for its new fee setting authority.
                                                               Specifically, the USPTO published a proposed
       FIGURE 27   	       Total Number of Open
      	                Plan of Actions and Milestones          rulemaking that is essential to a establishing a sustain-
                                                               able funding model by focusing on reducing the
                                                               current patent application backlog, decreasing
                                                               patent pendency, improving patent quality, and
                                                               upgrading the agency’s patent business IT capability
                                                               and infrastructure. The proposed rule also aims to
                                                               reduce fees for micro entities under section 10(b) of
                                                               the Act (75 percent discount),and will further key
                                                               policy considerations. For example, the proposal
                                                               includes multipart and staged fees for requests for
                                                               continued examination and appeals, both of which
                                                               aim to increase patent prosecution options for appli-
                                                               cants. The proposed rule was published on
                                                               September 6, 2012. The final rule is expected to be
                                                               issued next fiscal year.

                                                               The FY 2012 President’s Budget highlighted the
                                                               agency’s activities toward achieving a sustainable
                                                               funding model, including:
     OBJECTIVE 2: Implement a sustainable
     funding model for operations                              (1)	 The conduct of regular historical cost analyses of
                                                                    activities supporting fees to provide sufficient
     Section 10 of the AIA authorizes the Director of the           trending information to inform fee changes.
     USPTO to set or adjust by rule all patent and trademark
                                                               (2)	 Ensuring access to fee collections to support the
     fees established, authorized, or charged under Title
                                                                    agency’s objectives.
     35 of the U.S. Code and the Trademark Act of 1946
     (15 U.S.C. § 1051 et seq.), respectively. When fees are   (3)	 Instituting an interim patent fee increase.
     set, the aggregate revenue from the patent fees may
                                                               (4)	 Pursuing the authority to adjust our fee structure
     only recover the aggregate estimated cost of the
                                                                    by regulation to better align fees with the cost of
     patent operations, including administrative costs of
                                                                    providing services.
     the USPTO. Likewise, the aggregate revenue from the
     trademark fees may only recover the aggregate             (5)	 Funding an operating reserve to manage opera-
     estimated cost of the trademark operations, also               tions on a multi-year basis and thereby protect
     including administrative costs to the USPTO.                   the agency against unforeseen disruptions in
                                                                    revenue.
     Fee setting is an important initiative of the agency’s
     Strategic Goal Objective to implement a sustainable       These activities support all aspects of budget formu-
     funding model for its operations. In fact, of the six     lation, performance reporting, and strategic planning,
     initiatives articulated within the Sustainable Funding    thus ensuring the USPTO meets reporting require-
     Model Objective (Objective 2 of the USPTO 2010-2015       ments, such as this PAR, strategic planning updates,
     Strategic Plan), it remains the USPTO’s sole remaining    and budget submissions.
48   outstanding initiative. In FY 2012, the agency began




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                      M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




OBJECTIVE 3: Improve employee and                         We attended 16 veteran-specific job fairs, conducted
stakeholder relations                                     targeted veteran’s outreach activities including
                                                          Facebook and Twitter, and created a new position to
The Office of the Chief Administrative Officer (OCAO)     assist with the veteran’s hiring initiatives. This year, the
plays a critical role in the agency’s efforts to meet     USPTO hired 115 veterans.
the management goal to “achieve organizational
excellence” by making significant and continuous          The USPTO established metrics to frequently measure
improvements to many of our routine programs and          progress against goals as well as performance. Hiring
services in the areas of human capital, telework,         data is analyzed to understand where the agency’s
security, safety, and environmental awareness.            new hires heard about us and which universities yield
                                                          the most successful hires. This allows USPTO to make
Targeted Recruitment and Employee Feedback,               data-driven decisions and develop deeper relation-
Development and Wellness                                  ships with the universities and their target student
                                                          population, making the agency more agile when it
In support of the USPTO goals, a targeted hiring plan
                                                          comes to responding to factors that impact efficiency
was executed to recruit highly-qualified patent
                                                          and effectiveness.
examiners with meaningful IP and technical
knowledge and experience. The USPTO identified
                                                          Effective and Efficient Recruitment Plus
strategies that target top talent by conducting focus
                                                          Employee Satisfaction Equals Retention
groups, surveys, and planning sessions with Patents
Hiring Coordinators, recent patent examiner hires,        Effective recruitment and employee satisfaction are
human resource specialists, and subject matter            essential to mission achievement. Employee
experts. As a result, a stronger emphasis has been        feedback obtained through the annual Employee
placed on:                                                Viewpoint Survey (EVS) is critical to understanding
                                                          our employees’ concerns and satisfaction with the
●●   Developing deeper relationships with universities    agency overall. To increase employee participation,
     that yield successful hires;                         the Office of Human Resources (OHR) developed a
                                                          strategic campaign to market the 2012 EVS. Multiple
●●   Creating vacancy announcement language that
                                                          communication techniques were employed and as
     is specific, clear and exciting; and
                                                          a result, the USPTO response rate on the 2012 EVS
●●   Marketing strategies that utilize research, social   was 74 percent—an increase of nine percent from
     media, and targeted messaging and advertising.       the 2011 survey. Using the results of the EVS, OHR will
                                                          partner with business units to help identify and
Additionally, the USPTO established a veterans            address human capital opportunities.
outreach program with specific goals and strategies.
                                                          The agency’s Leadership Development Program
                                                          (LDP) includes a diverse set of development strate-
                                                          gies designed to efficiently and effectively identify
                                                          and address competency gaps, as well as
                                                          strengthen leadership values, knowledge, skills, and
                                                          abilities. The LDP includes an Executive Education
                                                          Program component designed to maximize the
                                                          capabilities, contributions, and potential of our
                                                          entire Senior Executive Service (SES) team, build and
                                                          sustain a common leadership vision, and enhance
                                                          learning across the agency.

                                                          The LDP includes a Leadership in Action Program
                                                          component which provides employees an opportu-                          49
     The USPTO on Facebook.




                                                                                                            www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




          Employee Development Specialist Rosie Saberton
          facilitates a mentoring session between Chief Judge             USPTO’s Elijah J. McCoy Satellite Office in Detroit
          James Smith and Group Director Seema Rao during                 opened in July 2012.
          a USPTO employee mentoring session.

                                                                   ●●   The USPTO continued to closely monitor its energy
     nity to acknowledge supervisors and mentors who                    consumption and created an energy dashboard
     model best practices in leadership or mentoring,                   documenting the campus’ electricity use each
     and exemplify the values set forth in the USPTO Lead-              month. The dashboard was displayed on our “Green
     ership Vision. The program was designed based on                   at USPTO” website and on the lobby-level kiosks,
     requests from employees wanting an agency-wide                     complete with green tips showing employees how to
     method to recognize their supervisors. In FY 2012, 50              reduce energy consumption at both work and home.
     supervisors were presented with Leadership in Action          ●●   The campus was the recipient of the Energy Star
     Awards. Finally, an agency-wide mentoring program                  2012 award.
     component of the LDP program was designed to
     provide access to mentoring opportunities to all
     USPTO employees.


     Advancements in USPTO’s Physical Workspaces
     The USPTO continues to excel in creating a workplace
     that is modern, attractive, safe, secure, and energy
     efficient as evidenced by of the following achieve-
     ments in FY 2012:

     ●●   The USPTO partnered with the General Services
          Administration to program, design, and lead
          construction of the agency’s first satellite office in
          Detroit, Michigan. The Elijah J. McCoy Satellite
          Office opened on July 13, 2012 and will house 100
                                                                          The Energy Star 2012 award.
          newly-hired patent examiners, as well as a number
          of Administrative Patent Judges. Modeled after the
          interiors of the Alexandria, Virginia campus facility,   ●●   The USPTO won a 2012 Energy and Environmental
          the space provides a Public Search Facility, several          Stewardship Award from the DOC for its ability to
          team rooms for interviews, and infrastructure that            measure and increase recycling to a 54 percent
50        ties back into the campus. This is the first of three         waste diversion rate, thereby exceeding the
          additional satellite offices the USPTO will construct         President’s Executive Order 13514 of recycling at
          in the upcoming years.                                        least 50 percent by FY 2013. See Figure 28.


     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                   M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




●●   Significant strides were made in implementing                    ●●   Eligible employees teleworking increased from
     Homeland Security Presidential Directive 12                           83 percent to 86 percent (+695 teleworkers agency-
     (HSPD-12). In FY 2012, an additional 7,013 federal                    wide). See Figure 29.
     government identification cards have been issued
     as of September 30, 2012, bringing the total number              As part of the Telework Enhancement Act of 2010, the
     of cards issued to 9,024.                                        USPTO was granted legislative authority to conduct the
                                                                      federal government’s initial Telework Travel Expenses Test
●●   The USPTO’s emergency preparedness programs
                                                                      Program. The Telework Enhancement Act Pilot Program
     were improved by the rollout of updated plans for
                                                                      (TEAPP) allows employees to waive their right to travel
     continuity of operations and emergency operations.
                                                                      expenses for up to six annual mandatory trips back to
     To further enhance its emergency preparedness
                                                                      the USPTO headquarters in Alexandria, Virginia. Hoteling
     posture, Continuity of Operations Plan (COOP)-
                                                                      (or full-time teleworking) employees may now elect,
     related tabletop exercises were held with Business
                                                                      voluntarily and for their own convenience, to live greater
     Unit COOP managers, Emergency Response Group
                                                                      than 50 miles from the USPTO campus, by becoming a
     personnel, and Reconstitution Team members.
                                                                      TEAPP participant and thereby effectively changing
                                                                      their duty station. As of the end of the third quarter
Advancements in Telework
                                                                      FY 2012, 846 employees were participating in the TEAPP.
Telework at the USPTO continues to be a primary                       The map in Figure 30 shows where USPTO hoteling
corporate business strategy and the USPTO continues                   employees, including TEAPP participants, are residing.
to be a model for telework in the federal government.
More than 7,300 employees agency-wide are working                     Equal Employment Opportunity and Diversity
from home at least one day per week, translating to
                                                                      On October 1, 2010, the agency reorganized its oper-
66 percent of the USPTO workforce. This is an increase
                                                                      ational structure establishing the new Office of Equal
of nearly 700 teleworking employees from last fiscal
                                                                      Employment Opportunity and Diversity (OEEOD) with
year. Additionally, between the 4th Quarter of FY 2011
                                                                      the goal of supporting an increasingly diverse
and the 4th Quarter of FY 2012, the percent of:
                                                                      workforce. In FY 2012, the USPTO upgraded, recruited,
                                                                      and filled the Director of OEEOD position at the SES
●●   Positions eligible to telework decreased from
                                                                      level. The Director of OEEOD reports directly to the
     78 percent to 73 percent (+462 eligible positions
                                                                      Under Secretary and Director and is a member of
     agency-wide)1
                                                                      the agency’s Executive Committee and Manage-


     FIGURE 28   		                     USPTO Recycling Program at a Glance




                                                                                                                                               51
1	Newpatent hires are not eligible for at least two years for telework but there was still a net gain of total positions deemed eligible
 agency-wide.




                                                                                                                         www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




       FIGURE 29   	         Percent of Eligible Employees Teleworking in FY 2011 and FY 2012




       FIGURE 30   	                          USPTO Hoteling across the USA




52




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                      M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




ment Council. The reorganization resulted in a more        positive results – the attrition rate for mentees was
strategic, proactive, and organizationally indepen-        half that of new examiners who did not participate.
dent functional unit than its predecessor, the Office      The program’s goal is to help new patent examiners
of Civil Rights. Notably, the USPTO is 28 percent Asian,   acclimate to the agency and improve retention
21 percent African-American, and 3 percent Hispanic        past the initial probationary period.
(Figure 31). Also, females comprise 35 percent of the
USPTO’s employee population.                               OEEOD actively supports a network of 12 affinity
                                                           groups. To improve the institutional support, OEEOD
The reorganization has improved the prominence of          created a Diversity Outreach Coordinator position
the USPTO’s diversity program. Perhaps most impor-         whose function is to oversee and conduct the efforts
tantly, on April 17, 2012, the USPTO hosted the first-     of the agency’s volunteer employee groups.
ever White House Initiative on the Asian American          OEEOD’s work includes conducting quarterly
and Pacific Islander Federal Employee Conference.          meetings with the leaders of the affinity groups to
                                                           discuss joint projects, delivering a leadership training
OEEOD led the drafting of the agency’s first Diversity     retreat for the affinity group leaders, assisting with
and Inclusion Strategic Plan (D&ISP) under Executive       events, and hosting an annual International Food
Order 13583. The D&ISP outlines of the agency’s            Sample Festival that allowed the affinity groups to
efforts to attract and engage a diverse workforce,         showcase diversity through food.
and to equip managers with the tools they need to
manage diversity and institutionalize a culture of         On May 10, 2012, the agency hosted its annual
inclusion.                                                 capstone diversity event, Community Day.
                                                           On Community Day, USPTO offices, unions, employee
OEEOD also managed the agency’s National Engi-             resource groups, and civic groups showcase their
neering Week event in partnership with the Office of       organizations through table-top displays in the
Education and several of the agency’s affinity             outdoor area surrounding our main campus in Alex-
groups. The interactive, hands-on program focused          andria, Virginia. On Community Day, the agency’s
on bringing in local students to build robots, with the    Director initiated the event, expressed a commit-
hope of inspiring them to pursue careers in engi-          ment to a diverse workforce, and presented the
neering and science.                                       agency’s Equal Employment Opportunity Award.
                                                           The event also engages with our broader commu-
OEEOD expanded the New Examiner Mentoring                  nity, as the event is open to the public and is coordi-
Program from 50 mentoring pairs to over 100 pairs,         nated with the City of Alexandria.
after the initial pilot demonstrated overwhelmingly
                                                           Community Day has four core purposes: (1) inform
                                                           employees of the agency equal employment
 FIGURE 31   	      Total USPTO Employees
 	               by Race and National Origin               opportunity policy and program; (2) provide
                                                           recognition, in the form of the Equal Employment
                                                           Opportunity Award, to employees that demonstrate
                                                           superior accomplishments in support of the
                                                           agency’s diversity program, as required; (3) promote
                                                           active engagement in recognized employee
                                                           resource groups, and educate the workforce on
                                                           office initiatives (e.g., employee viewpoint survey,
                                                           computer security, wellness programs, green
                                                           initiatives, etc.); and (4) expose employees to civic
                                                           organizations in the broader community (City of
                                                           Alexandria) to improve community conditions that
                                                           affect employability.                                                  53




                                                                                                            www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     In conjunction with Community Day, OEEOD
     conducted focus group sessions with a variety of
     diverse employee groups (Hispanics, African-Ameri-
     cans, Multi-generational, and Veterans) to engage
     them about their concerns and ideas for improving
     the agency. OEEOD contracted with the Ivy Group, a
     recognized leader in the focus group facilitation field,
     to synthesize feedback and present recommenda-
     tions. The information received via the focus groups
     has already been instrumental in working with the
     OHR to improve service to veterans and is informing
     other diversity and inclusion projects.


     Providing Information and Feedback Channels                  Under Secretary David Kappos, Chief Communications
     for Employees and the Public                                 Officer Todd Elmer, and The Honorable Chief Judge
                                                                  James Smith answer questions during the America
     The USPTO continues to support the independent               Invents Act webinar on September 6, 2012.
     inventor community and enhanced its efforts with
     the Office of Innovation Development (OID), admin-
     istratively situated within the Patent organization.       strategies that focus on educational activities, and
     The OID serves a key role in promoting innovation          policing measures. A number of sessions have
     and technology creation in the United States. The OID      been held to address the importance of IP early in
     oversees programs that foster and support innova-          business development planning.
     tion in the independent inventor communities,
     universities, and non-profit organizations. The OID        The USPTO encouraged the establishment of pro
     also works closely with other officials and agencies       bono IP services through universities and law associ-
     throughout the government in support of the Obama          ations. In all cases, the USPTO played an instrumental
     administration’s efforts to promote small business,        role in the development of concepts and finding
     entrepreneurship, and job creation. The OID designs        partners. The USPTO acts as an information conduit
     and implements outreach programs to a wide range           for independent inventors through our website and
     of groups including independent inventors, women,          outreach events. There are 13 universities currently
     small business concerns, minorities, and other under-      offering IP law clinics on IPR education aimed at
     served communities. As part of this year’s effort, the     independent inventors and small businesses. The IP
     OID held a Women’s Entrepreneurship Symposium              law clinics will also provide basic IP education. A first
     and a California Regional Inventors Conference.            pilot program was launched in 2010 in Minnesota by
                                                                an association of law offices and private companies
     The USPTO also participates in outreach initiatives        to assist individuals and small businesses with certain
     with inventor organizations throughout the United          financial needs to protect their valuable inventions
     States. These non-profit inventor organizations assist     and innovations. This program, in conjunction with
     inventors with their innovations and their desire to       the OID, continues to offer education and guidance
     start a business based on those inventions.                to new and financially disadvantaged inventors.
                                                                Independent inventors can work directly with experts
     The USPTO created a Trademark Outreach Manager             to gain assistance in filing a new application or
     in response to recommendations made as a result            improving their existing applications.
     of the congressionally mandated Litigation Study.
     The Manager works with trademark and non-trade-            Implementation of the Patent Ombudsman Program
     mark attorneys, the small business and entre-              was a direct response to the public’s request for a
54   preneurial community, and students to develop              dedicated resource providing assistance to patent




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                    M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




applicants, attorneys, and agents with applica-           tion and management of the USPTO. The OGL also
tion-specific issues related to patent prosecution        represents the USPTO in various administrative
advancement. This program serves as a means for           proceedings. In particular, OGL supports the USPTO’s
maintaining the lines of communication between            rulemaking efforts to ensure that regulations are
practitioners and examiners. The Patent Ombudsman         issued to implement many of the important AIA
Program resulted in improved, high-quality customer       provisions while complying with all rulemaking
service by advancing the status of patent applica-        process requirements. OGL has been integrally
tions while simultaneously demonstrating the              involved in every stage of the rulemaking process
agency’s commitment to achieving its strategic goals      with representatives from every business unit.
by improving patent quality and timeliness, promoting     OGL secured expedited clearances of AIA rules from
confidence in the patent examination process, and         external entities saving the agency time and money
improving relations with stakeholders, all in an effort   and facilitating the successful issuance of rules
to ultimately spur innovation and economic growth.        within the statutory deadlines. Further, OGL has
                                                          successfully handled a steady stream of employ-
AIA Implementation/Rulemaking Legal Support               ment law matters resulting from the AIA initiative to
                                                          hire additional patent examiners and PTAB
The Office of General Law (OGL) is the non-IP legal       personnel. OGL supports the USPTO’s initiatives to
component of the Office of General Counsel.               improve stakeholder relations by procurement of
They are responsible for providing advice and written     cutting edge products and other agreements and
legal opinions on areas concerning the administra-        services necessary to run a 21st century agency.




                                                                                                                                55




                                                                                                          www.uspto.gov
     Management Challenges
     and What’s Ahead

     T
           he distance between innovation and the               Completing the implementation of the AIA, and
           marketplace is shrinking. Said another way,          establishing the sustainable funding model that has
           innovation is moving more quickly from creation      been provided by the AIA will allow the agency to
     to manufacture and distribution. IP is a necessary         manage fluctuations in filings and revenues while
     instrument for innovators and businesses to capture        sustaining operations on a multi-year basis,
     value as ideas move to the marketplace.                    continues to be a priority into FY 2014. The process
     In performing its mission—quality examination and          of implementing the AIA began upon enactment
     disposition of patents and trademarks—the USPTO            on September 16, 2011 and is expected to be
     faces significant challenges.                              concluded by September 16, 2015.

     The AIA will promote innovation and job creation by        Build and Focus on Improvements
     improving patent quality, clarifying patent rights,
                                                                The Patent and Trademark organizations will build
     reducing the application backlog, and offering
                                                                on their accomplishments and work toward meeting
     effective alternatives to costly patent litigation.
                                                                the objectives of the USPTO 2010-2015 Strategic
     Implementation of the AIA’s provisions presents
                                                                Plan while working with customers to ensure that the
     numerous challenges and the USPTO looks forward
                                                                objectives remain aligned with their needs.
     to actively engaging stakeholders to ensure that
     implementation is accomplished in a proper and
                                                                The Patent organization’s continuing challenges are
     timely manner.
                                                                to reduce patent pendency and the excess
                                                                inventory of unexamined patent applications to an
     The USPTO plans to open satellite offices in Dallas,
                                                                appropriate working inventory, while improving
     Texas, Denver, Colorado, and Silicon Valley, California.
                                                                patent quality and building a highly trained and
     These offices are in addition to the USPTO’s first
                                                                stable workforce. By providing patent applicants
     satellite office in Detroit, Michigan, which opened on
                                                                with additional options to accelerate the USPTO’s
     July 13, 2012. The four offices will function as hubs of
                                                                review of their applications, they gain greater control
     innovation and creativity, helping protect and foster
                                                                over examination timing. Collaborative efforts in
     American innovation in the global marketplace,
                                                                areas that include automation, global patent classi-
     helping businesses cut through red tape, and
                                                                fication, and work sharing has resulted in increased
     creating new economic opportunities in each of
                                                                efficiency. The Patent organization continues to forge
     the local communities.
                                                                ahead in meeting these challenges by hiring,
56
                                                                training, and retaining highly skilled and diverse
                                                                examiners. The success of this year’s COPA 2.0 effort



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                   M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




to eliminate the “tail” of backlog applications,         Manage and Execute to Goals
positions the USPTO for further significant patent
                                                         The USPTO’s promotion, protection, and enforcement
pendency reductions in 2013.
                                                         of IPR have never been more important to our
                                                         nation’s economic prosperity. The USPTO must
The Trademark organization’s biggest long-term
                                                         harness the expertise and skills within the agency
challenge is to ensure that the investment being
                                                         and leverage new technology to achieve its goals.
made in information technology systems improves
                                                         The actions we have taken to create a unified system
our ability to serve a diverse applicant and regis-
                                                         to deliver timely, high-quality patents and trade-
trant base. Our ability to provide better tools will
                                                         marks must be carefully managed. The agency
support public education and outreach efforts to
                                                         continues to face the external pressures of increasing
deliver useful products and services. The strength of
                                                         application volume and rapid technology changes.
the intellectual property system depends in part on
                                                         We will meet these challenges by continuing to
participation and the notice of marks in use that
                                                         update our antiquated IT infrastructure as well as
comes from federal registration. We need to develop
                                                         hiring, retaining, and training examiners and
systems and processes that make filing and main-
                                                         improving our operations to be more effective and
taining registrations more accessible, user-friendly,
                                                         efficient. As we improve our agency, we must
and cost-effective that supports our outreach efforts
                                                         continue to focus on building relationships with our
to work with and engage the small business, entre-
                                                         workforce, applicants, owners of patents and trade-
preneurial, and educational communities in the
                                                         marks, Congress, and the public.
value and benefits of trademark protection.

                                                         Continue to Move to an Electronic Workplace
Maintaining record quality and pendency achieve-
ments, given the uncertainty of trademark filings,       The Patent and Trademark organizations have made
future revenues, and costs, remains a constant           significant progress to eliminate paper documents
challenge.The Trademark organization has achieved        and manual transactions from their processes.
an enviable record delivering consistent first-action    Electronic communications are improving and
pendency of 2.5 to 3.5 months for more than five         encouraging more applicants to do business elec-
years. This record has been achieved by carefully        tronically by using Web-based systems. The Patent
managing monthly fluctuations in filings and by          and Trademark organizations now rely heavily on
planning an appropriately-sized staff to ensure suffi-   data submitted or captured electronically to support
cient resources are available. Efficiency gains have     examination, publish documents, and issue registra-
been realized through process improvement and            tions. Because of the high degree of reliance on
cost reduction, along with greater use of IT and         electronic operations, both organizations are
electronic communications.                               dependent on the management and support of
                                                         internal IT systems and services to manage their
Although first and final quality compliance rates are    operations and provide services to the public.
very high, it remains a challenge to achieve them
on a consistent monthly basis. To sustain these high     The Patent and Trademark organizations, along with
performance levels, the Trademark organization has       the support of the OCIO, are working to address the
set an even higher “exceptional” standard for evalu-     challenge of completing an electronic docket and
ating office actions. The new standard expands           file management system for each organization.
upon the existing first and final action standards for   These systems will link all operations and processing
correct decision-making. It also includes excellent      that support core examination and post-issuance
evidentiary support and is “exceptionally” well-         activities. A fully electronic workflow will allow both
written. The success of this initiative depends on       organizations to better manage the fluctuations in
novel and focused training, best practice bench-         filings and be more efficient, as well as timely, in
marking, and sharing new quality incentives,             processing and responding to filings.
sustained communication, and close collaboration                                                                               57
with key stakeholders.




                                                                                                         www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     Another major challenge is to integrate and                and upgrade the agency’s patent business IT capa-
     modernize legacy systems, especially those now             bility and infrastructure.
     used for Patent operations. The legacy systems were
     developed over the past 30+ years. Most of these           Implementing this final rule in FY 2013 will mark the
     systems have their own user interface, do not allow        completion of our final component of the USPTO’s
     for easy movement of data to other systems, and            Sustainable Funding Model Strategic Objective.
     were built on now obsolete technology. The goal of
     our Next Generation IT systems is to provide a             Human Capital Management
     common user interface and full data integration
                                                                The USPTO’s mission requires a highly-skilled, well-edu-
     using modern IT tools, replacing the current anti-
                                                                cated, and diverse workforce. The agency continues
     quated and decaying infrastructure. This increased
                                                                to face the ongoing need to recruit, hire, develop, and
     reliance on electronic systems presents other chal-
                                                                retain sufficient numbers of qualified professionals in a
     lenges to the USPTO in the event of an unplanned
                                                                highly competitive environment. In order to do so, the
     outage or disruption in processing.
                                                                USPTO strives to be recognized as an employer of
                                                                choice. The results of the annual EVS are used exten-
     Strengthen Global IPR Systems
                                                                sively to direct efforts and resources towards employer
     The USPTO faces numerous challenges in seeking to          of choice programs, benefits, and strategies.
     strengthen global IP systems, including funding inse-      The agency uses job fairs, targeted recruitment trips,
     curity caused by the global recession for many IP          an aggressive veteran’s hiring program, and other
     institutions around the world. The USPTO will continue     recruitment venues to attract and hire highly sought
     to promote the strengthening of IP systems through         after candidates in all engineering disciplines,
     its policy advocacy and leadership, and training           computer sciences, and other professional fields.
     and education efforts. In close cooperation with           Once aboard, the agency turns its attention to
     other agencies of the U.S. Government, the USPTO           retaining their services and skill sets. Our retention strat-
     will continue to promote the adequate and effective        egies are continually updated to reflect industry best
     protection and enforcement of IP rights overseas.          practices. Attrition data is tracked and survey results
                                                                monitored in an effort to discern the effectiveness of
     USPTO Funding Model                                        our retention initiatives and to identify developing
                                                                trends. The agency continues to focus on work-life
     The USPTO is challenged to finish establishing a
                                                                enhancements which increase employee satisfaction
     sustainable funding model that provides the require-
                                                                at the USPTO. The 2011-2015 Strategic Human Capital
     ments-based authority to spend all fees collected
                                                                Plan www.uspto.gov/about/stratplan/USPTO_2011-
     on operations and work received, spans multiple
     years, and is adaptable to fluctuations inherent in
     estimates. An important aspect of a sustainable
     funding model is the authority to set and adjust fees
     by regulation, so that we can properly establish and
     align fees in a timely, fair, and consistent manner
     without the inherent time impediments of the legis-
     lative process. The USPTO obtained this authority in
     the AIA, signed on September 16, 2011, and the
     agency is working toward alleviating these chal-
     lenges with an implementing rule that is expected
     to be published in FY 2013. Once this rule is imple-
     mented, the USPTO will be exercising, for the first time
     in its existence, the ability to adjust fees in such a
     way to establish a sustainable funding model,
58   reduce the current patent application backlog,               USPTO’s 2012 extern group.
     decrease patent pendency, improve patent quality,




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                           M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




2015_Strategic_Human_Capital_Plan.pdf, which is
aligned with the USPTO 2010-2015 Strategic Plan,
provides guidance, structure, and specific human
capital goals and objectives.

Moving forward and in line with the D&ISP, OEEOD
intends to support the agency’s hiring initiatives by
helping to recruit a diverse pool of well-qualified appli-
cants. OEEOD will support hiring by identifying
sources of diverse and well-qualified applicants, coor-
dinating with the affinity groups to support recruit-
ment efforts, and assisting with the on-boarding
process.
                                                                  A card-sorting exercise used during website redesign
OEEOD is also working with OHR to develop an                      usability testing.
executive development program to increase the
diversity of the agency’s SES, which is currently not
reflective of the agency’s overall diversity. The devel-          campus and additional collaboration tools in
opment program will incorporate best practices for                support of a nationwide workforce;
identifying and nurturing a diverse pool of future           ●●   Plan, implement, and maintain IT systems that
executives.                                                       support and improve business processes in the
                                                                  Patent and Trademark organizations;
OEEOD continues its responsibility for ensuring that
the agency remains a fair workplace with equal               ●●   Work to develop and fully implement an IT Human
opportunity for all. OEEOD is working to maximize                 Capital Strategic Plan, in alignment with the
available technology to become a leader in user and               USPTO 2010-2015 Strategic Plan;
results oriented investigations so that issues are           ●●   Improve the security, availability, and quality of IT
handled in an efficient, collaborative, and accessible            systems and services while reducing their
manner.                                                           complexity and cost; support business area
                                                                  needs to accommodate the hiring and equip-
Create IT Enterprise Architecture and tools                       ping of new employees; provide internal on-line
that Support Mission-Critical Business and                        tools (regarding consistency and quality of
Programmatic Requirements                                         searching and examination); provide electronic
                                                                  file management and workflow; develop interac-
In FY 2013, the USPTO will continue to take steps to
                                                                  tive on-line electronic filing capabilities and
improve its ability to be more responsive, better
                                                                  upgrade e-tools to the public; help move the
manage, and deliver quality products at enhanced
                                                                  USPTO to full electronic records and eliminate the
service levels. This will be accomplished by reducing
                                                                  need to collect and store paper records; and
the complexity of systems, establishing and enforcing
                                                                  continue to improve overall data quality;
more standards, and practicing continual process
improvement.                                                 ●●   Work with the OCFO to plan, implement, and
                                                                  support the Fee Processing Next Generation (FPNG)
The challenge facing the OCIO will be in continuing               system that will integrate with the business IT systems
efforts to:                                                       for the Patent and Trademark organizations; and
                                                             ●●   Continue to add datasets to the U. S. government’s
●●   Work on strengthening our IT Infrastructure and
                                                                  www.data.gov and www.google.com website,
     moving to a “cloud” computing environment;
                                                                  providing the public with no-cost access to bulk
●●   Complete the expansion of IT infrastructure to               text and image data collections of current and                       59
     include faster network connections to/from USPTO             retrospective patent and trademark data.




                                                                                                                 www.uspto.gov
     Accompanying Information
     Performance Goals and Results
     on USPTO Performance
     Performance Audits and Evaluations


     T
           he OIG issued two new audit final reports during       extent BPAI operations and resources will be affected
           FY 2012. The first report, The Patent Hoteling         by the implementation of the AIA. The OIG made
           Program Is Succeeding as a Business Strategy           six recommendations for stronger management
     (February 2012), focused on effectiveness of the Patent      controls within BPAI. The USPTO generally concurred
     Hoteling Program (PHP) in relation to productivity, as       with the OIG’s final report findings and began to
     well as the ability to leverage the PHP for further reduc-   implement the recommendations. The USPTO will
     tions of the patent application backlog in a cost-effi-      develop BPAI performance measures, comprehensive
     cient manner. The OIG made three recommendations             management plans to address the AIA implemen-
     for stronger management controls surrounding the             tation specific to BPAI, ensure that the IT systems are
     program, as well sharing the best practices that             adequate for BPAI’s needs, and assess BPAI’s staffing
     could aid telework programs within the rest of the           and resources for improvements. This evaluation was
     Department of Commerce. The USPTO concurred                  performed in support of the Strategic Goal I: Improve
     with the OIG’s final report findings and began to            Patent Quality and Timeliness.
     implement all recommendations. For example, the
     USPTO has begun working regularly with the Depart-           Performance Data Verification and Validation
     ment of Commerce to address Departmental and                 In accordance with the Government Performance
     bureau-specific telework concerns. In addition, the          and Results Act requirements, the USPTO is committed
     USPTO will conduct a comprehensive assessment of             to making certain the performance information
     the costs and cost avoidances for the PHP, and will          it reports is complete, accurate, and consistent.
     review the PHP eligibility process, procedures, and          The USPTO developed a strategy to validate and verify
     documentation requirements. This evaluation was              the quality, reliability, and credibility of USPTO perfor-
     performed in support of the Strategic Goal I: Improve        mance results and has taken the following actions:
     Patent Quality and Timeliness.
                                                                  ACCOUNTABILITY — Responsibility for providing perfor-
     The second final report, USPTO’s Other Backlog: Past         mance data lies with managers of USPTO programs
     Problems and Risks Ahead for the Board of Patent             who are held accountable for making certain that
     Appeals and Interferences (August 2012), evaluated           procedures are in place to ensure the accuracy of
60   the BPAI (PTAB as of September 16, 2012) staffing and        data and the performance measurement sources
     resources in relation to their caseload, and to what         are complete and reliable.




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                       M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




QUALITY CONTROL — Automated systems and                     Commissioner’s Performance for FY 2012
databases that collect, track, and store performance
                                                            The AIPA, Title VI, Subtitle G, the Patent and Trademark
indicators are monitored and maintained by USPTO
                                                            Office Efficiency Act, requires that an annual perfor-
program managers, with systems support provided by
                                                            mance agreement be established between the
the OCIO. Each system, such as the Patent Application
                                                            Commissioner for Patents and the Secretary of
Location and Monitoring or Trademark Reporting And
                                                            Commerce, and the Commissioner for Trademarks
Application Monitoring, incorporates internal program
                                                            and the Secretary of Commerce. The Commissioners
edits to control the accuracy of supporting data.
                                                            for Patents and Trademarks have FY 2012 perfor-
The edits typically evaluate data for reasonableness,
                                                            mance agreements with the Secretary of Commerce,
consistency, and accuracy. Crosschecks between
                                                            which outline the measurable organizational goals
other internal automated systems also provide assur-
                                                            and objectives for which they are responsible.
ances of data reasonableness and consistency.
                                                            They may be awarded a bonus, based upon an
In addition to internal monitoring of each system,
                                                            evaluation of their performance as defined in the
experts outside of the business units routinely monitor
                                                            agreement, of up to 50 percent of their base salary.
the data-collection methodology. The OCFO is respon-
                                                            The results achieved in FY 2011 are documented in
sible for monitoring the agency’s performance,
                                                            this report. FY 2012 bonus information is currently not
providing direction and support on data collection
                                                            available. For FY 2011, the Commissioner for Patents
methodology and analysis, ensuring that data quality
                                                            was awarded a bonus of 13.9 percent of base salary
checks are in place, and reporting performance
                                                            and the Commissioner for Trademarks a bonus of
management data.
                                                            13.9 percent of base salary.

DATA ACCURACY — The USPTO conducts verifica-
tion and validation of performance measures peri-
odically to ensure quality, reliability, and credibility.
At the beginning of each fiscal year, and at various
points throughout the reporting or measurement
period, sampling techniques and sample counts are
reviewed and adjusted to ensure data are statistically
reliable for making inferences about the population
as a whole. Data analyses are also conducted to
assist the business units in interpreting program data,
such as the identification of statistically significant
trends and underlying factors that may be impacting
a specific performance indicator. For examination
quality measures, the review programs themselves
are assessed in terms of reviewer variability, data entry
errors, and various potential biases.




                                                                                                                                   61




                                                                                                             www.uspto.gov
     Management Assurances and
     Compliance with Laws and Regulations

       T
              his section provides information on the USPTO’s   defined by the Government Accountability Office
              compliance with the following legislative         (GAO), are to ensure:
              mandates:
                                                                ●●   Effectiveness and efficiency of operations;
       ●●   Federal Managers’ Financial Integrity Act
                                                                ●●   Reliability of financial reporting; and
       ●●   Federal Financial Management Improvement Act
                                                                ●●   Compliance with laws and regulations.
       ●●   Federal Information Security Management Act
                                                                The statement of assurance that follows is based on
       ●●   Agency’s Financial Management Systems Strategy
                                                                the wide variety of evaluations, control assessments,
       ●●   Inspector General (IG) Act Amendments               internal analyses, reconciliations, reports, and other
                                                                information, including the DOC OIG audits, and the
       ●●   OMB Financial Management Indicators
                                                                independent public accountants’ opinion on the
       ●●   Prompt Payment Act                                  USPTO’s financial statements and their reports on
                                                                internal control and compliance with laws and
       ●●   Civil Monetary Penalty Act
                                                                regulations. In addition, USPTO is not identified on
       ●●   Debt Collection Improvement Act                     the GAO’s High Risk List related to controls governing
                                                                various areas.
       ●●   Biennial Review of Fees

                                                                Federal Financial Management Improvement
       Management Assurances                                    Act (FFMIA)
                                                                The FFMIA requires Federal agencies to report on
                                                                agency substantial compliance with Federal
       Federal Managers’ Financial Integrity Act
                                                                financial management system requirements, Federal
       (FMFIA)
                                                                accounting standards, and the U.S. Standard
       The FMFIA requires Federal agencies to provide an        General Ledger at the transaction level. In accor-
       annual statement of assurance regarding manage-          dance with OMB Circular A-127 (revised), substan-
       ment controls and financial systems. The USPTO           tial compliance is achieved when an agency’s
       management is responsible for establishing and           financial management systems routinely provide
       maintaining effective internal control and financial     reliable and timely financial information for
62     management systems that meet the objectives of           managing day-to-day operations as well as to
       the FMFIA. The objectives of internal control, as        produce reliable financial statements, maintain




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                              M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




                                                    effective internal control, and comply with legal and



O
          n the basis of the USPTO’s comprehen-     regulatory requirements. The USPTO complied
          sive internal control program during      substantially with the FFMIA for FY 2012.
          FY 2012, the USPTO can provide
reasonable assurance that its internal control
over the effectiveness and efficiency of opera-
tions and compliance with applicable laws           Other Compliance with Laws
and regulations as of September 30, 2012, was
operating effectively. Accordingly, I am pleased
                                                    and Regulations
to certify with reasonable assurance that our
agency’s systems of internal control, taken as a    Federal Information Security Management Act
whole, comply with Section 2 of the Federal
                                                    The USPTO continues to stay vigilant in reviewing
Managers’ Financial Integrity Act of 1982.
                                                    administrative controls over information systems and
Our agency also is in substantial compliance        is always seeking methods of improving our security
with applicable federal accounting standards        program. During FY 2012, the USPTO continued its
and the U.S. Standard General Ledger at the         dedicated efforts in support of compliance with
transaction level and with federal financial        FISMA standards and improvement of our security
system requirements. Accordingly, our agency        program. The USPTO IT Security Program includes a
fully complies with Section 4 of the Federal        strategy for continuous monitoring, which conducts
Managers’ Financial Integrity Act of 1982, with     credentialed compliance and vulnerability scans
no material non-conformances.                       on servers, network devices, database, and Web-ap-
                                                    plication on a quarterly basis. The analysis is being
In addition, the USPTO conducted its assess-
                                                    performed to ensure that operating systems have
ment of the effectiveness of our agency’s
                                                    been configured in accordance with their security
internal control over financial reporting, which
                                                    baseline and appropriate software patch levels.
includes safeguarding of assets and compli-
                                                    Additionally, the IT Security program has integrated
ance with applicable laws and regulations, in
                                                    artifacts to support Security Impact Analysis within
accordance with OMB Circular A-123, Manage-         the systems development lifecycle that allow assess-
ment’s Responsibility for Internal Control. Based   ment of testing requirements for systems undergoing
on the results of this evaluation, the USPTO        new developments, enhancements, or mainte-
provides reasonable assurance that its internal     nance. This proactive approach to security within
control over financial reporting as of June 30,     the development process has successfully assessed
2012 was operating effectively and no material      changes and enabled security compliance for
weaknesses were found in the design or              systems as they are being developed or updated.
operation of the internal control over financial
reporting. In addition, no material weaknesses      As a result, the Chief Information Security Officer
related to internal control over financial          and the OCIO staff working together made a
reporting were identified between July 1, 2012      concerted effort to meet the compliance require-
and September 30, 2012.                             ments of FISMA, while also meeting the reporting
                                                    requirements to OMB. These endeavors were a
                                                    complete success. All USPTO systems achieved a
                                                    100 percent FISMA compliance reporting level for
                                                    FY 2012. There were no deficiencies identified that
David J. Kappos                                     are considered to be the result of any material weak-
Under Secretary of Commerce for Intellectual        nesses in internal control. As a result of the work
Property and Director of the United States          accomplished, the USPTO was able to continue with
Patent and Trademark Office                         continuous monitoring and provide an accurate
                                                                                                                          63
November 7, 2012                                    summary of information consistent with OMB
                                                    reporting requirements for year-end reporting.



                                                                                                    www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     The Inspector General’s Statement of Management           Priority, “Improve IT Infrastructure and Tools”, and will
     Challenges for the DOC (in the Other Accompa-             replace legacy RAM with modern 21st Century tech-
     nying Information section of this report) identifies IT   nology that has more automated internal controls,
     security as a cause for concern Department-wide,          electronic commerce capabilities, and will be able
     to include the USPTO. While the OIG continues to          to meet the Patent and Trademark fee collection
     report IT security as a Commerce-wide concern,            needs of the future. As the USPTO progresses with its
     USPTO management has concluded that IT security           Patent and Trademark IT strategies (Patents
     issues within the agency have been sufficiently           End-to-End and Trademarks Next Generation), the
     resolved beginning in FY 2009 to remove the material      fee processing system also needs to progress to the
     weakness.                                                 next generation. The lack of modern technology in
                                                               legacy RAM hinders the USPTO from taking full
     The USPTO continues to coordinate closely with the        advantage of the potential benefits from Patents
     OIG throughout the year, as well as review annual         End-to-End and Trademarks Next Generation
     assessments with the OIG, to gain additional insight      initiatives.
     and ensure compliance with requirements.
                                                               Inspector General Act Amendments
     Agency’s Financial Management Systems
                                                               The Inspector General Act, as amended, requires
     Strategy
                                                               semi-annual reporting on IG audits and related
     The USPTO’s Consolidated Financial System (CFS)           activities, as well as any requisite agency follow-up.
     provides support for financial management, fee            The report is required to provide information on the
     collections, procurement, and travel management           overall progress on audit follow-up and internal
     functions to the USPTO. CFS leverages several             management controls, statistics on audit reports
     Commercial-off-the-shelf (COTS)/Government-off-           with disallowed costs, and statistics on audit reports
     the-shelf (GOTS) products, including a core financial     with funds put to better use. The USPTO did not have
     and acquisition system (Momentum Financials), an          audit reports with disallowed costs or funds put to
     eTravel system (FedTraveler), a budget execution          better use in FY 2012.
     and compensation projection system (Corporate
     Planning Tool using the Cognos Planning tool), a          The USPTO’s follow-up actions on audit findings and
     cost accounting system (Activity Based Information        recommendations are essential to improving the
     System built using the Profitability and Cost Manage-     effectiveness and efficiency of our programs and
     ment tool), and a data warehouse (Enterprise Data         operations. As of September 30, 2012, management
     Warehouse accessed using the Business Objects             had resolved two recommendations outstanding
     tool). Additionally, CFS includes an internally devel-    from a report issued in FY 2011 (OIG-11-033-A:
     oped fee collection system (Revenue Accounting            “Patent End-to-End Planning and Oversight Need to
     and Management (RAM)), an imaging system                  Be Strengthened to Reduce Development Risk”).
     (Office of Finance Imaging System built using the         One recommendation was outstanding as of
     Documentum tool), and an internally developed             September 30, 2012.
     application to automate the transit subsidy program
     (Transit Subsidy System).                                 Two new audit reports were issued during FY 2012
                                                               (OIG-12-018-A: “The Patent Hoteling Program is
     The FPNG investment replaces RAM, the USPTO’s             Succeeding as a Business Strategy” and OIG-12-
     legacy fee collection system. FPNG will use a combi-      032-A: “USPTO Other Backlog: Past Problems and
     nation COTS, GOTS, and open source code, as well          Risks Ahead for the Board of Patent Appeals and
     as a custom user interface that has the same look-        Interferences”). For details on these audits, refer to
     and-feel as other USPTO websites. Developing and          page 60. Seven recommendations were outstanding
     implementing FPNG supports USPTO’s Strategic              as of September 30, 2012.

64




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                             M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




                              Status of IG Act Amendment Audit Recommendations
                                             as of September 30, 2012
Report for                                                                                                            Completion
              Status               Recommendation                                    Action Plan
Fiscal Year                                                                                                             Date
 FY 2011      Closed   Before development starts on the next         a)	The USPTO will create a description            September
                       (second) release of PE2E, the USPTO              and schedule of releases based on                 2012
                       Director should direct the appropriate           prioritized, high-level requirements
                       USPTO officials to improve PE2E planning         that covers the entire duration of PE2E
                       by developing:                                   development through the decommis-
                                                                        sioning of legacy USPTO systems.
                       a)	A description and schedule of
                          releases based on prioritized high-level   b)	The USPTO will complete a high-level
                          requirements for the entire project, and      design and architecture for the entire
                                                                        duration of PE2E development through
                       b)	High-level designs for the service
                                                                        the decommissioning of legacy
                          architecture for the entire project.
                                                                        systems.
 FY 2011      Closed   The USPTO Director should direct the         a)	The USPTO will document plans for                February
                       appropriate USPTO officials to update the       obtaining contracting resources                    2012
                       current acquisition plan before seeking         during FY 2012; starting in the third
                       contractor support for future PE2E releases.    quarter of FY 2012, the USPTO will
                       The plan should describe:                       document plans for obtaining
                                                                       contracting resources during FY 2013.
                       a)	The strategy for acquiring contracting
                                                                       This plan will include the strategy
                          resources that includes the overall
                                                                       for acquiring contractor resources
                          acquisition approach, the process
                                                                       which includes the overall acquisition
                          for acquiring, and how it will motivate
                                                                       approach, the process for acquiring,
                          contractor performance, and
                                                                       and how it will motivate contractor
                       b)	How USPTO will manage risks to avoid         performance.
                          development delays, overcome
                                                                    b)	The USPTO will create backup plans
                          limited resources for soliciting and
                                                                       with assessed impacts on schedule
                          administering multiple contractors,
                                                                       so that such contingencies can be
                          and successfully manage multiple
                                                                       accommodated within a framework
                          contractors.
                                                                       that allows for timely deliverable of
                                                                       PE2E releases.
 FY 2011      Open     The USPTO Director should direct the          a)	The USPTO will ensure that key                 Estimated
                       appropriate USPTO officials to improve           milestone reviews are conducted                November
                       oversight of                                     semi-annually with the ITIRB and                  2012
                                                                        quarterly with the CRB. In addition
                       PE2E by:
                                                                        the CRB will receive monthly financial
                       a)	Updating USPTO oversight procedures           and summary progress reports.
                          for PE2E by establishing
                                                                     b)	To ensure PE2E is achieving its
                          •	 the key milestone oversight review         milestones and following applicable
                             schedule,                                  government and industry best
                                                                        practices for development, the USPTO
                          •	 criteria for evaluating project
                                                                        has retained a world-class expert
                             progress at oversight reviews, and
                                                                        on legacy migration and business
                          •	 thresholds for convening special           architecture to provide insight,
                             oversight reviews                          validate, and offer corrective advise
                                                                        for PE2E development, deployment,
                       b)	Seeking independent expert advice on          and application migration strategies.
                          technical and project management
                          for input into milestone reviews and
                          defining the rules of engagement
                          for independent reviewers, including
                          when advice will be sought and
                          access given to project artifacts and
                          personnel.
 FY 2012      Open     Conduct a more comprehensive                  Undertake an assessment of the costs               Estimated
                       calculation for costs and cost avoidance      and cost avoidance associated with the              October
                       related to PHP in order to obtain more        PHP as part of the Cost Benefit Analysis              2012
                       accurate estimates of the cost and            for the Telework Enhancement Act Pilot
                       benefits affiliated with this program.        Program.                                                            65
                                                                                                                         (continued)




                                                                                                                   www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




                                 Status of IG Act Amendment Audit Recommendations (continued)
                                                     as of September 30, 2012
      Report for                                                                                                                  Completion
                     Status                  Recommendation                                    Action Plan
      Fiscal Year                                                                                                                   Date
        FY 2012     Closed       Have frequent informal interaction with      Work regularly with the Department                    March
                                 various departmental and bureau staff        of Commerce on departmental and                       2012
                                 members in addition to both hosting and      bureau-specific telework program
                                 participating in more formal events.         issues and implementation. Have
                                                                              frequent informal interaction with
                                                                              various departmental and bureau staff
                                                                              members in addition to both hosting and
                                                                              participating in more formal events.
        FY 2012      Open        Ensure that internal controls are in place   Review the eligibility, signup procedures,          Estimated
                                 so that only eligible patent examiners       and records retention procedures for the             October
                                 participate in PHP and appropriate           PHP. Ensure procedures are in place to                 2012
                                 documentation is maintained.                 fully reflect the eligibility information for all
                                                                              PHP participants.
        FY 2012      Open        Align BPAI’s1 resource planning with the     Board resource (Administrative Patent               Estimated
                                 hiring actions and expected production       Judge “APJ”) planning and hiring actions            Annually
                                 levels of patent examiners.                  will be made taking expected patent
                                                                              examiner hiring and production as one
                                                                              of the primary planning factors. The
                                                                              Board has already begun a significant
                                                                              APJ hiring effort, which is expected to
                                                                              continue. Ultimate hiring results will
                                                                              depend on fee revenue projections,
                                                                              attracting sufficient numbers of qualified
                                                                              candidates, and other factors.
        FY 2012     Closed       Require BPAI to annotate current             The Board has made corrections on the                 August
                                 information on public websites to indicate   USPTO website.                                         2012
                                 that backlog data prior to FY 2010 is
                                 underreported and therefore should be
                                 used with caution.
        FY 2012      Open        Direct BPAI to develop and publish           The Board will develop and publish                  Estimated
                                 performance measures and targets for ex      performance measures for ex parte                    January
                                 parte appeals and other proceedings.         appeals and other proceedings.                         2013
        FY 2012      Open        Develop comprehensive management             The Board will develop comprehensive                Estimated
                                 plans (including how to measure progress,    management plans to address the                      January
                                 gauge performance, and identify risk)        implementation and operational                         2013
                                 to address the implementation and            oversight of the new BPAI proceedings
                                 operational oversight of the new BPAI        under the AIA.
                                 proceedings under the AIA.
        FY 2012      Open        Ensure that data processing systems meet     Work with Judges and staff on internal              Estimated
                                 the needs of all four AIA proceedings.       processing requirements. Liaise with                  March
                                                                              OCIO to implement systems by required                  2013
                                                                              dates. Seek and receive input from
                                                                              public users.
        FY 2012      Open        Explore the feasibility of BPAI’s current    Work with OHR to assess the structure of            Estimated
                                 management and administrative structure      the Board in relation to current work and           February
                                 and staffing, given the increase in the      staffing levels and expected growth in                 2013
                                 number of proceedings and staff at BPAI.     staffing to meet needs of new proceed-
                                                                              ings under the AIA.
      1	Note, pursuant   to the AIA, effective September16, 2012, BPAI is now known as the PTAB.




66




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                   M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




                                                                            FY 2012                    FY 2012
                   Financial Performance Measure
                                                                             Target                  Performance
Percentage of Timely Vendor Payments (MTS)                                    98%                          99%
Percentage of Payroll by Electronic Transfer (OMB)                            90%                         100%
Percentage of Treasury Agency Locations Fully Reconciled (OMB)                95%                         100%
Timely Reports to Central Agencies (OMB)                                      95%                         100%
Audit Opinion on FY 2012 Financial Statements (OMB)                      Unqualified                  Unqualified
Material Weaknesses Reported by OIG (OMB)                                    None                         None
Timely Posting of Inter-Agency Charges (USPTO)                             30 days                      16 days
Average Processing Time for Travel Payments (USPTO)                         8 days                       7 days


OMB Financial Management Indicators                     for litigation. Although the Act has no material effect
                                                        on the USPTO since it operates with minimal delin-
The OMB prescribes the use of quantitative indica-
                                                        quent debt, all debt more than 180 days old has
tors to monitor improvements in financial manage-
                                                        been transferred to the U.S. Department of the
ment. The USPTO tracks other financial performance
                                                        Treasury for cross-servicing.
measures as well. The table above shows the USPTO’s
performance during FY 2012 against performance
                                                        Biennial Review of Fees
targets established internally and by OMB and the
government-wide Metric Tracking System (MTS).           The Chief Financial Officers Act of 1990 requires a
                                                        biennial review of agency fees, rents, and other
Prompt Payment Act                                      charges imposed for services and things of value it
                                                        provides to specific beneficiaries as opposed to the
The Prompt Payment Act requires Federal agencies
                                                        American public in general. The objective of the
to report on their efforts to make timely payments to
                                                        review is to identify such activities and to begin
vendors, including interest penalties for late
                                                        charging fees, where permitted by law, and to peri-
payments. In FY 2012, the USPTO did not pay interest
                                                        odically adjust existing fees to reflect current costs
penalties on 99.4 percent of the 7,080 vendor
                                                        or market value so as to minimize general taxpayer
invoices processed, representing payments of
                                                        subsidy of specialized services or things of value
approximately $590.4 million. Of the 39 invoices that
                                                        (such as rights or privileges) provided directly to
were not processed in a timely manner, the USPTO
                                                        identifiable non-Federal beneficiaries. The USPTO is
was required to pay interest penalties on all
                                                        a fully fee-funded agency without subsidy of general
39 invoices. The USPTO paid $7 in interest penalties
                                                        taxpayer revenue. The USPTO uses Activity Based
for every million dollars disbursed in FY 2012.
                                                        Costing (ABC) to calculate the cost of activities
Virtually all recurring payments were processed by
                                                        performed for each fee, and uses this information to
EFT in accordance with the EFT provisions of the Debt
                                                        evaluate and inform when setting fees. When appro-
Collection Improvement Act of 1996.
                                                        priate, fees are adjusted to be consistent with legis-
                                                        lative requirements to recover full cost of the goods
Civil Monetary Penalty Act                              or services provided to the public as with the admin-
There were no Civil Monetary Penalties assessed by      istrative trial proceedings established in the AIA.
the USPTO during FY 2012.
                                                        Consistent with the provisions of the AIA, the USPTO
Debt Collection Improvement Act                         expects to continuously assess fees, on at least a
                                                        biennial basis after the initial fee adjustments antic-
The Debt Collection Improvement Act prescribes          ipated for the Spring 2013. Section 10(c) of the AIA
standards for the administrative collection, compro-    directs the USPTO to consult the PPAC and TPAC,
mise, suspension, and termination of Federal agency     respectively, annually on the advisability of reducing                 67
collection actions, and referral to the proper agency   fees set or adjusted under Section 10(a).




                                                                                                         www.uspto.gov
     Financial Discussion and Analysis

     Financial Highlights


     T
          he USPTO received an unqualified (clean) audit       Balance Sheet and Statement of Changes in
          opinion from the independent public account-         Net Position
          ing firm of KPMG LLP on its FY 2012 financial
                                                               At the end of FY 2012, the USPTO’s consolidated
     statements, provided in the Financial Section of this
                                                               Balance Sheet presents total assets of $1,982.1
     report. This is the 20th consecutive year that the
                                                               million, total liabilities of $1,255.2 million, and a net
     USPTO received a clean opinion. Our unqualified
                                                               position of $726.9 million.
     audit opinion provides independent assurance to
     the public that the information presented in the
                                                               Total assets increased 20.3 percent over the last four
     USPTO financial statements is fairly presented, in all
                                                               years, resulting largely from the increase in Fund
     material respects, in conformity with accounting
                                                               Balance with Treasury. The decrease in Fund Balance
     principles generally accepted in the United States of
                                                               with Treasury during FY 2009 is a result of the
     America. In addition, KPMG LLP reported no material
                                                               decrease in fee income. The following graph shows
     weaknesses in the USPTO’s internal control, and no
                                                               the changes in assets during this period.
     instances of non-compliance with laws and regula-
     tions affecting the financial statements. Refer to the
     Other Accompanying Information section for the
     Summary of Financial Statement Audit and Manage-
     ment Assurances.

      The summary financial highlights presented in this
     section provide an analysis of the information that
     appears in the USPTO’s FY 2012 financial statements.
     The USPTO financial management process ensures
     that management decision-making information is
     dependable, internal controls over financial reporting
     are effective, and that compliance with laws and
     regulations is maintained. The issuance of these
     financial statements is a component of the USPTO’s
68   objective to continually improve the accuracy and
     usefulness of its financial management information.



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                      M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




Fund Balance with Treasury is the single largest asset     The other major asset is property, plant, and equipment.
on the Balance Sheet and represents 87.1 percent of        The net balance of this asset has increased by
total assets at the end of FY 2012. Over half of the       $32.8 million during the past four years, with the acqui-
Fund Balance with Treasury represents fees the USPTO       sition values of property, plant, and equipment
has collected, but has not been authorized to spend        increasing by $194.0 million. Investments in IT software
through the annual appropriation process – this            and software in development from FY 2008 to FY 2009
includes temporarily unavailable fees of $790.1 million    increased $12.7 million, in conjunction with enhancing
and unavailable special fund receipts under OBRA           the existing e-government capabilities in areas such
of $233.5 million, which total $1,023.6 million in         as e-filing, application information retrieval, data and
unavailable fees. This asset is also comprised of          image capture, and web-based search systems.
unpaid obligated funds of $344.8 million, other funds      This increase slowed to only $6.8 million in FY 2010 as
held on deposit for customers of $120.7 million, and       the USPTO chose to stop modifications to existing,
unobligated funds carried over from one year to the        outdated systems. Instead, the USPTO is beginning to
next (operating reserve) of $237.9 million.                completely re-invent our IT systems from end-to-end,
                                                           which will lead to future increases in IT hardware,
The unavailable special fund receipts and the tempo-       software, and software in development values. This was
rarily unavailable funds require Congressional appro-      evidenced by increases in FY 2011 and FY 2012 of
priation before they will be available for USPTO’s use.    $76.1 million and $55.4 million, respectively, for IT
These funds, together with amounts obligated and           hardware, software, and software in development.
held on deposit, represent 86.2 percent of the Fund
Balance with Treasury.                                     Total liabilities increased from $1,251.2 million at the
                                                           end of FY 2011 to $1,255.2 million at the end of
The operating reserve is available for use without         FY 2012, representing an increase of $4.0 million, or
further Congressional appropriation and is main-           0.3 percent. The following graph shows the compo-
tained to permit the USPTO to plan for long-term           sition of liabilities during the past five years.
financial stability, as well as temporary changes in our
cash flow. As such, the operating reserve is not tied
to a specific event and enables the USPTO to address
fluctuations in revenues or unexpected demands on
resources. In addition, the operating reserve is used
to manage cash flow at the beginning of the fiscal
year to ensure the agency has adequate resources
to sustain current operations. Total fee collections are
lower than operating requirements early in the year,
and do not fully cover the necessary expenses such
as payroll and contractual obligations that occur
close to the fiscal year start. The operating reserve is
intended to provide sufficient resources to continue
current operations until the collection of fees builds
over the subsequent months.

As required by 35 U.S.C. 42(c)(3), the USPTO maintains
and tracks two separate and distinct operating
reserve balances – one for Patent operations and one
for Trademark operations. At the end of FY 2012, the
Patent operating reserve was $111.8 million and the
Trademark operating reserve was $126.1 million, 0.6
and 7.5 months of operating expenses, respectively.                                                                               69




                                                                                                            www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     The USPTO’s deferred revenue is the largest liability on
     the Balance Sheet. The liability for deferred revenue
     is calculated by analyzing the process for completing
     each service provided. The percent incomplete
     based on the inventory of pending work and comple-
     tion status is applied to fee collections to estimate the
     amount for deferred revenue liability.

     FY 2012 resulted in a decrease to the deferred revenue
     liability of $14.9 million, or 1.8 percent from FY 2011.
     The deferred revenue liability for FY 2012 includes
     unearned patent and trademark fees, as well as unde-
     posited checks. The unearned patent fees repre-
     sented 92.0 percent of this liability. During FY 2008, the   action pendency rates, and fee rates result in
     deferred revenue liability increased $20.4 million, or       increases in deferred revenue.
     2.5 percent. This increase was followed by decreases
     to the deferred revenue liability in FY 2009 and FY 2010,    The following table depicts the changes in the filings
     for a cumulative decrease of $74.1 million, or               and pendencies during the past five years.
     8.7 percent. The deferred revenue liability temporarily
     increased in FY 2011 by $71.4 million, or 9.2 percent.       In FY 2012, unearned patent fees decreased
     The following graph depicts the composition of the           2.1 percent, in line with the decrease in first action
     deferred revenue liability, in addition to the change in     pendency of 6.1 months and the improvements and
     this liability during each of the past five years.           efficiencies realized with the successful completion
                                                                  of the COPA initiative. During FY 2008, unearned
     Deferred revenue at the USPTO is largely impacted by         patent fees increased 3.2 percent, in line with the
     the change in patent and trademark filings, changes          increase in first action pendency of 1.2 percent.
     in the first action pendency rates, and changes in fee       In FY 2009 and FY 2010, unearned patent fees
     rates. Increases in patent and trademark filings, first      decreased 4.6 percent and 4.2 percent, respectively.


      Filings and Pendencies                                      FY 2008    FY 2009    FY 2010    FY 2011    FY 2012
      Patent Filings                                              496,886    486,499    509,367    537,1711   565,4061
      Percentage Change in Patent Filings                           6.1%      (2.1)%      4.7%       5.5%       5.3%

      Patent First Action Pendency (months)                         25.6       25.8       25.7       28.0       21.9
      Percentage Change in Patent First Action Pendency             1.2%       0.8%      (0.4)%      8.9%     (21.8)%
      Total Patent Pendency (months)                                32.2       34.6       35.3       33.7       32.4
      Percentage Change in Total Patent Pendency                    0.9%       7.5%       2.0%      (4.5)%     (3.9)%

      Trademark Filings                                           401,392    352,051    368,939    398,667    415,026
      Percentage Change in Trademark Filings                        1.8%     (12.3)%      4.8%       8.1%       4.1%

      Trademark First Action Pendency (months)                      3.0        2.7         3.0        3.1        3.2
      Percentage Change in Trademark First Action Pendency          3.4%     (10.0)%     11.1%       3.3%       3.2%
      Total Trademark Average Pendency (months)                     11.8       11.2       10.5       10.5       10.2
      Percentage Change in Total Trademark Average Pendency       (11.9)%     (5.1)%     (6.2)%      —%        (2.9)%
      1	Preliminary   data

70




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                       M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




As a result of process improvements and increased           priations. The movement in net position is the result
efficiencies combined with decreased patent filings         of the net income or net cost for the year. The change
in FY 2009 that accompanied the economic                    in the net position during the past five years is
downturn, the USPTO was able to make progress in            presented in the following graph.
reducing the existing inventory. This was evidenced
by the Patent organization disposing of 22.9 percent
and 13.6 percent in FY 2010 and FY 2009, respectively,
more applications than were disposed of during the
preceding year. Despite overall increases in Patent
applications from FY 2008 through FY 2010, first action
pendency had remained fairly constant as a result of
increased Patent staffing and increased focus on
workload. In FY 2011, unearned patent fees increased
9.8 percent, a temporary increase as a result of the
COPA initiative to clean up the older cases in the
pending backlog and more strictly manage its                The increase in net position from $602.3 million at
inventory in a first-in, first-out inventory environment.   the end of FY 2011 to $726.9 million at the end of
                                                            FY 2012, or 20.7 percent, is attributable largely to the
Deferred revenue associated with the patent process         results of operations.
is expected to resume decreasing. In the FY 2013
President’s Budget, the number of patent applications
                                                            Statement of Net Cost
filed from FY 2013 through FY 2017 is expected to
gradually increase, with first action pendency              The Statement of Net Cost presents the USPTO’s
decreasing to 9.4 months by FY 2017 and total               results of operations by the following responsibility
pendency at 18.1 months by FY 2017. The pendency            segments – Patent, Trademark, and Intellectual
decreases will result in patent deferred revenue            Property Policy, Protection and Enforcement
decreases.                                                  Worldwide. The following table presents the total
                                                            USPTO’s results of operations for the past five fiscal
The deferred revenue associated with the trademark          years. In FY 2012, USPTO generated a net income of
process increased in FY 2012. Trademark deferred            $106.1 million due to an increase in fees received
revenue increased by $1.3 million, or 2.0 percent, from     and revenue recognition of previously deferred
FY 2011, with an overall 4.5 percent decrease over the      revenue collected as we work off the backlog.
past four years. The FY 2012 increase was consistent        During FY 2008 and FY 2009, the USPTO’s operations
with total trademark first action pendency slightly         resulted in a net cost of $30.4 million and $54.8 million,
increasing to 3.2 months and the increase in trademark      respectively. In FY 2010, the USPTO generated a net
applications, offset by trademark average pendency          income of $94.7 million due to the increased mainte-
decreasing to 10.2 months. Estimates included in the        nance fees received and revenue recognition of
FY 2013 President’s Budget project the pendencies to        previously deferred revenue collected as we work off
remain constant in the upcoming years.                      the backlog. In FY 2011, the USPTO generated a net
                                                            income of $88.3 million due to the continued
The Statement of Changes in Net Position presents           increase of maintenance fees received, offset by
the changes in the financial position of the USPTO          decreased revenue recognition of previously collected
due to results of operations and unexpended appro-          deferred revenue.


 Net (Cost)/Income (Dollars in Millions)               FY 2008     FY 2009        FY 2010         FY 2011         FY 2012
 Earned Revenue                                       $	1,862.2    $	1,927.1     $	2,101.7       $	2,236.4        $	2,427.1
 Program Cost                                          (1,892.6)   (1,981.9)      (2,007.0)       (2,148.1)        (2,321.0)
                                                                                                                                   71
 Net (Cost)/Income                                    $	(30.4)     $	(54.8)      $	94.7          $	88.3           $	106.1




                                                                                                              www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     The Statement of Net Cost compares fees earned to
     costs incurred during a specific period of time. It is
     not necessarily an indicator of net income or net cost
     over the life of a patent or trademark. Net income or
     net cost for the fiscal year is dependent upon work
     that has been completed over the various phases of
     the production life cycle. The net income calculation
     is based on fees earned during the fiscal year being
     reported, regardless of when those fees were
     collected. Maintenance fees also play a large part
     in whether a total net income or net cost is recog-
     nized. Maintenance fees collected in FY 2012 are a
     reflection of patent issue levels 3.5, 7.5, and 11.5 years   Earned revenue totaled $2,427.1 million for FY 2012,
     ago, rather than a reflection of patents issued in           an increase of $190.7 million, or 8.5 percent, over
     FY 2012. Therefore, maintenance fees can have a              FY 2011 earned revenue of $2,236.4 million. Of revenue
     significant impact on matching costs and revenue.            earned during FY 2012, $558.7 million related to fee
                                                                  collections that were deferred for revenue recogni-
     During FY 2012, the number of patent filings increased       tion in prior fiscal years, $697.9 million related to main-
     by 5.3 percent over the prior year. Despite this             tenance fees collected during FY 2012, which were
     increase, the Patent organization disposed                   considered earned immediately, $1,165.3 million
     7.7 percent more applications than were disposed             related to work performed for fees collected during
     of during FY 2011. This resulted in a decrease in            FY 2012, and $5.2 million were not fee-related.
     patent deferred revenue and an increase in earned
     revenue.                                                     For fees collected and earned during FY 2012, there
                                                                  was an increase of $129.5 million over these same
     During FY 2012, with the number of trademark appli-          fees earned during FY 2011. This increase can
     cations increasing by 4.1 percent over the prior year,       primarily be attributed to $66.1 million in earned
     the Trademark organization was able to continue to           patent issue fees, $18.9 million in patent filing fees,
     address the existing inventory and maintain pendency         $12.9 million in trademark post-registration fees, and
     between 2.5 and 3.5 months during FY 2012.                   $39.2 million in patent and trademark fees consid-
     The Trademark organization was able to do this while         ered earned immediately, offset by a decrease of
     recognizing a slight increase in deferred revenue and        $5.4 million in PTAB fees.
     corresponding decrease in revenue earned.
                                                                  Patent
     Earned Revenue
                                                                  Traditionally, the major components of earned
     The USPTO’s earned revenue is derived from the fees          revenue derived from patent operations are mainte-
     collected for patent and trademark products and              nance fees, initial application fees for filing, search,
     services. Fee collections are recognized as earned           and examination, and issue fees. These fees account
     revenue when the activities to complete the work
     associated with the fee are completed. The earning
     process is the same for all collections even though a
     certain portion of the fees may not be made
     available to the USPTO for spending. Temporarily
     unavailable fee collections occur when the USPTO is
     not appropriated the authority to spend all fees
     collected during a given year. During FY 2012, the
     USPTO did not collect any fee collections that were
72
     designated as temporarily unavailable.




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                      M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




Patent Renewal Rates1                                             FY 2008        FY 2009        FY 2010         FY 20112         FY 20122
First Stage                                                        83.1%          80.3%           99.4%          101.3%            78.3%
Second Stage                                                       73.7%          63.5%           71.2%           80.6%            55.7%
Third Stage                                                        49.2%          45.4%           50.0%           60.0%            47.0%
1   Note: the First Stage refers to the end of the 3rd year after the initial patent is issued; the Second Stage refers to the end of the
    7th year after the initial patent is issued; and the Third Stage refers to the end of the 11th year after the initial patent is issued.
    For example, in FY 2012, 78.3 percent of the patents issued three years ago were renewed, 55.7 percent of the patents issued
    seven years ago were renewed, and 47.0 percent of the patents issued 11 years ago were renewed.
2   Note: Due to the implementation of the 15 percent fee surcharge on September 26, 2011, the FY 2011 renewal rates include
    some early renewals that would have otherwise been renewed in FY 2012.


for approximately 84 percent of total patent income.                     rate. The FY 2013 President’s Budget projects that
The chart on the previous page depicts the relation-                     patents issued will increase an average of 4.4 percent
ship among the most significant patent fee types.                        each fiscal year through FY 2017, which will result in
                                                                         increases in maintenance fees in future years.
Patent maintenance fees are the largest source of
earned revenue by fee type. During FY 2012, mainte-                      Trademark
nance fees collected decreased $121.4 million, or
                                                                         Trademark fees are comprised of application filing,
14.8 percent, from FY 2011. A significant portion of
                                                                         renewals, services, and TTAB fees. Additional fees are
this decrease was due to early renewals that were
                                                                         charged for intent-to-use filed applications, as addi-
paid prior to the implementation of the 15 percent
                                                                         tional requirements must be met for registration.
surcharge on September 26, 2011. Since these fees
                                                                         The following chart depicts the relationship among
are recognized immediately as earned revenue, any
                                                                         the most significant trademark fee types.
fluctuations in the rates of renewal have a significant
impact on the total earned revenue of the USPTO.
To some extent, renewals recoup costs incurred
during the initial patent process. As shown above,
the renewal rates for all three stages of maintenance
fees decreased this year.

Application fee revenue earned upon filing increased
from $102.8 million in FY 2011 to $124.2 million in
FY 2012 (increase of 20.8 percent), with the number
of applications increasing from 537,171 to 565,406
over the same period (increase of 5.3 percent).
The FY 2013 President’s Budget projects a 6.0 percent
increase in patent applications filed beginning in
FY 2013 and gradually decreasing to 5.0 percent                          Earned revenue for trademark applications increased
through FY 2017, which will contribute to continued                      from $125.4 million in FY 2011 to $130.1 million in
budgetary resources, as well as earned fee revenue.                      FY 2012, with the number of trademarks registered
                                                                         increasing from 237,586 to 243,459 over the same
Earned issue fee revenue increased from $397.2 million                   period, increases of 3.7 percent and 2.5 percent,
in FY 2011 to $463.3 million in FY 2012, with the number                 respectively. The FY 2013 President’s Budget projects
of patents issued increasing from 244,430 to 270,258                     that trademark applications filed will continue to
over the same period, an increase of 16.6 percent and                    increase, which will contribute to the continued
10.6 percent, respectively. These increases are in line                  growth in budgetary resources, as well as earned fee
with the increases in production and patent allowance                    revenue.
                                                                                                                                                  73




                                                                                                                            www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




      Trademark Renewal Rates1                                   FY 2008       FY 2009       FY 2010        FY 2011      FY 20122
      Renewals                                                    28.9%         29.3%          29.3%         29.3%         28.7%
      1 Note: therenewals occur every 10th year for trademarks registered after November 15, 1989. For trademarks issued or renewed
      before November 15, 1989, renewal will occur after the 20th year and the renewal will be for a ten-year period. For example, in
      FY 2012, 28.7 percent of the trademarks granted ten and 20 years ago were renewed.
      2	Preliminary   data


     Trademark registration can be a recurring source of               Patent
     revenue. To some extent, renewal fees recoup costs
                                                                       Total costs for the Patent business unit increased
     incurred during the initial examination process.
                                                                       $423.7 million, 25.6 percent, from FY 2008 through
     As shown above, the renewal rates for trademarks
                                                                       FY 2012. The Patent organization’s most significant
     have remained fairly stable over the last five years,
                                                                       program costs relate to personnel services, and
     indicating continued earned revenue from this
                                                                       account for 92.5 percent of the increase in total cost
     source. Further, in the FY 2013 President’s Budget,
                                                                       of Patent operations during the past four years.
     earned revenue from trademark renewals is
                                                                       Patent personnel costs for the year ended September
     expected to continue in the future.
                                                                       30, 2012, were $1,385.4 million, an increase of
                                                                       $103.8 million, or 8.1 percent, over FY 2011 personnel
     Program Costs
     Program costs totaled $2,321.0 million for the year
     ended September 30, 2012, an increase of $172.9
     million, or 8.0 percent, over FY 2011 program costs of
     $2,148.1 million. The USPTO’s most significant program
     cost is personnel services and benefits, which
     comprise approximately 70 percent of USPTO’s total
     program costs. Any significant change or fluctuation
     in staffing or pay rate directly impacts the change in
     total program costs from year-to-year. Total personnel
     services and benefits costs for the year ended
     September 30, 2012, were $1,626.4 million, an increase
     of $112.4 million, or 7.4 percent, over FY 2011 personnel
     services and benefits costs of $1,514.0 million.
     This change was predominantly the result of a net
     increase of 1,321 personnel, from 10,210 at the end of
     FY 2011 to 11,531 at the end of FY 2012.

     The USPTO directs maximum resources to the
     priority functions of patent and trademark exam-
     ination, as well as IP policy, protection, and
     enforcement worldwide. For FY 2012, costs directly
     attributable to the Patent, Trademark, and IP protec-
     tion business areas represent 83.7 percent of total
     USPTO costs. The remaining costs, representing
     support costs, are allocated to the business areas
     using ABC accounting. Allocated costs increased
     9.6 percent over the past year in line with increased
     IT investments.
74




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                            M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




                                                                                         Trademark Costs
                                                                                         (Dollars in Millions)

                                                                                                                                    $117.6
                                                               Direct                                                            $112.1
                                                             Personnel                                                           $111.9
                                                               Costs                                                           $107.9
                                                                                                                             $101.7

                                                                                    $15.9
                                                              Direct              $10.7
                                                            Contractual           $10.7
                                                             Services              $13.3
                                                                                      $19.4

                                                                                 $7.4
                                                            Direct Rent,         $7.1
                                                          Communications,        $6.7
                                                            and Utilities        $7.6
                                                                                 $7.3

                                                                                 $7.0
                                                                                 $7.4
                                                               Other
                                                            Direct Costs         $7.0
                                                                                 $6.9
                                                                                  $8.8

                                                                                                        $53.4
                                                                                                        $54.5
                                                             Allocated
                                                               Costs                                 $46.3
                                                                                                          $57.5
                                                                                                         $55.4

                                                                            $0      $20        $40      $60       $80   $100      $120       $140

                                                                     FY 2012         FY 2011         FY 2010       FY 2009      FY 2008


costs of $1,281.6 million. Rent, communications, and      Patent costs were predominantly spread over two
utilities, printing and reproduction, and contractual     patent products: utility patents and 371 filings (an
service costs represent 15.4 percent of the Patent        international application designated to the U.S. that
program costs for FY 2012. During FY 2008, contrac-       has entered the national stage). The cost percent-
tual costs increased in line with the overall increase    ages presented are based on direct and indirect
in Patent costs due to increases in the number of         costs allocated to patent operations and are a
patents issued and increased spending on indexing         function of the volume of applications processed in
and scanning documents for the electronic file            each product area.
wrapper, offset by minor decreases to printing and
reproduction. From FY 2009 through FY 2011, contrac-      Trademark
tual costs decreased in line with the cost efficiencies
                                                          Total costs for the Trademark business unit increased
implemented agency-wide. During FY 2012, contrac-
                                                          $8.7 million, 4.5 percent, from FY 2008 through
tual and printing costs increased in line with the                                                                                                  75
                                                          FY 2012. The Trademark organization’s most signifi-
overall increase in Patent costs due to increases in
                                                          cant program costs relate to personnel services,
the number of patents issued.


                                                                                                                         www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     and account for most of the increase in total cost of      tions. The next largest cost associated with the policy,
     Trademark operations during the past four years.           protection, and enforcement of intellectual property
     This increase of $15.9 million was offset by other cost    worldwide is contractual services, which include joint
     increases and decreases. Contractual services              project agreements. These costs were incurred in
     have decreased $3.5 million over the past four years,      line with the activities discussed on pages 37 to 44.
     which represents the majority of the total Trademark
     cost change over the past four years, as a result of       Statement of Budgetary Resources
     being able to rely more on automated tools, rather
                                                                During FY 2012, total budgetary resources available
     than contractors.
                                                                for spending was 11.7 percent over the amount
                                                                available in the preceding year, with a 36.3 percent
     The Intent-to-Use cost includes costs related to
                                                                increase over the past five fiscal years. The increase
     examining both the application and the additional
                                                                in budgetary resources available for use is depicted
     intent to use disclosures. The overall cost percent-
                                                                by the graph below.
     ages presented below are based on both direct
     costs and indirect costs allocated to trademark
     operations and are a function of the volume of
     applications processed in each product area.

     Intellectual Property Policy, Protection, and
     Enforcement Worldwide
     Total costs for IP Protection decreased $4.0 million, or
     9.0 percent, from FY 2008 through FY 2012. The most
     significant program costs for IP Protection in FY 2012
     relate to personnel services, and account for
     45.9 percent of the total cost for IP Protection opera-    Through FY 2008, the increase in available budgetary
                                                                resources was used to fund the increased cost of
                                                                additional human capital to address the backlog
                                                                of patent applications. In FY 2009, the increase in
                                                                available budgetary resources minimally covered
                                                                inflationary increases and was $200 million less
                                                                than planned. As a result, budget reductions
                                                                and cost-savings measures were implemented.
                                                                However, while fee collections were showing a
                                                                rebound at the beginning of FY 2010, the USPTO was
                                                                operating under a smaller appropriation that was
                                                                based on the FY 2009 financial picture with lower
                                                                than average fee collections. This was a result of
                                                                the slower economy and actual collections in
                                                                FY 2009. The lack of enactment of the 15 percent
                                                                increase on certain patent fees as proposed in the
                                                                FY 2011 President’s Budget resulted in a FY 2011
                                                                appropriation $241.3 million less than planned
                                                                and as requested in the FY 2011 President’s Budget.
                                                                In FY 2012, all agency fee collections were available.
                                                                The increase in available budgetary resources
                                                                were used to fund the increased cost of additional
                                                                human capital to increase examination capacity to
76                                                              address the backlog of patent applications, as well
                                                                as to provide current-year funding for the reinven-




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                   M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




tion of our IT systems from end-to-end. As we are an
agency funded entirely by user fees, this affects our
operations significantly.

As the economy has begun showing signs of recov-
ering, the Patent and Trademark application filings
have also been slowly recovering.




The USPTO was provided appropriation authority to
spend anticipated fee collections in FY 2012 for an
amount up to $2,706.3 million. This was more than
the amount of total fees collected in FY 2012.
A significant portion of the anticipated FY 2012 fee
collections were collected in FY 2011 due to early      incurred during the initial patent process. As shown
renewals that were paid prior to the implementation     on page 73, the renewal rates for all three stages
of the 15 percent surcharge on September 26, 2011.      of maintenance fees decreased during FY 2012.
When spending authority is less than fee collections,   Due to the implementation of the 15 percent fee
the additional fee collections are temporarily          surcharge on September 26, 2011, the FY 2011
unavailable.                                            renewal rates include some early renewals that
                                                        would have otherwise been renewed in FY 2012
The following charts present the source of funds        (increased FY 2011 renewal rates, but decreased
made available to the USPTO in FY 2012, and the use     FY 2012 renewal rates).
of such funds representing FY 2012 total obligations
incurred, as reflect on the Statement of Budgetary      As defined earlier, temporarily unavailable fee
Resources.                                              collections occur when the USPTO is not appropri-
                                                        ated the authority to spend all fees collected during
USPTO operations rely on patent maintenance fees        a given year. During FY 2012, the USPTO did not
to fund a portion of the work being completed           collect any fee collections that were designated as
each fiscal year. During FY 2012, maintenance fees      temporarily unavailable. As a result, the $790.1 million
collected decreased $121.4 million, or 14.8 percent,    in temporarily unavailable fee collections at the end
from FY 2011. As maintenance fees are one of the        of FY 2011 remained the same through FY 2012.
largest sources of budgetary resources and are
recognized immediately as earned revenue, any           The chart on the next page illustrates amounts of
fluctuations in the rates of renewal have a signif-     fees that Congress has appropriated to the USPTO
                                                                                                                               77
icant impact on the total resources available to        for spending over the past five fiscal years, as well as
the USPTO. To some extent, renewals recoup costs        the cumulative unavailable fee collections.



                                                                                                         www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




      Temporarily Unavailable Fee Collections (Dollars in Millions)   FY 2008     FY 2009      FY 2010     FY 2011     FY 2012
      Fiscal year fee collections                                     $	1,879.3   $	1,874.2    $	2,068.5   $	2,298.9   $	2,406.8
      Fiscal year collections appropriated                            (1,879.3)    (1,874.2)   (2,016.0)   (2,090.0)   (2,406.8)
      Fiscal year unavailable collections                             $	—         $	—          $	52.5      $	208.9     $	—
      Prior year collections unavailable                                 528.7       528.7        528.7       581.2       790.1
      Subtotal                                                        $	528.7     $	528.7      $	581.2     $	790.1     $	790.1
      Special fund unavailable receipts                                  233.5       233.5        233.5       233.5       233.5
      Cumulative temporarily unavailable fee collections              $	762.2     $	762.2      $	814.7     $	1,023.6   $	1,023.6


     These cumulative unavailable fee collections remain              (Statement of Net Cost) and total assets and liabilities
     in the USPTO’s general fund account at the U.S.                  (Balance Sheet). Since not all transactions involve
     Department of the Treasury (Treasury) until appropri-            actual cash items, many items have to be adjusted
     ated for use by Congress. In addition to these                   when calculating cash flow.
     annual restrictions, collections of $233.5 million are
     unavailable in accordance with the OBRA of 1990,                 The USPTO receives fees for its primary activities of
     and deposited in a special fund receipt account at               issuing patents and registering trademarks and
     the Treasury. Effective in FY 2012, all fees collected in        chooses to include information on the sources and
     addition to the amount appropriated will be                      amounts of cash provided to assist report users in
     deposited in a new patent and trademark fee                      understanding its operating performance. While the
     reserve fund created by the AIA. It is anticipated               fees received are an increase in cash flow, they may
     that fee collections in the fee reserve fund will be             not necessarily be available for spending based on
     appropriated for use by Congress.                                budgetary restrictions. Over half of the Fund Balance
                                                                      with Treasury represents fees the USPTO has collected,
     As we return to financial health, we will use the new            but has not been authorized to spend through the
     authority in the AIA to set fees so that we are able to          annual appropriation process – this includes cumula-
     manage patent and trademark revenue fluctua-                     tive temporarily unavailable fees of $790.1 million
     tions and properly align fees in a timely, fair, and             and unavailable special receipt funds under OBRA of
     consistent manner.                                               $233.5 million, which total $1,023.6 million in unavail-
                                                                      able fees. Cash flow is determined by looking at
     Statement of Cash Flows                                          three components by which cash enters and leaves
     The Statements of Cash Flow, while not a required                the USPTO: operations, investing, and financing.
     financial statement, are audited and are presented for
     purposes of additional analysis. The Cash Flow                   Historically at the USPTO, cash flow adjustments to
     statement records the company’s cash transactions                operational activities result in an increase to net
     (the inflows and outflows) during the given period.              income. Depreciation and Accrued Payroll, Leave,
     The document provides aggregate data regarding all               and Benefits operate similarly, as the accrued
     cash inflows received from both its ongoing operations           expenses that do not affect the cash flow are
     and external investment sources, as well as all cash             adjusted for, thereby increasing net income.
     outflows that pay for business activities and invest-            Deferred revenue is also a significant factor, as the
     ments during the period. Cash flow is calculated by              USPTO has received the fees, but not completed all of
     making certain adjustments to net income/cost by                 the work; in a year when the deferred revenue liability
     adding or subtracting differences in revenue and                 decreases, such as FY 2010, net income increases
     expense transactions (appearing on the Balance                   without a corresponding increase in the cash flow;
     Sheet and Statement of Net Cost) resulting from trans-           the increase to net income is removed for deter-
     actions that occur from one year to the next.                    mining cash flow. Other adjustments are predomi-
78
     These adjustments are made because non-cash items                nantly comprised of changes in accounts payable
     are included in preparing the net income/cost                    balances; in a year when the overall liability balance



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                     M A N AG E M E N T ’ S D IS C U S S IO N A N D A NA LYSIS




Composition of USPTO Cash Flow (Dollars in Millions)       FY 2008    FY 2009       FY 2010       FY 2011        FY 2012
Cash Flow from Operations
   Net Income/(Cost)                                      $	(30.4)   $	(54.8)     $	94.7         $	88.3        $	106.1
Operating Adjustments
   Depreciation                                           $	67.6     $	63.3       $	59.1         $	52.7        $	67.9
   Accrued Payroll, Leave, and Benefits                      25.2       11.1           43.6          47.2           32.9
   Deferred Revenue                                          20.4      (48.2)         (25.9)         71.4          (14.8)
   Other Adjustments                                         11.3      (15.1)         (17.3)         20.0            4.1
      Total Adjustments                                   $	124.5    $	11.1       $	59.5         $	191.3       $	90.1
      Net Cash Provided/(Used) by Operating Activities    $	94.1     $	(43.7)     $	154.2        $	279.6       $	196.2
Net Cash Used in Investing Activities
   Property, Plant, and Equipment                         $	(67.2)   $	(65.0)     $	(27.6)       $	(84.9)      $	(98.2)
Financing Activities
   Non-Expenditure Transfer                               $	(1.0)    $	(2.0)      $		—           $		—          $	(1.0)
   Accounting Standard Change                             		—          (11.9)     		­—           		—           		—
      Net Cash Used in Investing                          $	(1.0)    $	(13.9)     $		­—          $		—          $	(1.0)
      Activities
Net Cash Provided/(Used)                                  $	25.9     $	(122.6)    $	126.6        $	194.7       $	97.0



decreases, then a reader can conclude that an             Accounting Standard (SFFAS) 31, Accounting for
increased amount of cash was disbursed, thereby           Fiduciary Activities, in FY 2009, the presentation of
requiring a reduction to net income/cost; alternately,    fiduciary funds were removed from the Balance Sheet
in a year when the overall liability balance increases,   and are therefore reflected as a decrease of cash.
a reader can conclude that a lesser amount of cash
was disbursed.                                            Limitation on Financial Statements
                                                          The principal financial statements included in this
The investment of property, plant, and equipment is a
                                                          report have been prepared by USPTO management to
cash transaction that has not been accounted for in
                                                          report the financial position and results of operations
net income/cost. This investment reduces net
                                                          of the USPTO, pursuant to the requirements of 31 U.S.C.
income/cost further for calculating cash flow. Invest-
                                                          3515(b). While the statements have been prepared
ments decreased in FY 2010 as the USPTO chose to
                                                          from the books and records of the USPTO in accor-
refocus IT investing modifications. Instead, the USPTO
                                                          dance with generally accepted accounting principals
is beginning to completely re-invent our IT systems
                                                          (GAAP) for federal entities and the formats prescribed
from end-to-end, which resulted in increases
                                                          by OMB in OMB Circular A-136 (revised), the state-
beginning in FY 2011 in IT software and software in
                                                          ments are in addition to the financial reports used to
development values. In addition, the USPTO began
                                                          monitor and control budgetary resources, which are
deploying ULs agency-wide in FY 2011, replacing
                                                          prepared from the same books and records. The state-
outdated desktop computers and work-at-home
                                                          ments should be read with the understanding that
laptops.
                                                          they are for a component of the U.S. Government, a
                                                          sovereign entity.
Adjustments to financing-type activities are infre-
quent at the USPTO. Non-expenditure transfers at the
                                                          Management Responsibilities
USPTO are the movement of appropriated fee collec-
tions to other federal governmental entities, without     USPTO management is responsible for the fair presen-
                                                                                                                                 79
an impact to net income/cost. In addition, due to         tation of information contained in the principal
the implementation of Statement of Federal Financial      financial statements, in conformity with GAAP, the



                                                                                                            www.uspto.gov
     MA NAGEMEN T’S DI SCUSSI O N AN D AN ALYS IS




     requirements of OMB Circular A-136, and guidance          with OMB requirements. The quality of the USPTO’s
     provided by the Department of Commerce. Manage-           internal control rests with management, as does the
     ment is also responsible for the fair presentation of     responsibility for identifying and complying with
     the USPTO’s performance measures in accordance            pertinent laws and regulations.




80




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
Financial Section
     Message from the
     Chief Financial Officer

     T
           his past fiscal year was remark-                                  resulting revenue estimates, while also
           able, with many challenges and                                    providing the resources necessary to
           even more opportunities. In spite                                 execute on the performance goals
     of the magnitude of change and                                          and plans.
     advancements, I am pleased to report
     that this fiscal year marks our 20th                                      We continue to make considerable
     anniversary for receiving unqualified                                     progress towards achieving a sustain-
     opinions on the agency’s financial                                        able funding model. The AIA, which
     statements. Along with the unquali-                                       was enacted at the end of FY 2011,
     fied opinion, this year the auditors                                      granted the USPTO the authority to set
     reported no material weaknesses                                           its fees by rule. The AIA also autho-
     in the design and operation of the                                        rized the USPTO to implement a
     USPTO’s system of internal control over                                   15 percent surcharge on most patent
     financial reporting. Also, the auditors                                   fees as an interim step to provide a
     reported that our financial system complies with          bridge for necessary resources until the agency
     federal financial systems requirements. In addition,      exercises its fee setting authority and develops a
     the Association of Government Accountants                 new fee structure that better aligns USPTO’s revenue
     awarded the USPTO the Certificate of Excellence           with the cost of operations over the long term.
     in Accountability Reporting for the 10th consecu-
     tive year for our Fiscal Year 2011 Performance and        Using our new fee setting authority, the USPTO has
     Accountability Report, as well as the Certificate of      developed a revised patent fee structure, scheduled
     Excellence in Citizen-Centric Reporting for our first     to be implement in spring of 2013. This updated fee
     ever Citizen-Centric Report, clearly demonstrating        structure has been designed to ensure that the
     the USPTO’s excellence in integrating performance         agency generates sufficient patent revenue to
     and accountability reporting.                             recover our patent operating costs, as well as to
                                                               further key policy considerations, such as fostering
     In our 2010 – 2015 Strategic Plan, the USPTO set forth    innovation and offering patent prosecution options
     the ambitious goal of establishing a sustainable          to our stakeholders.
     funding model. This funding model is designed to
     be agile and employ a tolerance for variables and         Throughout the fee setting process, the USPTO has
     the inherent uncertainty associated with forecasting      demonstrated its commitment to transparency.
82
     workload demand, operations requirements, and             The GAO has commended the agency on its fee



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                            F IN A N C IA L S E CT ION




setting process, recognized our efforts at communi-       holders through efforts to provide more meaningful
cating with stakeholders, and encouraged the USPTO        financial analysis to decision-makers and to improve
to build on these successes in the future. We have        the acquisition process with a focus on instilling a
actively engaged with the PPAC and stakeholders to        customer-centric service culture.
solicit feedback on the patent fee structure. A prelim-
inary proposed patent fee structure was delivered to      In addition, our financial management team helped
PPAC, released to the public, and discussed during        to manage the many challenges of planning,
two public hearings held by the PPAC in February.         funding, procuring, staffing, monitoring, and ensuring
Subsequently, the Office considered comments and          continued operations at the agency’s first-ever
incorporated changes suggested by the PPAC and            satellite office, which opened in Detroit, Michigan in
the public in the fee setting NPRM published in the       July 2012. These challenges were met successfully,
Federal Register in September.                            and this experience will inform the agency’s
                                                          approach as we look to open the agency’s next
The AIA was a major milestone in helping the USPTO        three satellite offices around the country in upcoming
to achieve financial stability. However, we are ever      fiscal years.
cognizant of the need to balance the agency’s
tremendous opportunities for growth and improve-          Our talented and committed employees continue to
ment against its challenges and risks associated          display great dedication toward producing a high
with operating in an environment of numerous              standard of financial management at the USPTO.
unknowns and uncertainties. Looking ahead, there          Our employees approach challenges as future
are many variables that we cannot predict—                rewards, both for the agency and for themselves.
changes in the fiscal climate; fluctuations in demand     We look to the future with confidence, as we continue
for USPTO’s services; and continued turbulence in         to support the strategic direction of the USPTO by
economic conditions. As such, the agency is               working as a trusted partner within the organization
committed to smart, scalable growth that allows us        and providing sound advice to enable informed
to continually make adjustments and course correc-        program and financial decision-making.
tions, which will enable us to achieve our goals
without putting the financial and operational health
of the USPTO unnecessarily at risk.

We are also mindful of the added responsibility that                            Anthony P. Scardino
comes with fee setting authority. More than ever the                            Chief Financial Officer
agency is operating with an eye toward efficiency,                              November 7, 2012
cost-consciousness, and improved service and
accountability. In the financial management area,
this is translating into efforts to enhance outreach
and transparency around our FPNG initiative, which
aims to improve our stakeholders’ payment experi-
ence. We’re also looking to facilitate USPTO’s mission
success by improving our service to internal stake-                                                                      83




                                                                                                   www.uspto.gov
     Principal Financial Statements
     and Related Notes




                   Members of the FY 2012 Performance and Accountability Report Team. From
                   top left: Arva Adams, Mark Krieger; second row: Roger Williams, Shana Willard;
                   third row: Walter Schlueter, Jennifer Jacobs, Dennis Detar; front: Karen Strohecker,
                   Cheron Green, Patrick Ross.




84




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                                       F IN A N C IA L S E CT ION




United States Patent and Trademark Office
Consolidated Balance Sheets


As of September 30, 2012 and 2011

(Dollars in Thousands)                                                                    2012                  2011

ASSETS
	Intragovernmental:
		 Fund Balance with Treasury (Note 2)                                              $ 1,726,955             $ 1,631,206
		     Accounts Receivable (Note 3)                                                              36                    296
		     Other Assets - Advances and Prepayments (Note 6)                                      2,450                   2,053
	   Total Intragovernmental                                                               1,729,441              1,633,555

	   Cash (Note 4)                                                                            4,331                   3,091
	   Accounts Receivable, Net (Note 3)                                                            715                   138
	   Property, Plant, and Equipment, Net (Note 5)                                           236,980                 206,628
	   Other Assets - Advances and Prepayments (Note 6)                                        10,656                  10,085
	   Total Assets                                                                    $ 1,982,123             $ 1,853,497

LIABILITIES
	Intragovernmental:
		Accounts Payable                                                                  $        5,866          $        5,631
		     Accrued Payroll and Benefits                                                         16,969                  15,247
		     Accrued Workers’ and Unemployment Compensation                                        1,822                   1,869
		     Customer Deposit Accounts (Note 7)                                                    5,977                   6,170
	   Total Intragovernmental                                                                 30,634                  28,917

	   Accounts Payable                                                                        69,320                  80,009
	   Accrued Payroll and Benefits                                                           117,489                 111,903
	   Accrued Leave                                                                           82,906                  76,806
	   Customer Deposit Accounts (Note 7)                                                     115,736                  99,414
	   Deferred Revenue (Note 9)                                                              830,955                 845,782
	   Actuarial Liability (Note 10)                                                            8,209                   8,406
	   Total Liabilities (Note 8)                                                      $ 1,255,249             $ 1,251,237

NET POSITION
	   Cumulative Results of Operations – Earmarked Funds (Note 14)                    $      726,874          $      602,260
	   Total Net Position                                                              $      726,874          $      602,260
Total Liabilities and Net Position                                                  $ 1,982,123             $ 1,853,497

The accompanying notes are an integral part of these consolidated financial statements.




                                                                                                                                    85




                                                                                                                www.uspto.gov
     FINA NCIA L SE CTI O N




     United States Patent and Trademark Office
     Consolidated Statements of Net Cost


     For the years ended September 30, 2012 and 2011

     (Dollars in Thousands)                                                                    2012              2011

     Strategic Goal 1: Optimize Patent
     	 Quality and Timeliness
     	   Total Program Cost                                                              $     2,079,357     $   1,913,354
     	   Total Program Earned Revenue                                                          (2,180,532)       (2,005,269)
     	   Net Program Income                                                                     (101,175)           (91,915)


     Strategic Goal 2: Optimize Trademark
     	 Quality and Timeliness
     	   Total Program Cost                                                                      201,307           191,760
     	   Total Program Earned Revenue                                                           (246,550)         (231,105)
     	   Net Program Income                                                                       (45,243)          (39,345)


     Strategic Goal 3: Provide Domestic and Global Leadership to Improve
     	 Intellectual Property Policy, Protection and Enforcement Worldwide
     	 Total Program Cost                                                                         40,283            42,983
     Net Income from Operations (Notes 14 and 15)                                        $      (106,135)    $      (88,277)

     TOTAL ENTITY
     	   Total Program Cost (Notes 16 and 17)                                            $      2,320,947    $    2,148,097
     	   Total Earned Revenue                                                                  (2,427,082)       (2,236,374)
     Net Income from Operations (Notes 14 and 15)                                        $      (106,135)    $      (88,277)

     The accompanying notes are an integral part of these consolidated financial statements.




86




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                                    F IN A N C IA L S E CT ION




United States Patent and Trademark Office
Consolidated Statements of Changes in Net Position


For the years ended September 30, 2012 and 2011

(Dollars in Thousands)                                                               2012                   2011
                                                                              Earmarked Funds       Earmarked Funds

CUMULATIVE RESULTS OF OPERATIONS
	   Beginning Balances                                                           $   602,260           $    492,305

Budgetary Financing Sources:
	   Transfers Out Without Reimbursement                                                   (1,000)          	—

Other Financing Sources:
	 Imputed Financing                                                                   19,479                 21,678
Total Financing Sources                                                               18,479                 21,678
Net Income from Operations                                                           106,135                 88,277
Net Change                                                                           124,614                109,955
Cumulative Results of Operations                                                 $   726,874           $    602,260

Net Position, End of Year                                                        $   726,874           $    602,260

The accompanying notes are an integral part of these consolidated financial statements.




                                                                                                                                 87




                                                                                                           www.uspto.gov
     FINA NCIA L SE CTI O N




     United States Patent and Trademark Office
     Combined Statements of Budgetary Resources


     For the years ended September 30, 2012 and 2011

     (Dollars in Thousands)                                                                    2012               2011

     BUDGETARY RESOURCES
     	 Unobligated Balance - Brought Forward, October 1                                  $       177,705      $     222,674
     	 Recoveries of Prior Year Unpaid Obligations                                                23,026             15,165
     	 Spending Authority from Offsetting Collections (discretionary)                          2,411,896          2,100,761
     Total Budgetary Resources                                                           $     2,612,627      $   2,338,600

     STATUS OF BUDGETARY RESOURCES
     	 Obligations Incurred                                                              $     2,374,755      $   2,160,895
     	 Unobligated Balance, End of Year:
     	Apportioned	                                                                               237,872            177,705
     Total Status of Budgetary Resources                                                 $     2,612,627      $   2,338,600

     CHANGE IN OBLIGATED BALANCE
     	 Unpaid Obligations:
     		 Unpaid Obligations, Brought Forward, October 1                                   $        325,328     $      297,047
     		Obligations Incurred                                                                     2,374,754          2,160,895
     		Gross Outlays                                                                           (2,332,263)        (2,117,449)
     		 Recoveries of Prior Year Unpaid Obligations                                               (23,026)            (15,165)
     		    Unpaid Obligations, End of Year                                               $       344,793      $     325,328

     	 Uncollected Payments:
     		 Uncollected Customer Payments from Federal Sources,
     			 Brought Forward, October 1                                                      $            (298)   $           277
     		 Change in Uncollected Customer Payments from Federal Sources                                   261               (575)
     	   Uncollected Customer Payments from Federal Sources, End of Year                 $             (37)   $          (298)

     	   Memorandum (non-add) entries:
     	   Obligated Balance, Net, Start of Year                                           $       325,030      $     297,324

     	   Obligated Balance, Net, End of Year                                             $       344,756      $     325,030

     BUDGET AUTHORITY AND NET OUTLAYS
     	 Budget Authority, Gross (discretionary)                                           $      2,411,896     $    2,100,761
     	 Actual Offsetting Collections (discretionary)                                           (2,413,157)        (2,309,042)
     	 Change in Uncollected Customer Payments from
     		 Federal Sources (discretionary)                                                               261                (575)
     	   Budget Authority, Net (discretionary)                                           $         (1,000)    $     (208,856)

     	   Gross Outlays (discretionary)                                                   $      2,332,263     $    2,117,449
     	   Actual Offsetting Collections (discretionary)                                         (2,413,157)        (2,309,042)
     Net Collections (discretionary)                                                     $        (80,894)    $     (191,593)
88
     The accompanying notes are an integral part of these consolidated financial statements.




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                                           F IN A N C IA L S E CT ION




United States Patent and Trademark Office
Consolidated Statements of Cash Flows (Indirect Method)


For the years ended September 30, 2012 and 2011

(Dollars in Thousands)                                                                         2012                   2011

CASH FLOWS FROM OPERATING ACTIVITIES
	 Net Income from Operations		                                                            $    106,135         $        88,277
	 Adjustments Affecting Cash Flow:
		 Imputed Financing from Cost Absorbed by Others                                              19,479                   21,678
		 (Increase)/Decrease in Accounts Receivable                                                    (317)                     324
		 (Increase)/Decrease in Advances and Prepayments                                               (968)                   1,029
		 (Decrease)/Increase in Accounts Payable                                                    (10,454)                  15,526
		 Increase in Accrued Payroll and Benefits                                                     7,308                   19,703
		 Increase in Accrued Leave and Workers’ and Unemployment Compensation                         6,053                    5,779
		 Increase in Customer Deposit Accounts                                                       16,129                    3,280
		 (Decrease)/Increase in Deferred Revenue                                                    (14,827)                  71,394
		 Decrease in Contingent Liability                                                           	—                          (200)
		 (Decrease)/Increase in Actuarial Liability                                                    (197)                     107
		 Depreciation, Amortization, or Loss on Asset Dispositions                                   67,900                   52,695
	   Total Adjustments                                                                           90,106                191,315
Net Cash Provided by Operating Activities                                                      196,241                279,592

CASH FLOWS FROM INVESTING ACTIVITIES
	 Purchases of Property and Equipment                                                           (98,252)               (84,926)
Net Cash Used in Financing Activities                                                           (98,252)               (84,926)

CASH FLOWS FROM FINANCING ACTIVITIES
	   Transfers Out Without Reimbursement                                                          (1,000)            	—
Net Cash Used in Financing Activities                                                            (1,000)            	—

Net Cash Provided by Operating, Investing, and Financing Activities                       $     96,989         $      194,666

Fund Balance with Treasury and Cash, Beginning of Year                                    $   1,634,297        $    1,439,631
Net Cash Provided by Operating, Investing, and Financing Activities                             96,989                194,666
Fund Balance with Treasury and Cash, End of Year                                          $   1,731,286        $    1,634,297

The accompanying notes are an integral part of these consolidated financial statements.




                                                                                                                                        89




                                                                                                                   www.uspto.gov
     FINA NCIA L SE CTI O N




     United States Patent and Trademark Office
     Notes To Financial Statements
     As of and for the years ended September 30, 2012 and 2011



     NOTE 1. Summary of Significant Accounting Policies

     Reporting Entity                                          Basis of Presentation
     The United States Patent and Trademark Office             As required by the Chief Financial Officers Act of
     (USPTO) is an agency of the United States within the      1990 and 31 United States Code (U.S.C.) §3515(b),
     U.S. Department of Commerce. The USPTO adminis-           the accompanying financial statements present the
     ters the laws relevant to patents and trademarks          financial position, net cost of operations, budgetary
     and advises the Secretary of Commerce, the                resources, and cash flows for the USPTO’s core
     President of the United States, and the Administration    business activities. The books and records of the
     on patent, trademark, and copyright protection, and       USPTO serve as the source of this information.
     trade-related aspects of intellectual property.
                                                               These financial statements were prepared in accor-
     These financial statements include the USPTO’s three      dance with accounting principles generally accepted
     core business activities – granting patents, regis-       in the United States (GAAP) and the form and content
     tering trademarks, and intellectual property policy,      for entity financial statements specified by the Office
     protection, and enforcement – that promote the use        of Management and Budget (OMB) in Circular A-136,
     of intellectual property rights as a means of achieving   Financial Reporting Requirements, as amended, as
     economic prosperity. These activities give innova-        well as the accounting policies of the USPTO. Therefore,
     tors, businesses, and entrepreneurs the protection        they may differ from other financial reports submitted
     and encouragement they need to turn their creative        pursuant to OMB directives for the purpose of moni-
     ideas into tangible products, and also provide            toring and controlling the use of the USPTO’s budgetary
     protection for their inventions and trademarks.           resources. The GAAP for federal entities are the
                                                               standards prescribed by the Federal Accounting
     These financial statements report the accounts for        Standards Advisory Board, which is the official body
     salaries and expenses (13X1006), fee reserve fund         for setting the accounting standards of the federal
     (13X1008), special fund receipts (135127), customer       government.
     deposits from the public and other federal agencies
     (13X6542), Patent Cooperation Treaty collections          Throughout these financial statements, assets, liabili-
     (13X6538), and the Madrid Protocol Collections            ties, revenues, and costs have been classified
     (13X6554) that are under the control of the USPTO.        according to the type of entity with which the trans-
     The federal budget classifies the USPTO under the         actions are associated. Intra-governmental assets
     Other Advancement of Commerce (376) budget                and liabilities are those from or to other federal
     function. The USPTO does not have lending or              entities. Intra-governmental earned revenues are
     borrowing authority. The USPTO does not transact          collections or accruals of revenue from other federal
     business among its own operating units, and               entities and intra-governmental costs are payments
     therefore, no intra-entity eliminations are necessary.    or accruals to other federal entities.

     The USPTO is not subject to federal, state, or local      Allocation transfers are legal delegations by one
     income taxes. Accordingly, no provision for income        department of its authority to obligate budget
     taxes is recorded.                                        authority and outlay funds to another department.
                                                               A separate fund account (allocation account) is
90




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                              F IN A N C IA L S E CT ION




NOTE 1. Summary of Significant Accounting Policies (continued)

created in the U.S. Treasury as a subset of the parent     Statements of Changes in Net Position, and further
fund account for tracking and reporting purposes.          disclosures in Note 14.
All allocation transfers of balances are credited to
this account, and subsequent obligations and               Earmarked funds are financed by specifically identi-
outlays incurred by the child entity are charged to        fied revenues, which remain available over time.
this allocation account as they execute the                These specifically identified revenues are required by
delegated activity on behalf of the parent entity.         statute to be used for designated activities, benefits,
                                                           or purposes, and must be accounted for separately
Generally, all financial activity related to these allo-   from the government’s general revenues. At the
cation transfers (e.g., budget authority, obligations,     USPTO, earmarked funds include the salaries and
and outlays) is reported in the financial statements       expenses fund (13X1006) and the special fund
of the parent entity, from which the underlying legis-     receipts (135127).
lative authority, appropriations, and budget appor-
tionments are derived. The USPTO does not receive          Fiduciary Activities
any allocation transfers.
                                                           SFFAS 31, Accounting for Fiduciary Activities, requires
                                                           that fiduciary activities not be recognized on the
Reclassifications
                                                           financial statements, but reported on schedules in the
In FY 2012, changes to the presentation of the             notes to the financial statements. Additional details
Combined Statements of Budgetary Resources were            are provided in Note 20.
made, in accordance with guidance provided in
OMB Circular A-136 and as such, activity and               Fiduciary cash and other assets are not assets of the
balances reported on the FY 2011 Combined                  federal government. Fiduciary activities are the
Statement of Budgetary Resources have been reclas-         collection or receipt, and the management, protec-
sified to conform to the presentation in the current       tion, accounting, and disposition by the federal
year. Certain prior year balances were reclassified to     government of cash or other assets in which non-
conform with current year presentation.                    federal individuals or entities have an ownership
                                                           interest that the federal government must uphold.
Basis of Accounting                                        At the USPTO, fiduciary activities are recorded in the
                                                           Patent Cooperation Treaty fund (13X6538) and the
Transactions are recorded on the accrual basis of
                                                           Madrid Protocol fund (13X6554).
accounting, as well as on a budgetary basis. Accrual
accounting allows for revenue to be recognized when
                                                           Use of Estimates
earned and expenses to be recognized when goods
or services are received, without regard to the receipt    The preparation of financial statements in conformity
or payment of cash. Budgetary accounting allows for        with GAAP requires management to make estimates
compliance with the requirements for and controls          and assumptions that affect the reported amounts
over the use of federal funds. The accompanying            of assets and liabilities and the disclosure of contin-
financial statements are presented on the accrual          gent assets and liabilities as of the date of the
basis of accounting.                                       financial statements and the reported amounts of
                                                           revenues and expenses during the reporting period.
Earmarked Funds                                            Actual results could differ from these estimates.

Statement of Federal Financial Accounting
                                                           Revenue and Other Financing Sources
Standard (SFFAS) 27, Identifying and Reporting
Earmarked Funds, requires separate identifica-             Exchange Revenue: The USPTO’s fee rates are estab-
tion of the earmarked funds on the Consolidated            lished by law and, consequently, in some instances
                                                                                                                           91
Balance Sheets (Net Position section), Consolidated        may not represent full cost or market



                                                                                                     www.uspto.gov
     FINA NCIA L SE CTI O N




     NOTE 1. Summary of Significant Accounting Policies (continued)

     price. Since FY 1993, the USPTO’s funding has                assets are entity assets and are available to carry out
     been primarily through the collection of user fees.          the mission of the USPTO, as appropriated by
     Fees that are remitted with initial applications and         Congress, with the exception of a portion of the Fund
     requests for other services are recorded as exchange         Balance with Treasury and cash. Additional details
     revenue when received, with an adjustment to defer           are provided in Note 7.
     revenue for services that have not been performed.
     All amounts remitted by customers without a request          Fund Balance with Treasury
     for service are recorded as liabilities in customer          The USPTO deposits fees collected in commercial
     deposit accounts until services are ordered.                 bank accounts maintained by the Treasury’s Financial
                                                                  Management Service (FMS). All moneys maintained
     The USPTO also receives financial gifts and gifts-in-        in these accounts are transferred to the Federal
     kind. All such transactions are included in the              Reserve Bank on the next business day following the
     consolidated Gifts and Bequests Fund financial               day of deposit. In addition, many customer deposits
     statements of the U.S. Department of Commerce.               are wired directly to the Federal Reserve Bank.
     These gifts are not of significant value and are not         All banking activity is conducted in accordance with
     reflected in the USPTO’s financial statements.               the directives issued by the FMS. Treasury processes
     Most gifts-in-kind are used for official travel to further   all disbursements. Additional details are provided in
     attain the USPTO mission and objectives.                     Note 2.

     Imputed Financing Sources from Cost Absorbed by              Accounts Receivable
     Others (and Related Imputed Costs): In certain
                                                                  Accounts receivable balances are established for
     cases, operating costs of the USPTO are paid for in
                                                                  amounts owed to the USPTO from its customers.
     full or in part by funds appropriated to other federal
                                                                  The USPTO’s accounts receivable balances are
     entities. For example, Civil Service Retirement System
                                                                  comprised of amounts due from former employees
     (CSRS) pension benefits for applicable USPTO
                                                                  for the reimbursement of education expenses and
     employees are paid for in part by the U.S. Office of
                                                                  other benefits, amounts due from foreign intellectual
     Personnel Management (OPM), and certain legal
                                                                  property offices for the reimbursement of services
     judgments against the Department are paid for in
                                                                  provided, amounts due from other federal agencies
     full from the Judgment Fund maintained by Treasury.
                                                                  for the reimbursement of services provided, and other
     Also, the cost of collections for the USPTO are paid
                                                                  revenue-related receivables. This balance in accounts
     for in full by Treasury. The USPTO includes applicable
                                                                  receivable remains as a very small portion of the
     Imputed Costs on the Consolidated Statements of
                                                                  USPTO’s assets, as the USPTO requires payment prior to
     Net Cost. In addition, an Imputed Financing Source
                                                                  the provision of goods or services during the course
     from Cost Absorbed by Others is recognized on the
                                                                  of its core business activities. Additional details are
     Consolidated Statements of Changes in Net Position.
                                                                  provided in Note 3.
     Transfers Out: Intragovernmental transfers of budget
                                                                  The USPTO has written off, but not closed out, certain
     authority without reimbursement are recorded at
                                                                  accounts receivables that are considered not collect-
     book value.
                                                                  ible. These offsets are established for receivables older
                                                                  than two years with little or no collection activity that
     Entity/Non-Entity
                                                                  have been transferred to Treasury, subsequently
     Assets that an entity is authorized to use in its opera-     adjusting the gross amount of its employee-related
     tions are termed entity assets, while assets that are        accounts receivable to the net realizable value.
     held by an entity and are not available for the entity’s     The USPTO regards all of the intergovernmental receiv-
     use are termed non-entity assets. Most of the USPTO’s        ables balances as fully collectable.
92




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                             F IN A N C IA L S E CT ION




NOTE 1. Summary of Significant Accounting Policies (continued)

Advances and Prepayments                                   Costs capitalized are recorded at actual historical
                                                           cost. Depreciation is expensed on a straight-line
The USPTO prepays amounts in anticipation of
                                                           basis over the estimated useful life of the asset with
receiving future benefits. Although a payment has
                                                           the exception of leasehold improvements, which are
been made, an expense is not recorded until goods
                                                           depreciated over the remaining life of the lease or
have been received or services have been performed.
                                                           over the useful life of the improvement, whichever is
The USPTO has prepayments and advances with
                                                           shorter. Additional details are provided in Note 5.
non-governmental, as well as governmental vendors.
Additional details are provided in Note 6.
                                                           Contractor costs for developing custom internal use
                                                           software are capitalized when incurred for the design,
Cash
                                                           coding, and testing of the software. Software in
The USPTO’s cash balance primarily consists of checks,     progress is not amortized until placed in service.
electronic funds transfer, and credit card payments for
deposits that are in transit and have not been credited    Property, plant, and equipment acquisitions that do
to the USPTO’s Fund Balance with Treasury. The cash        not meet the capitalization criteria are expensed
balance also consists of undeposited checks for fees       upon receipt.
that were not processed at the Balance Sheet date
due to the lag time between receipt and initial review.    Workers’ Compensation
All such undeposited check amounts are considered
                                                           Claims brought by USPTO employees for on-the-
to be cash equivalents. Cash is also held outside the
                                                           job injuries fall under the Federal Employees’
Treasury to be used as imprest funds. Additional details
                                                           Compensation Act (FECA) administered by the U.S.
are provided in Note 4.
                                                           Department of Labor (DOL). The DOL bills each
                                                           agency annually as its claims are paid, but payment
Property, Plant, and Equipment, Net
                                                           on these bills is deferred approximately two years to
The USPTO’s capitalization policies are summarized         allow for funding through the budget process.
below:
                                                           Unemployment Compensation
Classes of          Capitalization    Capitalization
                                                           USPTO employees who lose their jobs through no fault
Property,             Threshold        Threshold for
Plant, and          for Individual    Bulk Purchases       of their own may receive unemployment compensa-
Equipment             Purchases                            tion benefits under the unemployment insurance
IT Equipment        $50 thousand      $250 thousand
                                                           program administered by the DOL. The DOL bills each
                      or greater         or greater        agency quarterly as its claims are paid.
Software            $50 thousand      $250 thousand
                      or greater         or greater        Annual, Sick, and Other Leave
Software in         $50 thousand      $250 thousand
Progress              or greater         or greater        Annual leave and compensatory time are accrued
Furniture           $50 thousand      $  50 thousand       as earned, with the accrual being reduced when
                      or greater         or greater        leave is taken. An adjustment is made each fiscal
Equipment           $50 thousand      $250 thousand        quarter to ensure that the balances in the accrued
                      or greater         or greater        leave accounts reflect current pay rates. No portion
Leasehold           $50 thousand      Not applicable       of this liability has been obligated. To the extent
Improvements          or greater                           current year funding is not available to pay for leave
                                                           earned but not taken, funding will be obtained from
                                                           future financing sources. Sick leave and other types
                                                           of non-vested leave are expensed as used.
                                                                                                                          93




                                                                                                    www.uspto.gov
     FINA NCIA L SE CTI O N




     NOTE 1. Summary of Significant Accounting Policies (continued)

     Employee Retirement Systems and Post-                       For the years ended September 30, 2012 and 2011, the
     Employment Benefits                                         USPTO made current year contributions through
                                                                 agency payroll contributions and quarterly supple-
     USPTO employees participate in either the CSRS or the       mental payments to OPM equivalent to approximately
     Federal Employees Retirement System (FERS). The FERS        19.0 percent and 18.8 percent of the employee’s basic
     was established by the enactment of Pub. L. No. 99-335.     pay for those employees covered by CSRS, based on
     Pursuant to this law, the FERS and Social Security auto-    OPM cost factors. For the years ended September 30,
     matically cover most employees hired after December         2012 and 2011, the USPTO made current year contribu-
     31, 1983. Employees who had five years of federal           tions through agency payroll contributions equivalent
     civilian service prior to 1984 and who are rehired after    to approximately 11.9 percent and 11.7 percent of the
     a break in service of more than one year may elect to       employee’s basic pay for those employees covered by
     join the FERS and Social Security system or be placed       FERS, based on OPM cost factors, respectively. As contri-
     in the CSRS offset retirement system.                       bution funding increases, imputed costs will corre-
                                                                 spondingly decrease.
     The USPTO’s financial statements do not report CSRS or
     FERS assets, accumulated plan benefits, or liabilities      All employees are eligible to contribute to a Thrift Savings
     applicable to its employees. The reporting of such          Plan. For those employees participating in the FERS, a
     amounts is the responsibility of the OPM, who adminis-      Thrift Savings Plan is automatically established, and the
     ters the plans. While the USPTO reported no liability for   USPTO makes a mandatory contribution to this plan
     future payments to employees under these programs,          equal to one percent of the employees’ compensation.
     the federal government is liable for future payments to     In addition, the USPTO makes matching contributions
     employees through the OPM who administers these             ranging from one to four percent of the employees’
     programs. The USPTO financial statements recognize a        compensation for FERS-eligible employees who
     funded expense for the USPTO’s share of the costs to        contribute to their Thrift Savings Plans. No matching
     the federal government of providing pension, post-          contributions are made to the Thrift Savings Plans for
     retirement health, and post-retirement life insurance       employees participating in the CSRS. Employees partici-
     benefits to all eligible USPTO employees. In addition to    pating in the FERS are also covered under the Federal
     the funded expense, the USPTO financial statements          Insurance Contributions Act (FICA), for which the USPTO
     also recognize an imputed cost for the OPM’s share of       contributes a matching amount to the Social Security
     the costs to the federal government of providing            Administration.
     pension, post-retirement health, and post-retirement
     life insurance benefits to all eligible USPTO employees.    Deferred Revenue
     The USPTO’s appropriation requires full funding of the      Deferred revenue represents fees that have been
     present costs, as determined by the OPM, of post-retire-    received by the USPTO for requested services that have
     ment benefits for the Federal Employees Health Benefit      not been substantially completed. Two types of deferred
     Program (FEHB), the Federal Employees Group Life            revenue are recorded. The first type results from checks
     Insurance Program (FEGLI), and pensions under the           received, accompanied by requests for services, which
     CSRS. While ultimate administration of any post-retire-     were not yet deposited due to the lag time between
     ment benefits or retirement system payments will            receipt and initial review. The second type of deferred
     continue to be administered by the OPM, the USPTO is        revenue relates primarily to fees for applications that
     responsible for the payment of the present value asso-      have been partially processed. The deferred revenue
     ciated with these costs calculated using the OPM            calculation is a complex accounting estimate,
     factors. Any difference between the OPM factors for         dependent upon numerous business and administra-
     funding purposes and the OPM factors for reporting          tive processes, workloads, and inventories. The deferred
     purposes is recognized as an imputed cost. Additional       revenue balance is calculated by analyzing the process
94   details are provided in Note 13.                            for completing each service that USPTO provides.



     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                            F IN A N C IA L S E CT ION




NOTE 1. Summary of Significant Accounting Policies (continued)

The percent incomplete based on the inventory of           Cumulative Results of Operations is the net result of
pending work and completion status is applied to fee       the USPTO’s operations since inception.
collections to estimate the amount for deferred revenue.
Determining completion status is a difficult process.      Environmental Cleanup
The components of the liability can be found in Note 9.
                                                           The USPTO does not have liabilities for environmental
                                                           cleanup.
Net Position
Net Position is the residual difference between assets
and liabilities, and is composed of Cumulative
Results of Operations.




NOTE 2. Fund Balance with Treasury

As of September 30, 2012 and 2011, Fund Balance with Treasury consisted of the following:

(Dollars in Thousands)                                                      2012                   2011
Fund Balances by Treasury Fund Type:
	 Special Funds                                                         $	233,529             $	233,529
	 General Funds                                                           1,372,713             1,292,820
	 Deposit Funds                                                             120,713               104,857
Total Fund Balance with Treasury                                        $	1,726,955           $	1,631,206

Status of Fund Balance with Treasury:
	 Obligated Balance Not Yet Disbursed                                   $	344,756             $	325,030
	 Unobligated Balance Available                                           237,872               177,705
	 Temporarily Not Available Pursuant to Public Law                        790,085               790,085
	 Non-Budgetary Fund Balance with Treasury                                354,242               338,386
Total Fund Balance with Treasury                                        $	1,726,955           $	1,631,206


No discrepancies exist between the Fund Balance reflected in the general ledger and the balance in the
Treasury accounts.

To help smooth the impact of economic downturns on operations and to help mitigate funding uncertainty,
the USPTO has been reserving a portion of the amount Congress makes available annually through appro-
priations as a designated operating reserve that will be carried over for use in future years. This is allowable
because USPTO is appropriated no-year funds. The Unobligated Balance Available amount above is the
agency operating reserve. As of September 30, 2012, the Patent operating reserve was $111,749 thousand
and the Trademark operating reserve was $126,123 thousand. As of September 30, 2011, the Patent operating
reserve was $74,443 thousand and the Trademark operating reserve was $103,262 thousand.

As of September 30, 2012 and 2011, the Non-Budgetary Fund Balance with Treasury includes surcharge
receipts of $233,529 thousand and non-entity customer deposit accounts of $120,713 thousand and
                                                                                                                         95
$104,857 thousand, respectively.



                                                                                                   www.uspto.gov
     FINA NCIA L SE CTI O N




     NOTE 3. Accounts Receivable, Net

     As of September 30, 2012, USPTO accounts receivables consisted of the following:

     (Dollars in Thousands)                                                2012
                                       Accounts Receivable,          Allowance for           Accounts Receivable,
                                             Gross               Uncollectible Accounts              Net
     Intragovernmental                      $	36                      $	          —                $	       36
     With the Public                        $	866                     $	      (151)                $	      715


     As of September 30, 2011, USPTO accounts receivables consisted of the following:

     (Dollars in Thousands)                                                2011
                                       Accounts Receivable,          Allowance for           Accounts Receivable,
                                             Gross               Uncollectible Accounts              Net
     Intragovernmental                      $	296                     $	          —                $	296
     With the Public                        $	336                     $	(198)                      $	138




     NOTE 4. Cash

     As of September 30, 2012 and 2011, cash consisted of the following:

     (Dollars in Thousands)                                                       2012                    2011
     Deposits in Transit                                                     $	3,943                    $	2,790
     Undeposited Collections                                                           388                   301
     Total                                                                   $	4,331                    $	3,091




     NOTE 5. Property, Plant, and Equipment, Net

     As of September 30, 2012, property, plant, and equipment, net consisted of the following:

     (Dollars in Thousands)
                                                                                      Accumulated
     Classes of Property, Plant,                  Service Life      Acquisition       Depreciation/       Net Book
     and Equipment                                  (Years)           Value            Amortization        Value
     IT Equipment                                     3-5            $	381,368         $	276,265         $	105,103
     Software                                         3-5              316,218           278,010            38,208
     Software in Progress                              —                29,536         	—                   29,536
     Furniture                                        5-7               15,317            12,996             2,321
     Equipment                                        3-8               10,809            10,499               310
     Leasehold Improvements                           5-20             101,785            40,283            61,502
96   Total Property, Plant, and Equipment                            $	855,033         $	618,053         $	236,980




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                               F IN A N C IA L S E CT ION




NOTE 5. Property, Plant, and Equipment, Net (continued)

As of September 30, 2011, property, plant, and equipment, net consisted of the following:

(Dollars in Thousands)
                                                                                 Accumulated
Classes of Property, Plant,                     Service Life     Acquisition     Depreciation/         Net Book
and Equipment                                     (Years)          Value          Amortization          Value
IT Equipment                                        3-5          $	362,755        $	269,654           $	93,101
Software                                            3-5            294,365          263,549             30,816
Software in Progress                                 —              14,573        	—                    14,573
Furniture                                           5-7             15,579           13,005              2,574
Equipment                                           3-8             13,461           13,210                251
Leasehold Improvements                              5-20            99,747           34,434             65,313
Total Property, Plant, and Equipment                             $	800,480        $	593,852           $	206,628




NOTE 6. Other Assets

As of September 30, 2012 and 2011, other assets consisted of the following:

(Dollars in Thousands)                                                         2012                   2011
Intragovernmental
	   Advances and Prepayments                                              $	     2,450           $	2,053
With the Public
	 Advances and Prepayments                                                      10,656                   10,085
Total                                                                     $	    13,106           $	      12,138


The largest governmental prepayments include the USPTO deposit accounts held with the U.S. Government
Printing Office (GPO) to facilitate recurring transactions, the U.S. Postal Service for postage, and the Department
of Commerce for centralized services. Deposit accounts held with the GPO as of September 30, 2012 and
2011 were $401 thousand and $750 thousand, respectively. Deposit accounts held with the U.S. Postal Service
as of September 30, 2012 and 2011 were $993 thousand and $576 thousand, respectively. Deposit accounts
held with the Department of Commerce as of September 30, 2012 and 2011 were $1,056 thousand and
$727 thousand, respectively.

The largest prepayments with the public as of September 30, 2012 and 2011 were $6,982 thousand and
$5,898 thousand, respectively, for various hardware and software maintenance agreements; $1,569 thousand
and $1,201 thousand, respectively, for various library and online database subscriptions; and $2,081 thousand
and $2,871 thousand, respectively, for various joint project agreements with the National Inventors Hall of Fame,
the International Intellectual Property Institute, the World Intellectual Property Organization (WIPO), the Light
Years IP, the Innovators Network Foundation, the Girl Scout Council of the Nation’s Capital, and the Institute for
Policy Innovation. Travel advances to personnel as of September 30, 2012 and 2011 were $1 thousand and
$2 thousand, respectively.
                                                                                                                            97




                                                                                                      www.uspto.gov
     FINA NCIA L SE CTI O N




     NOTE 7. Entity and Non-Entity Assets

     Non-entity assets are amounts held on deposit for the convenience of the USPTO’s customers.

     Customers have the option of maintaining a deposit account at the USPTO to facilitate the order process.
     Customers can draw from their deposit account when they place an order and can replenish their deposit
     account as desired. Funds maintained in customer deposit accounts are not available for the USPTO use
     until an order has been placed. Once an order has been placed, the funds are reclassified to entity funds.

     As of September 30, 2012 and 2011, entity and non-entity assets consisted of the following:

     (Dollars in Thousands)                                                         2012                   2011
     Fund Balance with Treasury:
     	   Intragovernmental Deposit Accounts                                     $	5,977                $	6,170
     	   Customer Deposit Accounts with the Public                                114,736                98,687
     Total Fund Balance with Treasury                                                120,713                104,857

     Cash:
     	 Customer Deposit Accounts with the Public                                	1,000                 	727
     Total Non-Entity Assets                                                         121,713                105,584
     Total Entity Assets                                                           1,860,410              1,747,913
     Total Assets                                                               $	1,982,123            $	1,853,497




     NOTE 8. Liabilities Covered and Not Covered by Budgetary Resources

     The USPTO records liabilities for amounts that are likely to be paid as the direct result of events that have already
     occurred. The USPTO considers liabilities covered by three types of resources: realized budgetary resources;
     unrealized budgetary resources that become available without further Congressional action; and cash and
     Fund Balance with Treasury. Realized budgetary resources include obligated balances funding existing liabili-
     ties and unobligated balances (operating reserve) as of September 30, 2012. Unrealized budgetary resources
     are amounts that were not available for spending through September 30, 2012, but become available for
     spending on October 1, 2012 once apportioned by the OMB. In addition, cash and Fund Balance with Treasury
     cover liabilities that will never require the use of a budgetary resource. These liabilities consist of deposit
     accounts, refunds payable to customers for fee overpayments, and undeposited collections.

     Liabilities not covered by budgetary resources include Accrued Workers’ Compensation, Accounts Payable,
     Accrued Payroll and Benefits, Accrued Leave, Deferred Revenue, and Actuarial Liability. Although future
     appropriations to fund these liabilities are probable and anticipated, Congressional action is needed before
     budgetary resources can be provided.

     As of September 30, 2012 and 2011, liabilities covered and not covered by budgetary resources were as
     follows:


98




     PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                     F IN A N C IA L S E CT ION




NOTE 8. Liabilities Covered and Not Covered by Budgetary Resources (continued)

(Dollars in Thousands)                                                    2012               2011

Liabilities Covered by Resources
	Intragovernmental:
		Accounts Payable                                                   $	      5,866     $	5,631
		 Accrued Payroll and Benefits                                             16,969       15,247
		 Accrued Unemployment Compensation                                             7           79
		Customer Deposit Accounts                                                  5,977        6,170
	   Total Intragovernmental                                                 28,819             27,127

	   Accounts Payable                                                        69,320             79,923
	   Accrued Payroll and Benefits                                            78,038             70,900
	   Customer Deposit Accounts                                              115,736             99,414
	   Deferred Revenue                                                       238,127            178,006
Total Liabilities Covered by Resources                               $	    530,040     $	455,370

Liabilities Not Covered by Resources
	Intragovernmental:
		Accrued Workers’ Compensation                                      $	      1,815     $	1,790
	   Total Intragovernmental                                                  1,815              1,790

	   Accounts Payable                                                	           —                  86
	   Accrued Payroll and Benefits	                                           39,451             41,003
	   Accrued Leave                                                           82,906             76,806
	   Deferred Revenue                                                       592,828            667,776
	   Actuarial Liability                                                      8,209              8,406
Total Liabilities Not Covered by Resources                           $	    725,209     $	795,867
Total Liabilities                                                    $	 1,255,249      $	1,251,237



NOTE 9. Deferred Revenue
As of September 30, 2012, deferred revenue consisted of the following:

(Dollars in Thousands)                              Patent              Trademark            Total
	   Unearned Fees                              $	    764,323         $	    66,244       $	   830,567
	   Undeposited Checks                                   348                   40                388
Total Deferred Revenue                         $	    764,671         $	    66,284       $	   830,955

As of September 30, 2011, deferred revenue consisted of the following:

(Dollars in Thousands)                              Patent              Trademark            Total
	   Unearned Fees                              $	    780,623         $	     64,858      $	   845,481
	   Undeposited Checks                                   271                    30               301
Total Deferred Revenue                         $	    780,894         $	     64,888      $	   845,782              99




                                                                                             www.uspto.gov
      FINA NCIA L SE CTI O N




      NOTE 10. Actuarial Liability

      The FECA provides income and medical cost protection to covered federal civilian employees injured on the
      job and for those who have contracted a work-related occupational disease, and beneficiaries of employees
      whose death is attributable to a job-related injury or occupational disease. Claims incurred for benefits
      under the FECA for the USPTO’s employees are administered by the DOL and are paid ultimately by the USPTO.

      The DOL estimated the future workers compensation liability by applying actuarial procedures developed to
      estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits include the expected
      liability for death, disability, medical, and miscellaneous costs for approved compensation cases, plus a
      component for incurred but not reported claims. The actuarial liability is updated annually.

      The DOL method of determining the liability uses historical benefit payment patterns for a specific incurred
      period to predict the ultimate payments for that period. Consistent with past practice, these projected
      annual benefit payments have been discounted to present value using the OMB’s economic assumptions
      for ten-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

                                           2012                              2011
                                      2.29% in year 1,                  3.54% in year 1,
                                      3.14% in year 2,                  4.03% in year 2,
                                      and thereafter                    and thereafter

      Based on information provided by the DOL, the U.S. Department of Commerce estimated the USPTO’s liability
      as of September 30, 2012 and 2011 was $8,209 thousand and $8,406 thousand, respectively.




      NOTE 11. Leases

      Operating Leases:
      The General Services Administration (GSA) negotiates long-term office space leases and levies rent charges,
      paid by the USPTO, approximate to commercial rental rates. These operating lease agreements for the
      USPTO’s office buildings expire at various dates between FY 2014 and FY 2024. During the years ended
      September 30, 2012 and 2011, the USPTO paid $94,795 thousand and $89,762 thousand, respectively, to the
      GSA for rent.

      Under existing commitments, the future minimum lease payments as of September 30, 2012 are as follows:

                        Fiscal Year                                  (Dollars in Thousands)
                        2013                                               $	67,699
                        2014                                                  66,366
                        2015                                                  65,593
                        2016                                                  64,284
                        2017                                                  63,185
                        Thereafter                                           392,034

100                     Total Future Minimum Lease Payments                $	719,161




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                           F IN A N C IA L S E CT ION




NOTE 11. Leases (continued)

The commitments shown above relate primarily to the operating lease for the USPTO headquarters in
Alexandria, Virginia, beginning in FY 2004 and extending to FY 2024. The operating lease commitments for
the USPTO offices in Shirlington, Virginia; Detroit, Michigan; and Denver, Colorado are also included above.
The operating leases in Shirlington, Virginia and Detroit, Michigan will expire in FY 2019 and FY 2022, respec-
tively. The new operating lease in Denver, Colorado will begin in FY 2014 and will expire in FY 2024.




NOTE 12. Commitments and Contingencies

The USPTO is a party to various routine administrative proceedings, legal actions, and claims brought by or
against it, including threatened or pending litigation involving labor relations claims, some of which may
ultimately result in settlements or decisions against the federal government.

As of September 30, 2012, management expects it is reasonably possible that approximately $5,600 thousand
may be owed for awards or damages involving labor relations claims. As of September 30, 2011, manage-
ment expects it is reasonably possible that approximately $83,726 thousand may be owed for awards or
damages involving labor relations claims.

As of September 30, 2012 and 2011, the USPTO was not subject to any suits where adverse outcomes are
probable.

For the years ended September 30, 2012 and 2011, the USPTO was not required to make any payments to the
Judgment Fund.

As of September 30, 2012 and 2011, the USPTO did not have any major long-term commitments.




NOTE 13. Post-employment Benefits

For the years ended September 30, 2012 and 2011, the post-employment benefit expenses were as follows:

(Dollars in Thousands)                   2012                                          2011
                          Funded        Imputed         Total           Funded       Imputed            Total
CSRS                     $	11,599     $	2,273       $	13,872          $	12,446      $	2,801        $	15,247
FERS                       122,660      10,378        133,038           112,076       12,890         124,966
FEHB                        50,582       4,152         54,734            51,387        3,233          54,620
FEGLI                          183    	—                  183               172     	—                   172
FICA                        78,223    	—               78,223            71,170     	—                71,170
Total Cost               $	263,247    $	16,803      $	280,050         $	247,251     $	18,924       $	266,175



                                                                                                                        101




                                                                                                  www.uspto.gov
      FINA NCIA L SE CTI O N




      NOTE 14. Earmarked Funds

      Earmarked funds are financed by specifically identified revenues, which remain available over time.
      These specifically identified revenues are required by statute to be used for designated activities, benefits, or
      purposes, and must be accounted for separately from the government’s general revenues. At the USPTO,
      earmarked funds include the salaries and expenses fund and the special fund receipts. Non-entity funds, as
      disclosed in Note 7, are not earmarked funds and are therefore excluded from the below amounts.

      The following tables provide the status of the USPTO’s earmarked funds as of and for the years ended
      September 30, 2012 and 2011.


      (Dollars in Thousands)                                 Salaries and         Surcharge         Total Earmarked
                                                            Expenses Fund           Fund                  Funds
      Balance Sheet as of September 30, 2012	
      	   Fund Balance with Treasury                         $	 1,372,713        $	233,529            $	 1,606,242
      	Cash                                                           3,331      	—                            3,331
      	   Accounts Receivable, Net                                      751      	—                              751
      	   Other Assets                                              250,086      	—                          250,086
      	   Total Assets                                       $	 1,626,881        $	233,529            $	 1,860,410

      	   Total Liabilities                                  $	 1,133,536        $	—                  $	 1,133,536
      	   Cumulative Results of Operations                          493,345      	233,529                    726,874
      	   Total Liabilities and Net Position                 $	 1,626,881        $	233,529            $	 1,860,410

      Statement of Net Cost For the Year
      Ended September 30, 2012
      	   Total Program Cost                                 $	 2,320,947        $	—                  $	 2,320,947
      	   Less Program Earned Revenue                             (2,427,082)    	—                        (2,427,082)
      	   Net Income from Operations                         $	 (106,135)        $	—                  $	 (106,135)

      Statement of Changes in Net Position
      For the Year Ended September 30, 2012
          Net Position, Beginning of Year                    $	     368,731      $	233,529            $	     602,260

          Budgetary Financing Sources:
          	   Transfers Out Without Reimbursement                     (1,000)    	—                            (1,000)
          Other Financing Sources:
          	   Imputed Financing                                      19,479      	—                           19,479
          Net Income from Operations                                106,135      	—                          106,135
          Change in Net Position                                    124,614      	—                          124,614
          Net Position, End of Year                          $	     493,345      $	233,529            $	     726,874




102




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                             F IN A N C IA L S E CT ION




NOTE 14. Earmarked Funds (continued)

(Dollars in Thousands)                                 Salaries and          Surcharge        Total Earmarked
                                                      Expenses Fund            Fund                 Funds
Balance Sheet as of September 30, 2011	
    	   Fund Balance with Treasury                     $	 1,292,820         $	   233,529         $	 1,526,349
    	Cash                                                     2,364        	—                            2,364
    	   Accounts Receivable, Net                               434         	—                               434
    	   Other Assets                                        218,766        	—                          218,766
    	   Total Assets                                   $	 1,514,384         $	   233,529         $	 1,747,913

    	   Total Liabilities                              $	 1,145,653         $	        —          $	 1,145,653
    	   Cumulative Results of Operations                    368,731              233,529               602,260
    	   Total Liabilities and Net Position             $	 1,514,384         $	   233,529         $	 1,747,913

Statement of Net Cost For the Year
Ended September 30, 2011
    	   Total Program Cost                             $	 2,148,097         $	        —          $	 2,148,097
    	   Less Program Earned Revenue                      (2,236,374)       	—                      (2,236,374)
	       Net Income from Operations                     $	   (88,277)        $	        —          $	     (88,277)

Statement of Changes in Net Position
For the Year Ended September 30, 2011
	        Net Position, Beginning of Year               $	   258,776         $	   233,529         $	    492,305
	        Other Financing Sources:
		Imputed Financing                                          21,678        	—                           21,678
	        Net Income from Operations                          88,277        	—                           88,277
	        Change in Net Position                             109,955        	—                          109,955
	        Net Position, End of Year                     $	   368,731         $	   233,529         $	    602,260


The Salaries and Expenses Fund contains moneys used for the administering of the laws relevant to patents
and trademarks and advising the Secretary of Commerce, the President of the United States, and the
Administration on patent, trademark, and copyright protection, and trade-related aspects of intellectual
property. This fund is used for the USPTO’s three core business activities – granting patents, registering trade-
marks, and intellectual property policy, protection, and enforcement – that promote the use of intellectual
property rights as a means of achieving economic prosperity. These activities give innovators, businesses,
and entrepreneurs the protection and encouragement they need to turn their creative ideas into tangible
products, and also provide protection for their inventions and trademarks. The USPTO may use moneys from
this account only as authorized by Congress via appropriations.

The Surcharge Fund was created through the Patent and Trademark Office Surcharge provision in the
Omnibus Budget Reconciliation Act (OBRA) of 1990 (Section 10101, Pub. L. No. 101-508). This required that
the USPTO impose a surcharge on certain patent fees and set in statute the amounts of money that the
USPTO should deposit in a special fund receipt account at the U.S. Department of the Treasury. This surcharge
expired at the end of FY 1998. The USPTO may use moneys from this account only as authorized by Congress,
                                                                                                                          103
and only as made available by the issuance of a Treasury warrant.



                                                                                                      www.uspto.gov
      FINA NCIA L SE CTI O N




      NOTE 15. Intragovernmental Costs and Exchange Revenue

      Total intragovernmental costs and exchange revenue, by Strategic Goal, for the years ended September 30,
      2012 and 2011 were as follows:

      (Dollars in Thousands)                                                       2012
                                                         Patent       Trademark       Intellectual      Total
                                                                                        Property
                                                                                       Protection

      Strategic Goal 1: Optimize Patent
      	 Quality and Timeliness
      	 Intragovernmental Gross Cost                   $	433,079      $	—             $	­—           $	433,079
      	 Gross Cost with the Public                      1,646,278     	—              	­—             1,646,278
      		    Total Program Cost                           2,079,357    	—              	­—              2,079,357

      	   Intragovernmental Earned Revenue                  (7,434)   	—              	­—                  (7,434)
      	   Earned Revenue from the Public                (2,173,098)   	—              	­—             (2,173,098)
      		    Total Program Earned Revenue                (2,180,532)   	—              	­—             (2,180,532)
      		    Net Program Income                         $	(101,175)    $	—             $	­—           $	(101,175)

      Strategic Goal 2: Optimize Trademark
      	 Quality and Timeliness
      	 Intragovernmental Gross Cost                   $	—            $	41,927        $	­—           $	41,927
      	 Gross Cost with the Public                     	—               159,380       	­—              159,380
      		    Total Program Cost                         	—                201,307      	­—               201,307

      	   Intragovernmental Earned Revenue             	—                    (389)    	­—                   (389)
      	   Earned Revenue from the Public               	—                (246,161)    	­—               (246,161)
      		    Total Program Earned Revenue               	—                (246,550)    	­—               (246,550)
      		    Net Program Income                         $	—            $	(45,243)      $	­—           $	(45,243)

      Strategic Goal 3: Provide Domestic and Global
        Leadership to Improve Intellectual Property
        Policy, Protection and Enforcement Worldwide
      	 Intragovernmental Gross Cost                   $	—            $	—             $	8,390        $	8,390
      	 Gross Cost with the Public                     	—             	—                31,893         31,893
      		    Total Program Cost                         	—             	—                  40,283          40,283
      Net (Income)/Cost from Operations                $	(101,175)    $	(45,243)      $	40,283       $	(106,135)

      Total Entity
      	 Total Program Cost (Notes 16 and 17)           $	2,079,357    $	201,307       $	40,283       $	2,320,947
      	 Total Earned Revenue                            (2,180,532)     (246,550)     	—              (2,427,082)
      Net (Income)/Cost from Operations                $	(101,175)    $	(45,243)      $	40,283       $	(106,135)




104




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                            F IN A N C IA L S E CT ION




NOTE 15. Intragovernmental Costs and Exchange Revenue (continued)

(Dollars in Thousands)                                                          2011
                                                     Patent        Trademark       Intellectual          Total
                                                                                     Property
                                                                                    Protection

Strategic Goal 1: Optimize Patent
	 Quality and Timeliness
	 Intragovernmental Gross Cost                     $	406,294      $	­—             $	­—             $	406,294
	 Gross Cost with the Public                        1,507,060     	­—              	­—               1,507,060
		    Total Program Cost                             1,913,354    	­—              	­—                 1,913,354

	   Intragovernmental Earned Revenue                    (7,572)   	­—              	­—                    (7,572)
	   Earned Revenue from the Public                  (1,997,697)   	­—              	­—                (1,997,697)
		    Total Program Earned Revenue                  (2,005,269)   	­—              	­—                (2,005,269)
		    Net Program Income                           $	(91,915)     $	­—             $	­—             $	(91,915)

Strategic Goal 2: Optimize Trademark
	 Quality and Timeliness
	 Intragovernmental Gross Cost                     $	—            $	40,719         $	­—             $	40,719
	 Gross Cost with the Public                       	—               151,041        	­—                151,041
		    Total Program Cost                           	—                 191,760      	­—                   191,760

	   Intragovernmental Earned Revenue               	—                     (488)    	­—                       (488)
	   Earned Revenue from the Public                 	—                 (230,617)    	­—                   (230,617)
		    Total Program Earned Revenue                 	—                 (231,105)    	­—                   (231,105)
		    Net Program Income                           $	—            $	(39,345)       $	­—             $	(39,345)

Strategic Goal 3: Provide Domestic and Global
  Leadership to Improve Intellectual Property
  Policy, Protection and Enforcement Worldwide
	 Intragovernmental Gross Cost                     $	—            $	­—             $	9,127          $	9,127
	 Gross Cost with the Public                       	—             	­—                33,856           33,856
		    Total Program Cost                           	—             	­—                  42,983              42,983
Net (Income)/Cost from Operations                  $	(91,915)     $	(39,345)       $	42,983         $	(88,277)

Total Entity
	 Total Program Cost (Notes 16 and 17)             $	1,913,354    $	191,760        $	42,983         $	2,148,097
	 Total Earned Revenue                              (2,005,269)     (231,105)      	­—               (2,236,374)
Net (Income)/Cost from Operations                  $	(91,915)     $	(39,345)       $	42,983         $	(88,277)


Intragovernmental expenses relate to the source of the goods or services, not the classification of the related
revenue.




                                                                                                                         105




                                                                                                   www.uspto.gov
      FINA NCIA L SE CTI O N




      NOTE 16. Program Costs

      Program costs consist of both costs related directly to the individual business lines and overall support costs
      allocated to the business lines. All costs are assigned to specific programs. Total program or operating costs
      for the years ended September 30, 2012 and 2011 by cost category were as follows:

      (Dollars in Thousands)                                                           2012
                                                                     Direct          Allocated           Total
      Personnel Services and Benefits                             $	1,521,472       $	104,879        $	1,626,351
      Travel and Transportation                                         2,758             757              3,515
      Rent, Communications, and Utilities                              87,427          33,045            120,472
      Printing and Reproduction                                        97,653             347             98,000
      Contractual Services                                            168,506         142,240            310,746
      Training                                                            746           1,670              2,416
      Maintenance and Repairs                                           3,766          41,650             45,416
      Supplies and Materials                                           35,051           1,342             36,393
      Equipment not Capitalized                                         3,566           6,073              9,639
      Insurance Claims and Indemnities                                     10              89                 99
      Depreciation, Amortization, or Loss on Asset Dispositions        20,538          47,362             67,900
      Total Program Costs                                         $	1,941,493       $	379,454        $	2,320,947


      (Dollars in Thousands)                                                           2011
                                                                     Direct          Allocated           Total
      Personnel Services and Benefits                             $	1,411,130       $	102,855        $	1,513,985
      Travel and Transportation                                         1,726             591              2,317
      Rent, Communications, and Utilities                              82,185          31,282            113,467
      Printing and Reproduction                                        90,510             366             90,876
      Contractual Services                                            155,394         140,174            295,568
      Training                                                            716             845              1,561
      Maintenance and Repairs                                           3,792          31,795             35,587
      Supplies and Materials                                           33,030             903             33,933
      Equipment not Capitalized                                         1,866           5,960              7,826
      Insurance Claims and Indemnities                                    282       	­—                      282
      Depreciation, Amortization, or Loss on Asset Dispositions        21,219          31,476             52,695
      Total Program Costs                                         $	1,801,850       $	346,247        $	2,148,097


      The unfunded portion of personnel services and benefits for the years ended September 30, 2012 and 2011
      was $4,374 thousand and $10,638 thousand, respectively.




106




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                         F IN A N C IA L S E CT ION




NOTE 17. Program Costs by Category and Responsibility Segment

The program costs for the years ended September 30, 2012 and 2011 by cost category and business line
were as follows:

(Dollars in Thousands)                                                      2012
                                                    Patent      Trademark      Intellectual          Total
                                                                                 Property
                                                                                Protection
Direct Costs
	 Personnel Services and Benefits                 $	1,385,426   $	117,596      $	18,450         $	1,521,472
	 Travel and Transportation                               790          97         1,871               2,758
	 Rent, Communications, and Utilities                  77,339       7,391         2,697              87,427
	 Printing and Reproduction                            97,547          99             7              97,653
	 Contractual Services                                144,366      15,866         8,274             168,506
	Training                                                 289         418            39                 746
	 Maintenance and Repairs                               2,987         600           179               3,766
	 Supplies and Materials                               33,487       1,172           392              35,051
	 Equipment not Capitalized                             2,890         475           201               3,566
	 Insurance Claims and Indemnities                         10   	—             	—                        10
   Depreciation, Amortization, or Loss on Asset
      Dispositions                                    16,193        4,200             145             20,538
Subtotal Direct Costs                             $	1,761,324   $	147,914      $	32,255         $	1,941,493

Allocated Costs
	Automation                                       $	166,476     $	31,564       $	2,600          $	200,640
	 Resource Management                               151,557       21,829         5,428            178,814
Subtotal Allocated Costs                          $	318,033     $	53,393       $	8,028          $	379,454

Total Program Costs                               $	2,079,357   $	201,307      $	40,283         $	2,320,947


The unfunded portion of personnel services and benefits for the year ended September 30, 2012 was $4,374
thousand.




                                                                                                                      107




                                                                                                www.uspto.gov
      FINA NCIA L SE CTI O N




      NOTE 17. Program Costs by Category and Responsibility Segment (continued)

      (Dollars in Thousands)                                                         2011
                                                          Patent        Trademark       Intellectual      Total
                                                                                          Property
                                                                                         Protection
      Direct Costs
      	 Personnel Services and Benefits                 $	1,281,576    $	112,142        $	17,412       $	1,411,130
      	 Travel and Transportation                               306          114           1,306             1,726
      	 Rent, Communications, and Utilities                  72,679        7,135           2,371            82,185
      	 Printing and Reproduction                            90,208          300               2            90,510
      	 Contractual Services                                129,991       10,700          14,703           155,394
      	Training                                                 372          318              26               716
      	 Maintenance and Repairs                               1,947        1,791              54             3,792
      	 Supplies and Materials                               31,707        1,056             267            33,030
      	 Equipment not Capitalized                             1,428          374              64             1,866
      	 Insurance Claims and Indemnities                        282    	­—              	­—                    282
         Depreciation, Amortization, or Loss on Asset
            Dispositions                                    17,726           3,290             203         21,219
      Subtotal Direct Costs                             $	1,628,222    $	137,220        $	36,408       $	1,801,850

      Allocated Costs
      	Automation                                       $	145,308      $	31,915         $	1,288        $	178,511
      	 Resource Management                               139,824        22,625           5,287          167,736
      Subtotal Allocated Costs                          $	285,132      $	54,540         $	6,575        $	346,247

      Total Program Costs                               $	1,913,354    $	191,760        $	42,983       $	2,148,097


      The unfunded portion of personnel services and benefits for the year ended September 30, 2011 was $10,638
      thousand.




      NOTE 18. Budgetary Resources

      Total budgetary resources are primarily comprised of Congressional authority to spend current year fee collec-
      tions. In FY 2012, the USPTO was appropriated up to $2,706,313 thousand for fees collected during the fiscal
      year. In FY 2011, the USPTO was appropriated up to $2,090,000 thousand for fees collected during the fiscal
      year. For the year ended September 30, 2012, the USPTO collected $302,391 thousand less than the amount
      apportioned through September 30, 2012 (under-collections of fees of $299,487 thousand and under-collec-
      tions of other budgetary resources of $2,904 thousand). For the year ended September 30, 2011, the USPTO
      collected $177,183 thousand more than the amount apportioned through September 30, 2011 (over-collec-
      tions of fees of $208,856 thousand and under-collections of other budgetary resources of $31,673 thousand).

      Total budgetary resources also include carryover of prior year budgetary resources (operating reserve).
108   Carryover is derived from year-end fees that have not been obligated. Usage of the fees in the following fiscal
      year is for compensation and operational requirements on a first-in, first-out basis.



      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                                F IN A N C IA L S E CT ION




NOTE 18. Budgetary Resources (continued)

The USPTO receives an apportionment of Category A funds from OMB, which apportions budgetary resources
by fiscal quarter. The USPTO does not receive any Category B funds, or those exempt from apportionment.
As of September 30, 2012 and 2011, reimbursable obligations incurred were $2,374,755 thousand and
$2,160,895 thousand, respectively.

Permanent Indefinite Appropriations
In addition to the appropriation of fee collections mentioned above, the USPTO received a permanent indefinite
appropriation in the America Invents Act (Pub. L. No. 112-29). The permanent indefinite appropriation is comprised
of offsetting collections for (1) a 15 percent interim surcharge on certain patent fees that will continue until each
fee is adjusted by regulation and (2) fees paid by patent applicants to request expedited, prioritized examina-
tion. These offsetting collections are deposited in the salaries and expenses (13X1006) no year fund. For the
year ending September 30, 2012, no collections were received against the permanent indefinite appropriation;
the FY 2012 appropriation language superseded the America Invents Act language, eliminating the permanent
indefinite appropriation authority for a one-year period. For the year ending September 30, 2011, the USPTO
collected $4,801 thousand in accordance with the permanent indefinite appropriation.

Funding Limitations
Pursuant to the Patent and Trademark Office Fee Fairness Act of 1999 (35 U.S.C. §42(c)), all fees available to
the Director under section 31 of the Trademark Act of 1946 are used only for the processing of trademark
registrations and for other activities, services, and materials relating to trademarks, as well as to cover a
proportionate share of the administrative costs of the USPTO.

Pursuant to the America Invents Act (35 U.S.C. §42(c)), all fees available to the Director under sections 41, 42,
and 376 of 35 U.S.C. are used only for the processing of patent applications and for other activities, services, and
materials relating to patents, as well as to cover a proportionate share of the administrative costs of the USPTO.

In addition, the FY 2009 appropriation language restricted from obligation $5,000 thousand of offsetting
collections until “the USPTO has completed a comprehensive review of the assumptions behind the patent
examiner expectancy goals and adopted a revised set of expectancy goals for patent examination”.
These restricted funds were released and made available in the third quarter of FY 2011.

The total temporarily unavailable fee collections pursuant to Public Law as of September 30, 2012 are
$1,023,614 thousand. Of this amount, certain USPTO collections of $233,529 thousand were withheld in
accordance with the OBRA of 1990, and deposited in a special fund receipt account at the U.S. Department
of the Treasury.

Undelivered Orders
In addition to the future lease commitments discussed in Note 11, the USPTO is obligated for the purchase of
goods and services that have been ordered, but not yet received. Total reimbursable undelivered orders for
all of the USPTO’s activities were $187,830 thousand and $165,684 thousand as of September 30, 2012 and
2011, respectively. Of these amounts, $174,724 thousand and $153,546 thousand, respectively, were unpaid.



                                                                                                                             109




                                                                                                       www.uspto.gov
      FINA NCIA L SE CTI O N




      NOTE 19. Incidental Custodial Collections

      Custodial collections represent miscellaneous general fund receipts, such as non-electronic patent filing fees
      and gains on foreign exchange rates. Non-electronic patent filing fee collections began in November 2012.
      Custodial collection activities are considered immaterial and incidental to the mission of the USPTO.

      (Dollars in Thousands)                                                    2012                  2011
      Revenue Activity:
      Sources of Collections:
      	Miscellaneous                                                        $	1,059               $	119
      Total Cash Collections                                                 1,059                 119
      Accrual Adjustments                                                   	—                    	—
      Total Custodial Revenue                                                      1,059                   119

      Disposition of Collections:
      Transferred to Others:
      	Treasury                                                              (1,059)               (119)
      (Increase)/Decrease in Amounts Yet to be Transferred                  	—                    	—
      Net Custodial Activity                                                $	—                   $	—




110




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                          F IN A N C IA L S E CT ION




NOTE 20. Fiduciary Activities

Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposi-
tion by the federal government of cash or other assets in which non-federal individuals or entities have an
ownership interest that the federal government must uphold. Fiduciary cash and other assets are not assets
of the federal government and accordingly are not recognized on the proprietary financial statements.

The Patent Cooperation Treaty authorized the USPTO to collect patent filing and search fees on behalf of the
WIPO, EPO, Korean Intellectual Property Office, Russian Intellectual Property Organization, and the Australian
Patent Office from U.S. citizens requesting an international patent. The Madrid Protocol Implementation Act
authorized the USPTO to collect trademark application fees on behalf of the International Bureau of the WIPO
from U.S. citizens requesting an international trademark.

Schedule of Fiduciary Activity
For the years ended September 30, 2012 and 2011
                                              2012                                     2011
                                Patent                      Total        Patent                         Total
                              Cooperation    Madrid      Fiduciary     Cooperation     Madrid        Fiduciary
(Dollars in Thousands)          Treaty       Protocol      Funds         Treaty        Protocol        Funds
Fiduciary Net Assets,
   Beginning of Year           $	12,864      $	338       $	13,202        $	9,452      $	576          $	10,028
Contributions                   153,716       14,361      168,077         131,755      14,551         146,306
Disbursements To and on
   Behalf of Beneficiaries      (153,960)     (14,299)    (168,259)       (128,343)     (14,789)      (143,132)
(Decrease)/Increase in
  Fiduciary Net Assets               (244)         62         (182)         3,412          (238)         3,174
Fiduciary Net Assets,
   End of Year                 $	12,620      $	400       $	13,020        $	12,864     $	338          $	13,202


Fiduciary Net Assets
As of September 30, 2012 and 2011
                                              2012                                     2011
                                Patent                      Total        Patent                         Total
                              Cooperation    Madrid      Fiduciary     Cooperation     Madrid        Fiduciary
(Dollars in Thousands)          Treaty       Protocol      Funds         Treaty        Protocol        Funds
Cash and Cash Equivalents       $	 12,620    $	   400    $	 13,020       $	12,864     $	338          $	13,202
Total Fiduciary Net Assets      $	 12,620    $	   400    $	 13,020       $	12,864     $	338          $	13,202




                                                                                                                       111




                                                                                                   www.uspto.gov
      FINA NCIA L SE CTI O N




      NOTE 21. Reconciliation of Net Cost of Operations to Budget

      Most entity transactions are recorded in both budgetary and proprietary accounts. However, because
      different accounting guidelines are used for budgetary and proprietary accounting, some transactions may
      appear in only one set of accounts. The following reconciliation provides a means to identify the relation-
      ships and differences that exist between the aforementioned budgetary and proprietary accounts.

      The reconciliation of net cost of operations to budget for the years ended September 30, 2012 and 2011 is
      as follows:

      (Dollars in Thousands)                                                              2012            2011

      RESOURCES USED TO FINANCE ACTIVITIES
      	 Budgetary Resources Obligated:
            Obligations Incurred                                                       $	2,374,755     $	2,160,895
            Spending Authority from Offsetting Collections and Recoveries               (2,435,922)     (2,324,782)
            Net Obligations                                                                (61,167)       (163,887)
         Other Resources
           Imputed Financing from Cost Absorbed by Others                                   19,479          21,678
      Total Resources Used to Finance Activities                                           (41,688)       (142,209)

      RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
      OPERATIONS
        Change in Budgetary Resources Obligated for Goods, Services and Benefits
          Ordered but not yet Provided                                                     (22,146)          4,025
        Resources that Fund Costs Recognized in Prior Periods                                (1,836)          (200)
        Budgetary Offsetting Collections that do not Affect Net Cost of Operations         (15,793)         71,600
        Resources that Finance the Acquisition of Assets Capitalized on the
          Balance Sheet                                                                    (98,252)        (84,926)
        Total Resources Used to Finance Items not Part of the Net Cost of Operations      (138,027)         (9,501)

      COMPONENTS OF NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
      	 GENERATE RESOURCES IN THE CURRENT PERIOD
        Components Requiring or Generating Resources in Future Periods:
          Costs that will be Funded by Resources in Future Periods                           6,258          10,725
          Net Decrease/(Increase) in Revenue Receivables not Generating
            Resources until Collected                                                            70            (30)
            Total Components of Net Cost of Operations that will Require or Generate
               Resources in Future Periods                                                   6,328          10,695
         Components not Requiring or Generating Resources:
           Depreciation, Amortization, or Loss on Asset Dispositions                        67,900          52,695
           Other Costs that will not Require Resources                                        (648)             43
            Total Components of Net Cost of Operations that will not Require or
               Generate Resources                                                           67,252          52,738
      Total Components of Net Cost of Operations that will not Require or Generate
         Resources in the Current Period                                                    73,580          63,433
      Net Income from Operations                                                       $	(106,135)     $	(88,277)
112




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
Independent Auditors’ Report
      INDEP ENDENT AUDI TO R S’ R EP O RT




              November 15, 2012

              MEMORANDUM FOR:               David J. Kappos
                                            Under Secretary of Commerce for Intellectual Property and
                                            Director of the U.S. Patent and Trademark Office


              FROM:                         Todd J. Zinser

              SUBJECT:                      FY 2012 Financial Statements
                                            Final Report No. OIG-13-004-A

              I am pleased to provide you with the attached audit report, which presents an unqualified
              opinion on USPTO’s fiscal year 2012 financial statements. KPMG LLP, an independent public
              accounting firm, performed the audit in accordance with U.S. generally accepted government
              auditing standards and Office of Management and Budget Bulletin 07-04, Audit Requirements for
              Federal Financial Statements, as amended.

              In its audit of USPTO, KPMG found:
                     financial statements that were fairly presented in all material respects and in conformity
                      with U.S. generally accepted accounting principles;
                     one significant deficiency related to controls over general information technology (this
                      deficiency was not considered a material weakness in internal control as defined in the
                      report); and
                     no instances of reportable noncompliance with applicable laws, regulations, and
                      contracts.

              My office oversaw the audit performance. We reviewed KPMG’s report and related
              documentation and made inquiries of its representatives. Our review disclosed no instances
              where KPMG did not comply, in all material respects, with generally accepted government
              auditing standards. However, our review cannot be construed as an audit in accordance with
              these standards; it was not intended to enable us to express—nor do we express—any opinion
              on USPTO’s financial statements, conclusions about the effectiveness of internal controls, or
              conclusions on compliance with laws, regulations, and contracts. KPMG is solely responsible for
              the attached audit report, dated November 7, 2012, and the conclusions expressed in it.

              If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Ann C.
              Eilers, Principal Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.




114




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                      IN D E PE N D E N T AU D ITO R S ’ R E P ORT




We appreciate the cooperation and courtesies USPTO extended to KPMG and my staff during
the audit.

Attachment

cc:   Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration
      Anthony P. Scardino, Chief Financial Officer, USPTO




                                                                                                                     115




                                                                                              www.uspto.gov

                                              2
      INDEP ENDENT AUDI TO R S’ R EP O RT




                                            KPMG LLP
                                            Suite 12000
                                            1801 K Street, NW
                                            Washington, DC 20006




                                                     Independent Auditors’ Report


          Inspector General, U.S. Department of Commerce and
          Under Secretary of Commerce for Intellectual Property and
            Director of the U.S. Patent and Trademark Office:

          We have audited the accompanying consolidated balance sheets of the United States Patent and Trademark
          Office (USPTO) as of September 30, 2012 and 2011, and the related consolidated statements of net cost
          and changes in net position, and combined statements of budgetary resources for the years then ended
          (hereinafter referred to as “consolidated financial statements”). The objective of our audits was to express
          an opinion on the fair presentation of these consolidated financial statements. In connection with our fiscal
          year 2012 audit, we also considered the USPTO’s internal control over financial reporting and tested the
          USPTO’s compliance with certain provisions of applicable laws, regulations, and contracts that could have
          a direct and material effect on these consolidated financial statements.

          Summary
          As stated in our opinion on the consolidated financial statements, we concluded that the USPTO’s
          consolidated financial statements referred to above, are presented fairly, in all material respects, in
          conformity with U.S. generally accepted accounting principles.

          As discussed in Note 1 Reclassifications to the consolidated financial statements, the USPTO changed its
          presentation for reporting the combined statement of budgetary resources in fiscal year 2012.

          Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
          relating to information technology general controls that we consider to be, collectively, a significant
          deficiency, as defined in the Internal Control Over Financial Reporting section of this report.

          We did not identify any deficiencies in internal control over financial reporting that we consider to be
          material weaknesses as defined in the Internal Control Over Financial Reporting section of this report.

          The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
          no instances of noncompliance or other matters that are required to be reported under Government Auditing
          Standards, issued by the Comptroller General of the United States, and Office of Management and Budget
          (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

          The following sections discuss our opinion on the USPTO’s consolidated financial statements; our
          consideration of the USPTO’s internal control over financial reporting; our tests of the USPTO’s
          compliance with certain provisions of applicable laws, regulations, and contracts; and management’s and
          our responsibilities.




116
                                            KPMG LLP is a Delaware limited liability partnership,
                                            the U.S. member firm of KPMG International Cooperative
                                            (“KPMG International”), a Swiss entity.




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                             IN D E PE N D E N T AU D ITO R S ’ R E P ORT




United States Patent and Trademark Office
Independent Auditors’ Report
November 7, 2012
Page 2 of 7



Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the United States Patent and Trademark
Office as of September 30, 2012 and 2011, and the related consolidated statements of net cost and changes
in net position, and the combined statements of budgetary resources for the years then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the United States Patent and Trademark Office as of September 30, 2012
and 2011, and its net costs, changes in net position, and budgetary resources for the years then ended, in
conformity with U.S. generally accepted accounting principles.

As discussed in Note 1 Reclassifications to the consolidated financial statements, the USPTO changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012, based on new
reporting guidance under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the
USPTO’s combined statement of budgetary resources for fiscal year 2011 has been adjusted to conform to
the current year presentation.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis section be presented to supplement the basic consolidated financial statements. Such
information, although not a part of the basic consolidated financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial reporting for
placing the basic consolidated financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic consolidated financial statements,
and other knowledge we obtained during our audits of the basic consolidated financial statements. We do
not express an opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
statements as a whole. The consolidated statements of cash flows for the years ended September 30, 2012
and 2011 are presented for purposes of additional analysis and are not a required part of the basic
consolidated financial statements. Such information is the responsibility of management and was derived
from and relates directly to the underlying accounting and other records used to prepare the basic
consolidated financial statements. The consolidated statements of cash flows for the years ended
September 30, 2012 and 2011 have been subjected to the auditing procedures applied in the audit of the
basic consolidated financial statements and certain additional procedures, including comparing and
reconciling such information directly to the underlying accounting and other records used to prepare the
basic consolidated financial statements or the basic consolidated financial statements themselves, and other
additional procedures in accordance with auditing standards generally accepted in the United States of
America. In our opinion, the consolidated statements of cash flows for the years ended September 30,
2012 and 2011 are fairly stated in all material respects in relation to the basic consolidated financial
statements as a whole. The information in the Message from the Under Secretary of Commerce for
Intellectual Property and Director of the USPTO section, the Message from the Chief Financial Officer
section, and the Other Accompanying Information section are presented for purposes of additional analysis
                                                                                                                            117




                                                                                                     www.uspto.gov
      INDEP ENDENT AUDI TO R S’ R EP O RT




          United States Patent and Trademark Office
          Independent Auditors’ Report
          November 7, 2012
          Page 3 of 7



          and are not a required part of the basic consolidated financial statements. Such information has not been
          subjected to the auditing procedures applied in the audits of the basic consolidated financial statements, and
          accordingly, we do not express an opinion or provide any assurance on them.

          Internal Control Over Financial Reporting
          A deficiency in internal control exists when the design or operation of a control does not allow
          management or employees, in the normal course of performing their assigned functions, to prevent, or
          detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
          of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
          the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

          Our consideration of internal control over financial reporting was for the limited purpose described in the
          Responsibilities section of this report and was not designed to identify all deficiencies in internal control
          over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
          fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that
          we consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
          internal control over financial reporting described in Exhibit I that we consider to be a significant
          deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
          combination of deficiencies, in internal control that is less severe than a material weakness, yet important
          enough to merit attention by those charged with governance.

                  General information technology controls. We found that although the USPTO has taken partial
                  corrective actions to address certain information technology (IT) control weaknesses, general IT
                  weaknesses still exist. Despite the positive efforts made by the USPTO, the USPTO needs to make
                  continued improvement in its IT general control environment to fully ensure that financial data
                  processed on the USPTO’s systems is complete, reliable, and has integrity.

          We noted certain additional matters that we have reported to management of USPTO in a separate letter
          dated November 7, 2012.
          Compliance and Other Matters
          The results of certain of our tests of compliance as described in the Responsibilities section of this report
          disclosed no instances of noncompliance or other matters that are required to be reported herein under
          Government Auditing Standards or OMB Bulletin No. 07-04.



                                                           *******

          Responsibilities
          Management’s Responsibilities. Management is responsible for the consolidated financial statements;
          establishing and maintaining effective internal control over financial reporting; and complying with laws,
          regulations, and contracts applicable to the USPTO.

          Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 and 2011
118       consolidated financial statements of the USPTO based on our audits. We conducted our audits in




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                              IN D E PE N D E N T AU D ITO R S ’ R E P ORT




United States Patent and Trademark Office
Independent Auditors’ Report
November 7, 2012
Page 4 of 7



accordance with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04
require that we plan and perform the audits to obtain reasonable assurance about whether the consolidated
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the USPTO’s internal control over
financial reporting. Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the USPTO’s internal control over
financial reporting by obtaining an understanding of the USPTO’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the USPTO’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the USPTO’s internal control over financial reporting. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the USPTO’s fiscal year 2012 consolidated
financial statements are free of material misstatement, we performed tests of the USPTO’s compliance with
certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct and
material effect on the determination of the consolidated financial statement amounts, and certain provisions
of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with all laws,
regulations, and contracts applicable to the USPTO. However, providing an opinion on compliance with
laws, regulations, and contracts was not an objective of our audit and, accordingly, we do not express such
an opinion.

                                   ______________________________



The USPTO’s written response to the findings identified in our audit and presented in Exhibit I was not
subjected to the auditing procedures applied in the audit of the USPTO’s consolidated financial statements
and, accordingly, we express no opinion on it.

                                                                                                                             119




                                                                                                      www.uspto.gov
      INDEP ENDENT AUDI TO R S’ R EP O RT




          United States Patent and Trademark Office
          Independent Auditors’ Report
          November 7, 2012
          Page 5 of 7



          This report is intended solely for the information and use of the USPTO’s management, the U.S.
          Department of Commerce management and the U.S. Department of Commerce Office of Inspector General
          and is not intended to be and should not be used by anyone other than these specified parties.




          November 7, 2012




120




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                                    IN D E PE N D E N T AU D ITO R S ’ R E P ORT




    United States Patent and Trademark Office
    Independent Auditors’ Report
United States Patent and Trademark Office
    November 7, 2012
Independent Auditors’ Report
    Page 6 of 7
November 7, 2012
Page 6 of 7

     Exhibit I – Significant Deficiency
Exhibit I – Significant Deficiency
    Information Technology Access and Configuration Management Controls Need Improvement
     The U.S. Technology
Information     Department of    Commerce
                               Access         (Commerce) Office
                                        and Configuration          of Inspector
                                                              Management        GeneralNeed
                                                                              Controls    (OIG),  and departmental self-
                                                                                               Improvement
     assessments identified weaknesses in USPTO’s information technology (IT) and financial systems controls
The U.S.   Department
     for several   years.ofDuring
                            Commercefiscal(Commerce)    Office
                                            year 2012 new      of Inspector
                                                            deficiencies      General
                                                                           were        (OIG),
                                                                                identified  thatand departmental
                                                                                                  require          self-
                                                                                                          management’s
assessments   identified
     attention.            weaknesses    in USPTO’s   information    technology  (IT) and  financial  systems  controls
for several years. During fiscal year 2012 new deficiencies were identified that require management’s
     Our fiscal year 2012 IT assessment, using the Government Accountability Office’s (GAO’s) Federal
attention.
     Information System Controls Audit Manual (FISCAM), was focused on the IT general controls over
Our USPTO’s
     fiscal yearmajor
                    2012financial
                           IT assessment,
                                    managementusingsystems
                                                    the Government       Accountability
                                                            and supporting                Office’s (GAO’s)
                                                                              network infrastructure.    The ITFederal
                                                                                                                  general
Information
     controls System
               that weControls
                          consider Audit    Manual
                                    collectively  to (FISCAM),     was deficiency
                                                     be a significant    focused on   the the
                                                                                    under  IT general
                                                                                                standardscontrols  overthe
                                                                                                           issued by
USPTO’s
     Americanmajor   financial
                 Institute      management
                           of Certified  Publicsystems   and are
                                                Accountants   supporting   network infrastructure. The IT general
                                                                  as follows:
controls  that wecontrols.
      Access        consider Incollectively  to be
                                  close concert      a significant
                                                  with              deficiency
                                                       an organization’s        under
                                                                            security    the standards
                                                                                     management,        issued
                                                                                                     access     by thefor
                                                                                                             controls
Americangeneral
            Institute  of Certified Public   Accountants  are as follows:
                   support systems and applications should provide reasonable assurance that computer resources
        suchcontrols.
    Access      as data files,    application
                           In close     concertprograms,        and computer-related
                                                    with an organization’s       securityfacilities     and equipment
                                                                                              management,                       are protected
                                                                                                                    access controls       for
         against
    general        unauthorized
              support    systems and modification,
                                          applications  disclosure,  loss, or reasonable
                                                            should provide    impairment.assurance
                                                                                               Access controls         are facilitated
                                                                                                             that computer               by an
                                                                                                                                   resources
    such organization’s
          as data files, entity-wide
                             application security
                                              programs, program.    Such controls include
                                                            and computer-related       facilities physical     controls, such
                                                                                                     and equipment                  as keeping
                                                                                                                             are protected
         computers
    against             in locked
             unauthorized             rooms to disclosure,
                               modification,        limit physical
                                                                 loss,access,  and logical
                                                                       or impairment.           controls,
                                                                                           Access     controlssuchare as facilitated
                                                                                                                          security software
                                                                                                                                       by an
         programs designed
    organization’s     entity-wide  to security
                                        prevent program.
                                                    or detect Such
                                                                unauthorized
                                                                        controlsaccess
                                                                                 includetophysical
                                                                                                sensitivecontrols,
                                                                                                               files. Inadequate
                                                                                                                         such as keepingaccess
    computers in locked rooms to limit physical access, and logical controls, such as security softwareor
         controls    diminish     the    reliability    of   computerized     data  and     increase      the     risk   of   destruction
         inappropriate
    programs     designed  disclosure
                              to prevent of information.
                                               or detect unauthorized access to sensitive files. Inadequate access
    controls   diminish of
         The objectives      thelimiting
                                   reliability
                                             accessofarecomputerized
                                                           to ensure thatdata
                                                                           usersand
                                                                                  haveincrease
                                                                                         only the the access risk    of destruction
                                                                                                                  needed                   or
                                                                                                                            to perform their
    inappropriate
         duties; thatdisclosure
                          access of to information.
                                        sensitive resources, such as security software programs, is limited to few
         individuals;ofand
    The objectives            that employees
                           limiting    access arearetorestricted
                                                         ensure thatfrom  performing
                                                                        users  have only incompatible
                                                                                             the access functions
                                                                                                             needed toorperformduties beyond
                                                                                                                                        their
         their  responsibility.     This    is reiterated   by Federal   guidelines.    For   example,
    duties; that access to sensitive resources, such as security software programs, is limited to few       Office    of  Management        and
         Budget (OMB) Circular No. A-130 and the supporting National Institute of Standards and Technology
    individuals; and that employees are restricted from performing incompatible functions or duties beyond
         (NIST) publications provide guidance related to the maintenance of technical access controls. In
    their responsibility. This is reiterated by Federal guidelines. For example, Office of Management and
         addition, the Commerce IT Security Program Policy contains many requirements for operating
    Budget (OMB) Circular No. A-130 and the supporting National Institute of Standards and Technology
         Commerce IT devices in a secure manner.
    (NIST) publications provide guidance related to the maintenance of technical access controls. In
         During
    addition,   thefiscal  year 2012,
                      Commerce         ITweSecurity
                                               noted that    access controls
                                                         Program      Policy should
                                                                               contains be improved        by USPTO, for
                                                                                            many requirements                primarily   in the
                                                                                                                                  operating
         areas of:
    Commerce      IT(1)    managing
                      devices           user accounts
                                in a secure      manner.to appropriately disable and recertify network, financial system,
         database and operating system accounts, (2) improving logical controls over financial applications and
    During   fiscal year
         database     system2012,   we noted
                                access,      (3) that   accesscompliance
                                                   ensuring     controls should
                                                                              with beaudit
                                                                                        improved       by USPTO,
                                                                                               log review                 primarily and
                                                                                                                   requirements,       in the(4)
    areaspreventing
           of: (1) managing
                        the use ofuser   accounts
                                     shared            to appropriately
                                                database   and operating disable    and recertify
                                                                           system accounts              network, financial
                                                                                                  and passwords.         We recognizesystem,
                                                                                                                                           that
    database
         USPTO andhasoperating
                          certain system      accounts,
                                   compensating            (2) improving
                                                       controls  in place tological  controls
                                                                              help reduce     the over
                                                                                                   risk offinancial     applications
                                                                                                             the identified              and
                                                                                                                                 weaknesses,
    database
         and we system      access, (3)
                   have considered       such ensuring     compliance
                                                 compensating     controlswith   audit
                                                                            as part of our logUSPTO
                                                                                                  reviewfinancial
                                                                                                               requirements,
                                                                                                                        statementand      (4)
                                                                                                                                      audit.
    preventing the use of shared database and operating system accounts and passwords. We recognize that
      Configuration
    USPTO                     management. controls
              has certain compensating            Configuration     management
                                                             in place              involves
                                                                       to help reduce            the of
                                                                                          the risk    identification
                                                                                                         the identified    andweaknesses,
                                                                                                                                management
    and we have considered such compensating controls as part of our USPTO financial statement system
         of  security   features  for   all  hardware,    software,   and firmware    components        of   an   information       audit. at a
         given point and systematically controls configuration changes throughout the system’s life cycle.
   Configuration
         Establishingmanagement.             Configurationtomanagement
                          controls over modifications             information involves      the identification
                                                                                system components                      and management
                                                                                                             and related      documentation
    of security   features   for  all  hardware,      software,   and  firmware   components        of
         helps to ensure that only authorized systems and related program modifications are implemented.an    information      system atThis a
    givenis point   and systematically
            accomplished       by institutingcontrols
                                                   policies,configuration
                                                              procedures, andchanges      throughout
                                                                                 techniques       to ensure the that
                                                                                                                   system’s
                                                                                                                       hardware, life software
                                                                                                                                       cycle.
    Establishing controls over modifications to information system components and related documentation
    helps to ensure that only authorized systems and related program modifications are implemented. This
    is accomplished by instituting policies, procedures, and techniques to ensure that hardware, software                                          121




                                                                                                                              www.uspto.gov
      INDEP ENDENT AUDI TO R S’ R EP O RT




          United States Patent and Trademark Office
          Independent Auditors’ Report
          November 7, 2012
          Page 7 of 7



              and firmware programs, and program modifications are properly authorized, tested, and approved, and
              that access to and distribution of programs is carefully controlled. Without proper controls, there is a
              risk that security features could be inadvertently or deliberately omitted or turned off, or that
              processing irregularities or malicious code could be introduced into the IT environment.
              During fiscal year 2012, we noted that configuration management controls should be improved at
              USPTO, primarily in the areas of: (1) addressing patch and configuration management vulnerabilities,
              and (2) improving configuration and change management system specific procedures. We recognize
              that USPTO has certain compensating controls in place to help reduce the risk of the identified
              weaknesses, and we have considered such compensating controls as part of our USPTO financial
              statement audit.
          Recommendations
          Specific recommendations are included in a separate limited distribution IT general controls report, issued
          as part of the USPTO fiscal year 2012 financial statement audit. USPTO management should monitor
          actions to ensure effective implementation of our recommendations.
          Management’s Response
          We agreed with the auditors' findings, conclusions, and recommendations related to improving the
          USPTO's financial management systems controls. The USPTO is in the process of developing corrective
          action plans to address the recommendations presented in the separate limited distribution IT general
          controls report.




122




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
Other Accompanying
         Information
      Inspector
      United States General’s   Top
                    Patent and Trademark Office
      Schedule of Spending
      Management    Challenges
      For the years ended September 30, 2012 and 2011

      (Dollars in Thousands)                                        2012            2011
      What Money is Available to Spend?
      Total Resources                                           $   2,612,627   $   2,338,600
      Less Amount Not Agreed to be Spent                            	237,873        	177,705
      Total Amounts Agreed to be Spent                          $   2,374,754   $   2,160,895

      How was the Money Spent?
        Payroll                                                 $   1,598,013   $   1,468,250
        Rent, Communications, & Utilities                             119,925         113,787
        Travel                                                          3,209           2,105
        Supplies                                                       38,406          30,181
        Equipment                                                     105,069          77,062
        Land, Buildings, & Structures                                   2,038           2,529
        Contractual Services                                          362,229         332,180
        Printing                                                      101,903          89,492
        Other                                                           1,472           1,864
      Total Spending                                            $   2,332,262   $   2,117,449

      Amounts Remaining to be Spent                             $     42,492    $     43,446
      Total Amounts Agreed to be Spent                          $   2,374,754   $ $2,160,895

      Who did the Money go to?
      Federal Government                                        $     198,850   $     183,280
      Non-Federal                                                   2,175,905       1,977,616
      Total Amounts Agreed to be Spent                          $   2,374,754   $   2,160,895

      How was the Money Given?
      Contracts                                                 $     760,431   $     674,050
      Direct Payments                                               1,613,088       1,485,273
      Other                                                             1,235           1,573
      Total Amounts Agreed to be Spent                          $   2,374,754   $   2,160,895
124




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
Inspector General’s
          General’sTop
                     TopManagement
Management
Challenges Facing
              Challenges
                    the USPTO

E
     ach year, the Inspector General provides the         and management oversight of day-to-day opera-
     management challenges for the Department of          tions, actions taken in line with the second
     Commerce in accordance with the provisions of        Department-wide challenge to increase oversight
the Reports Consolidation Act of 2000 (Pub. L. No. 106-   of resources entrusted by the public and invest for
531). The IG’s statement of management challenges         long-term benefits.
can be found below.
                                                          The USPTO is also responsible for strengthening and
The USPTO is responsible for resolving several elements   enhancing information technology security on its
within the first Department-wide management chal-         infrastructure in support of resolving the third
lenge – Stimulate Economic Growth in Key Industries,      Department-wide management challenge. In addi-
Increase Exports, and Enhance Stewardship of Marine       tion, improvements have been identified for long-term
Fisheries. Reducing the patent application backlog,       technical and acquisition planning of the PE2E
improving processing times, and effectively imple-        project. PE2E is the largest, most complex multi-year
menting patent reform will help to support the            IT investment USPTO has undertaken in several years.
Departments’ overarching goals of advancing eco-          These improvements will help support the delivery of
nomic growth. Long waits for application decisions        cost savings and efficiencies on major IT investments,
could negatively impact innovation, economic devel-       an additional component of the third Department-
opment, and job growth, inhibiting U.S. companies         wide management challenge to strengthen security
from exporting until they procure the appropriate         and investments in IT.
patents for their products.
                                                          In addition, the USPTO continues to review its internal
Recent concerns over conference spending and              controls with the goal of strengthening its acquisition
unauthorized reprogramming of funds have high-            and contract management practices, a component
lighted the importance of strong internal controls        of the overall fourth Department-wide management
and the continued need for effective oversight.           challenge of implementing a framework for acquisi-
The USPTO has begun taking action towards imple-          tion project management and improve contract
menting new initiatives to improve internal controls      oversight.




                                                                                                                    125




                                                                                                  www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




126   Note: The USPTO is required to include the entire Department of Commerce Office of the Inspector General’s Top Management Challenges
      Report. The part of the Top Management Challenges Report directly discussing the USPTO can be found on (PAR) Pages 130 and 131 of this
      Performance and Accountability Report.



      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 127




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




128




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 129




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




130




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 131




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




132




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 133




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




134




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 135




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




136




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 137




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




138




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 139




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




140




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 141




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




142




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 143




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




144




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 145




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




146




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 147




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




148




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 149




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




150




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 151




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




152




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 153




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




154




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 155




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




156




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 157




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




158




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 159




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




160




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 161




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




162




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 163




                            www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




164




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                                 165




                            www.uspto.gov
      Summary of Financial Statement
      Audit and Management Assurances
      Table 1. – Summary of Financial Statement Audit

      Audit Opinion               Unqualified
      Restatement                 No
        Material Weaknesses           Beginning Balance        New          Resolved       Consolidated       Ending Balance
      	NONE                                  0                  0               0               0                       0
      Total Material Weaknesses              0                  0               0               0                       0

      Table 2. – Summary of Management Assurances

                      Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
      Statement of Assurance      Unqualified
        Material Weaknesses       Beginning Balance       New        Resolved    Consolidated    Reassessed     Ending Balance
      	NONE                                  0             0            0              0             0                      0
      Total Material Weaknesses              0             0            0              0             0                      0
                           Effectiveness of Internal Control over Operations (FMFIA § 2)
      Statement of Assurance      Unqualified
        Material Weaknesses       Beginning Balance       New        Resolved    Consolidated    Reassessed     Ending Balance
      	NONE                                  0             0            0              0             0                      0
      Total Material Weaknesses              0             0            0              0             0                      0
                 Conformance with Financial Management System Requirements (FMFIA § 4)
      Statement of Assurance      Systems conform to financial management system requirements
         Non-Conformances         Beginning Balance       New        Resolved    Consolidated    Reassessed     Ending Balance
      	NONE                                  0             0            0              0             0                      0
      Total Material Weaknesses              0             0            0              0             0                      0
                  Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                            Agency                            Auditor
      Overall Substantial Compliance                                            Yes                            Yes
      1. System Requirements                                                    Yes                            Yes
166   2. Accounting Standards                                                   Yes                            Yes
      3. USSGL at Transaction Level                                             Yes                            Yes



          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
Improper Payments Information
Act (IPIA) of 2002, as amended

I
   PIA of 2002, as amended by the Improper Payments        entity’s programs/activities also include assess-
   Elimination and Recovery Act of 2010, requires          ments of the corporate control and procurement
   agencies to annually estimate and report on             environment. The improper payments program/
improper payments and agency actions to reduce             activity risk assessment has revealed no risk-suscep-
them to the President and Congress. A review of            tible programs.
all programs and activities that the USPTO admin-
isters is performed annually to assist in identifying      The results of the USPTO assessments revealed no
and reporting erroneous or improper payments.              risk-susceptible programs, and demonstrated that,
The USPTO has not identified any significant problems      overall, the USPTO has strong internal controls over
with improper payments. However, the USPTO recog-          disbursement processes, the amount of improper
nizes the importance of maintaining adequate               payments by the USPTO is immaterial, and the risk of
internal controls to ensure the accuracy and integrity     improper payments is low. An estimated improper
of payments made by the agency, and the USPTO              payment rate, accordingly, was deemed not
maintains a strong commitment to continuous                necessary.
improvement in the overall disbursement manage-
ment process. For FY 2013 and beyond, the USPTO            During FY 2012, the USPTO did not have any erroneous
will continue its efforts to ensure the integrity of its   payments that exceeded the ten million dollar
disbursements.                                             threshold. The USPTO continuously seeks to identify
                                                           overpayments and erroneous payments by reviewing
The USPTO annually conducts an assessment of the           (1) credit memos and refund checks issued by
effectiveness of internal control over financial           vendors or customers and (2) undelivered electronic
reporting, in compliance with OMB Circular A-123,          payments returned by financial institutions.
Management’s Responsibility for Internal Control.
Furthermore, the FY 2010 assessment included a             During FY 2008, the USPTO initiated an internal
review of internal controls over disbursement              recovery audit program. Under this program, a letter
processes, which indicated that current internal           similar to that sent by our recovery audit contractor
controls over disbursement processes are sound.            is sent to vendors on a rotational basis. This program
                                                           excludes grants, travel payment, purchase card
The USPTO completes an annual improper payments            transactions, inter-agency agreements, government
risk assessment covering all of its programs/activi-       bills of lading, and gift and bequest transactions.
ties as required by OMB Circular A-123, Appendix C.        This program continued through FY 2012. There were
These improper payments risk assessments of the            no items identified as recoverable.                      167




                                                                                                  www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




                                Improper Payment Reduction Outlook (Dollars in Millions)
                                      FY 2011                              FY 2012               FY 2013      FY 2014     FY 2015
                           Outlays    Improper      Improper   Outlays     Improper   Improper   Estimated   Estimated   Estimated
                                      Payment       Payment                Payment    Payment     Outlays     Outlays     Outlays
          Program                      Percent       Dollars                Percent    Dollars
       Patent             $	1,886      0.00%        $	—        $	2,090      0.05%     $	1.10     $	2,474      $	2,660     $	2,738
       Trademark              189      0.00%        	—            202       0.05%        0.10        240           258       265
       Intellectual            42      0.00%        	—             40       0.05%        0.02          47           51        52
       Property
       Total              $	2,117      0.00%        $	—        $	2,332      0.05%     $	1.22     $	2,761      $	2,969     $	3,055



      During FY 2012, the USPTO entered into an agreement
                                                                          FY 2012 Summary of Recovery Audit Effort
      with the DOC to use an existing contract for recovery
      audit services. The audit was limited to obligations                                 (Dollars in Millions)
      closed after September 30, 2009 and through April 30,              Amount subject to review                        $	 578.2
      2012, and greater than $0.1 million. Further excluded              # of invoices                                   	 9,489
      were grants, travel payments, payments to employees,
      purchase card transactions, inter-agency agree-                    In FY 2012, the USPTO continued its reporting proce-
      ments, government bills of lading, and gift and                    dures to senior management and to the Department
      bequest transactions.                                              of Commerce on improper payments, identifying the
                                                                         nature and magnitude of any improper payments,
      The audit is currently underway. To-date, the audit has            along with any necessary control enhancements to
      not resulted in any invoices that have been identified             prevent further occurrences of the types of improper
      as potentially recoverable improper payments.                      payments identified.
      No amounts were recovered as of the end of FY 2012.




168




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
The Nature of the Training
Provided to USPTO Examiners

A
         chieving organizational excellence demands      technical training was conducted throughout the
         a high-performance workforce that delivers      examining operations. This specific training either
         high quality work products and provides         focuses on practices particular to a technology or
customer service excellence. Training is a critical      was developed to address training needs identified
component in achieving consistently high quality         through patent and trademark examination reviews
products and services. Patent examiners and              or staff requests.
trademark examining attorneys received extensive
legal, technical, and automation training in FY 2012.    The USPTO training staff works with the Patent and
The USPTO has a comprehensive training program for       Trademark organizations to address specific training
new patent examiners and trademark examining             concerns and serve as consultants to design specific
attorneys, embedding a well-established curriculum       internal programs to fit the education needs of each
including initial legal training, automation training,   business unit. Training is reviewed and evaluated on
and training in examination practice and procedure.      an ongoing basis to ensure it is up-to-date and that
Automation training is provided to all examiners as      coursework reflects developments and changes
new systems are deployed and existing systems are        that have taken place in the industry.
enhanced. New technology-specific legal and




                                                                                                                169




                                                                                               www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




                                                     PATENT EXAMINER TRAINING

       U.S. Patent Training Academy            Training in the Academy
       –	 Mandatory training for first
       year examiners                          Two new patent examiner training programs: Intellectual Property Experienced
                                               Examiner Training and an Entry Level Training, a two-phased program completed
                                               in 12 months.

                                               ■■   Intellectual Property Experienced Examiner Training Curriculum
                                                    This curriculum includes enhanced instruction in legal, procedural, and
                                                    automation training, in areas such as: more than a dozen specialized
                                                    applications used in patent examination, multiple search systems,
                                                    databases, and commonly used office applications such as: Classification
                                                    Systems, Searching (classification, text), Claim Interpretation, Advanced
                                                    Text Searching, Technology Center (TC) Specific tools such as STN and
                                                    Dialog, Writing an Effective Examiner’s Answer, Appeal Procedure, and
                                                    Practice (Appeal Conference and Pre-Conference; Prevent Administrative
                                                    Remand).

                                               ■■   Entry Level Two-Phased 12-Month New Examiner Training Curriculum
                                                    The legal and procedural training of this curriculum includes enhanced
                                                    instruction in areas such as: Classification Systems, Searching (classification,
                                                    text), Claim Interpretation, Advanced Text Searching, Writing an Effective
                                                    Examiner’s Answer, Appeal Procedure, and Practice (Appeal Conference
                                                    and Pre-Conference; Prevent Administrative Remand).

                                                    Technical training includes: Introduction to examining applications in specific
                                                    areas of technology, the current state of specific technologies, ongoing
                                                    technology topics, etc.

                                                    Automation training includes classes in more than a dozen specialized
                                                    applications used in patent examination, multiple search systems, databases,
                                                    and commonly-used office applications.

                                                    Life skills training includes: time management, ethics training, stress
                                                    management, balancing quality and production, professionalism, benefits
                                                    and financial planning basics, balancing work and personal life, diversity
                                                    training, and negotiating conflict.

                                               Individual Development Plan

                                               The Academy training program includes creating an Individual Development
                                               Plan (IDP) for each examiner. The IDP is composed of formal training courses,
                                               development assignments, and on-the-job training. The IDP is designed to
                                               assist the examiner from day one, through the first 12 months of employment.
                                               When the examiner graduates from the Academy, and is transferred to a TC,
                                               the IDP will continue to enable the examiner to acquire the competencies
                                               essential to perform assigned duties and to prepare for further development.




170




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                   OT H E R AC C O M PA N Y IN G IN F O R MAT ION




                                     PATENT EXAMINER TRAINING ( Continued)

Programs for all Examiners              Legal Practice and Procedure Training
                                        ■■   Patent Examiner Refresher Training
                                             Courses developed to enhance patent examiners’ knowledge and skills in
                                             procedural and legal topics pertaining to patent examination. Participants
                                             may enroll in one or more courses in consultation with their supervisor.

                                        ■■   Legal Lecture Series
                                             Training offered periodically to patent examiners based on major court
                                             decisions and office policies.

                                        ■■   In-House Patent Law and Evidence Course
                                             Training for Patent examiners on authoritative court decisions on statutory
                                             issues under 35 U.S.C. §§ 101, 102, 103, and 112 and the handling of evidence
                                             during the examination of applications.

                                        ■■   Negotiating in the Patent Examination Process
                                             An interactive lecture and workshop designed to teach the fundamentals
                                             of negotiating issues which arise during the patent examination process
                                             utilizing effective collaborative communication skills.

                                        ■■   Patent Examiner Technical Training Program
                                             This program seeks public assistance in providing technical training to patent
                                             examiners within all technology centers. The Patent Examiner Technical
                                             Training Program is intended to provide scientists and experts as lecturers
                                             to patent examiners in order to update them on technical developments,
                                             the state of the art, emerging trends, maturing technologies, and recent
                                             innovations in their fields. Such guest lecturers must have relevant technical
                                             knowledge, as well as familiarity with prior art and industry practices/
                                             standards in areas of technologies where such lectures would be beneficial.

                                        ■■   Site Experience Education Program
                                             This program provides examiners the opportunity to visit real-world sites,
                                             such as Universities or Industries. They receive direct hands-on education
                                             specific to the technology area they work in. This program seeks to put
                                             experts such as innovators, experts, scientists, and engineers together with
                                             the examiners at the sites where innovation is happening.

                                        ■■   Continuing Education Series
                                             Training for patent examiners to enhance their technical and legal
                                             knowledge in the examination of patent applications.

                                             Courses Offered:
                                             ■■ Non-Duty Hours Legal Studies Program (Budget Dependent)1
                                             ■■ Non-Duty Hours Technical Training Program (Budget Dependent)1
                                             ■■ Technology Center Specific Technological Training (Budget Dependent)1
                                             ■■ Updated Automation Tools Training (in coordination with Office of Patent
                                                Information Management)
                                             ■■ Brown Bag Informational Seminars
                                             ■■ Patent Administrative Professional Training
                                             ■■ Patent Examiner’s Initial Training for Non-Examiners
                                             ■■ Legal Secretaries and Administrators Conference                                     171

1	   These programs remained suspended during FY 2012 due to budget constraints.


                                                                                                               www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




                                         TRADEMARK EXAMINING ATTORNEY TRAINING

       In FY 2012 the Trademark organization prepared, using data gathered from the results of quality reviews that were
       analyzed, the content of online e-learning training materials for trademark examining attorneys. Live and web cast
       Training Sessions and Modules were developed and released covering the following list of topics.

             ■■   Trademark Manual of Examining Procedures Eighth Edition – Training
             ■■   ID/Class Nice Tenth Edition – Training
             ■■   Review of Trademark Counterfeiting Issues
             ■■   Review of Recent Federal Court Cases Regarding Trademarks
             ■■   Industry training on trademark issues on Watch Services and Policing
             ■■   Industry training on trademark issues in the Computer industry sponsored by the International Trademark
                  Association
             ■■   Examiner-Led Section 2(e)(4)/Surname Refusals Workshop
             ■■   TEALE – New Examining Attorney Training
             ■■   UL Deployment Training

       Law Office Presentations and Computer-Based Training Modules were developed and released covering the
       following list of topics.

             ■■   Disclaimer Writing
             ■■   Searching in X-Search
             ■■   2(d) Excellent Office Actions

       Four Exam Guides are expected to publish:

             ■■   Examination Guide 1-12 – Additional Considerations for Determining Whether Wording in a Mark Comprises
                  a Unitary Phrase or Slogan for Purposes of Disclaimer).
             ■■   Examination Guide – Universal Symbols Issues
             ■■   Examination Guide – Web-Based Specimens
             ■■   Examination Guide – Swiss Cross/Coat of Arms

       Other Guidance covering the following topics was also published and released.

             ■■   Section 2(d) Excellent Office Action Writing and Samples
             ■■   Revision of Section 2(e) Excellent Office Action Writing and Samples
             ■■   Revision of Identification of Goods and Services Writing and Samples
             ■■   Revision of Excellent Office Action General Considerations for All Office Actions
             ■■   Title of a Single Work Sample
             ■■   Revision and standardization of all Excellent Office Action Samples
             ■■   Updated International Class Guides




172




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
Measures that Have Been Either
Discontinued or Changed Since
the FY 2011 PAR

       MEASURES THAT HAVE BEEN EITHER DISCONTINUED OR CHANGED SINCE THE FY 2011 PAR
Strategic Goal    Optimize patent quality and timeliness
Corresponding     ■■   Final Disposition Compliance Rate
Measures          ■■   Patent In-process Compliance Rate

Change            USPTO replaced these measures with:
                  ■■ Patent Quality Composite Rate

Justification     This new composite quality metric is composed of seven total factors that take into
                  account stakeholder comments, including three factors drawn from the USPTO’s previous
                  quality measurement procedure, and four new factors that focus upon data never before
                  acquired and/or employed for quality measurement purposes.The factors that have been
                  modified from previous procedure measure: (1) the quality of the action setting forth the
                  final disposition of the application, (2) the quality of the actions taken during the course
                  of the examination, and (3) the perceived quality of the patent process as measured
                  through external quality surveys of applicants and practitioners. The newly added factors
                  measure: (1) the quality of the examiner’s initial search, (2) the degree to which the first
                  action on the merits follows best examination practices, (3) the degree to which global
                  USPTO data is indicative of compact, robust prosecution, and (4) the degree to which
                  patent prosecution quality is reflected in the perceptions of the examination corps as
                  measured by internal quality surveys.




                                                                                                                 173




                                                                                                www.uspto.gov
      FY 2012 USPTO Workload Tables

      Index of Tables                                                                                       Page
      Table 1    Summary of Patent Examining Activities                                                      175
      Table 2    Patent Applications Filed                                                                   176
      Table 3    Patent Applications Pending Prior to Allowance                                              177
      Table 4    Patent Pendency Statistics                                                                  177
      Table 5    Summary of Total Pending Patent Applications                                                178
      Table 6    Patents Issued                                                                              179
      Table 7    Patent Applications Filed by Residents of the United States                                 180
      Table 8    Patents Issued to Residents of the United States                                            181
      Table 9    United States Patent Applications Filed by Residents of Foreign Countries                   182
      Table 10   Patents Issued by the United States to Residents of Foreign Countries                       184
      Table 11   Utility Patents Issued to Small Entities                                                    185
      Table 12   Statutory Invention Registrations Published                                                 186
      Table 13   United States Government Agency Patents                                                     186
      Table 14A Ex Parte Reexamination                                                                       187
      Table 14B Inter Partes Reexamination                                                                   187
      Table 15   Summary of Contested Patent Cases                                                           188
      Table 16   Summary of Trademark Examining Activities                                                   189
      Table 17   Trademark Applications Filed for Registration and Renewal and Trademark Affidavits Filed    190
      Table 18   Summary of Pending Trademark Applications                                                   191
      Table 19   Trademarks Registered, Renewed, and Published Under Section 12(C)                           192
      Table 20   Trademark Applications Filed by Residents of the United States                              193
      Table 21   Trademarks Registered to Residents of the United States                                     194
      Table 22   Trademark Applications Filed by Residents of Foreign Countries                              195
      Table 23   Trademarks Registered to Residents of Foreign Countries                                     197
      Table 24   Summary of Contested Trademark Cases                                                        199
      Table 25   Actions on Petitions to the Director of the U.S. Patent and Trademark Office                200
      Table 26   Cases in Litigation                                                                         201
      Table 27   Patent Classification Activity                                                              202
      Table 28   Scientific and Technical Information Center Activity                                        202
      Table 29   End of Year Personnel                                                                       203
174   Table 30A Top 50 Trademark Applicants                                                                  204
      Table 30B Top 50 Trademark Registrants                                                                 204



      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                            OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 1  	                             SUMMARY OF PATENT EXAMINING ACTIVITIES
		                                             (FY 2008 - FY 2012)
                                                    (PRELIMINARY FOR FY 2012) 1
 Patent Examining Activity                                            2008           2009          2010          2011          2012
 Applications filed, total1,2                                        496,886     486,499         510,060       537,171        565,566
 	Utility3                                                           466,258         458,901      479,332       504,663       530,915
 	Reissue                                                              1,080           1,035        1,138         1,158         1,212
 	Plant                                                                1,331             988        1,013         1,103         1,181
 	Design                                                              28,217          25,575       28,577        30,247        32,258
 Provisional applications filed2,4                                   143,034     134,438         140,551       150,187        163,040

 First actions
 	Design                                                              28,756          27,858       26,051        25,042        26,578
 	 Utility, Plant, and Reissue                                       422,065         469,946      447,485       505,651       542,081
 	PCT/Chapter                                                         51,300          20,797       15,574        13,297        18,400
 Patent application disposals, total                                 396,228     487,140         553,549       533,943        574,854
 Allowed patent applications, total                                  187,607     214,523         264,119       266,580        305,840
 	Design                                                              24,735          25,403       23,681        22,683        24,231
 	 Utility, Plant, and Reissue                                       162,872         189,120      240,438       243,897       281,609
 Abandoned, total                                                    208,610     272,607         289,419       267,353        269,009
 	Design                                                               2,936           3,840        3,101         2,701         2,567
 	 Utility, Plant, and Reissue                                       205,674         268,767      286,318       264,652       266,442
 Statutory invention registration disposals, total                        11             10             11            10              5
 PCT/Chapter II examinations completed                                 2,937          3,468         2,265         3,191         2,671
 Applications      published5                                        309,194     325,988         338,452       321,115        328,620
 Patents issued2,6                                                   182,556     190,122         233,127       244,430        270,258
 	Utility                                                            154,699         165,213      207,915       221,350       246,464
 	Reissue                                                                662             398          861           969           921
 	Plant                                                                1,179           1,096          978           816           920
 	Design                                                              26,016          23,415       23,373        21,295        21,953
 Pendency time of average patent application7                           32.2            34.6         35.3          33.7          32.4
 Reexamination certificates issued                                       575             698          776           909           893
 PCT international applications received by USPTO as                  54,488          47,572       45,701        48,285        52,417
 receiving office
 National requirements received by USPTO as                           57,345          57,879       61,587        65,463        67,573
 designated/elected office
 Patents renewed under Pub. L. No. 102-204 8                         353,923         304,096      361,668       378,830       308,812
 Patents expired under Pub. L. No. 102-204 8                          67,127          66,330       79,993        82,146        80,050

1	   FY 2012 filing data are preliminary and will be finalized in the FY 2013 PAR.
2	   FY 2011 application data has been updated with final end of year numbers.
3	   Utility patents include chemical, electrical and mechanical applications.
4	   Provisional applications provided for in Pub. L. No. 103-465.
5	   Eighteen-month publication of patent applications provided for the American Inventors Protection Act of 1999, Pub. L. No.106-113.
6	   Excludes withdrawn numbers. Past years’ data may have been revised from prior year reports.
7	   Average time (in months) between filing and issuance or abandonment of utility, plant, and reissue applications.
     This average does not include design patents.	                                                                                          175
8	   The provisions of Pub. L. No.102-204 regarding the renewal of patents superseded Pub. L. No. 96-517 and Pub. L. No. 97-247.




                                                                                                                        www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 2  	                                    PATENT APPLICATIONS FILED
       		                                                (FY 1992 - FY 2012)
                                                         (PRELIMINARY FOR FY 2012) 1
                Year                 Utility              Design                 Plant     Reissue    Total
                1992                171,623                12,907                    335     581     185,446
                1993                173,619                13,546                    362     572     188,099
                1994                185,087                15,431                    430     606     201,554
                1995                220,141                15,375                    516     647     236,679
                1996                189,922                15,160                    557     637     206,276
                1997                219,486                16,272                    680     607     237,045
                1998                238,850                16,576                    658     582     256,666
                1999                259,618                17,227                    759     664     278,268
                2000                291,653                18,563                    786     805     311,807
                2001                324,211                18,636                    914     956     344,717
                2002                331,580                19,706                1,134       974     353,394
                2003                331,729                21,966                    785     938     355,418
                2004                353,319                23,457                1,212       996     378,984
                2005                381,797                25,304                1,288      1,143    409,532
                2006                417,453                25,853                1,204      1,103    445,613
                2007                439,578                26,693                1,002      1,057    468,330
                2008                466,258                28,217                1,331      1,080    496,886
                2009                458,901                25,575                    988    1,035    486,499
                2010                479,332                28,577                1,013      1,138    510,060
                20112               504,663                30,247                1,103      1,158    537,171
                20121              530,915                32,258                 1,181     1,212     565,566
       1	   FY 2012 data are preliminary and will be finalized in the FY 2013 PAR.
       2	   FY 2011 application data has been updated with final end of year numbers.




176




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                      OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 3  	                        PATENT APPLICATIONS PENDING PRIOR TO ALLOWANCE1
	                                                 (FY 1992 - FY 2012)
                    Year                         Awaiting Action by Examiner                Total Applications Pending2
                    1992                                    112,201                                     269,596
                    1993                                     99,904                                     244,646
                    1994                                    107,824                                     261,249
                    1995                                    124,275                                     298,522
                    1996                                    139,943                                     303,720
                    1997                                    112,430                                     275,295
                    1998                                    224,446                                     379,484
                    1999                                    243,207                                     414,837
                    2000                                    308,056                                     485,129
                    2001                                    355,779                                     542,007
                    2002                                    433,691                                     636,530
                    2003                                    471,382                                     674,691
                    2004                                    528,685                                     756,604
                    2005                                    611,114                                     885,002
                    2006                                    701,147                                   1,003,884
                    2007                                    760,924                                   1,112,517
                    2008                                    771,529                                   1,208,076
                    2009                                    735,961                                   1,207,794
                    2010                                    726,331                                   1,163,751
                    2011                                    690,967                                   1,168,928
                    2012                                   633,812                                   1,157,147
1	   Includes patent applications pending at end of period indicated, and includes utility, reissue, plant, and design
     applications. Does not include allowed applications.
2	   Applications under examination, including those in preexamination processing.



TABLE 4  	                                     PATENT PENDENCY STATISTICS
	                                                       (FY 2012)
                                                                                                       Average         Total
                                                                                                     First Action     Average
UPR Pendency Statistics by Technology Center (in months)                                             Pendency        Pendency

Total UPR Pendency                                                                                       21.9            32.4
Tech Center 1600 - Biotechnology & Organic Chemistry                                                     17.8            30.0
Tech Center 1700 - Chemical and Materials Engineering                                                    21.2            32.8
Tech Center 2100 - Computer Architecture, Software & Information Security                                23.3            37.5
Tech Center 2400 - Networks, Multiplexing, Cable & Security                                              24.5            41.1
Tech Center 2600 - Communications                                                                        24.3            37.2
Tech Center 2800 - Semiconductor, Electrical, Optical Systems & Components                               20.5            29.8
Tech Center 3600 - Transportation, Construction, Agriculture & Electronic Commerce                       20.1            31.5
Tech Center 3700 - Mechanical Engineering, Manufacturing & Products                                      24.6            35.7

                                                                                                                                       177




                                                                                                                    www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 5  	                      SUMMARY OF TOTAL PENDING PATENT APPLICATIONS
       	                                                  (FY 2012)
                                                                              Utility, Plant
                                                                             and Reissue         Design       Total Patent
       Stage of Processing                                                   Applications      Applications   Applications

       Pending patent applications, total                                     1,208,648          37,493        1,246,141

       In preexamination processing, total                                        84,419          4,194           88,613

       Under examination, total                                               1,041,598          26,556        1,068,154
            Undocketed                                                           111,454          5,026          116,480
            Awaiting first action by examiner                                    412,410         16,309          428,719
            Subtotal applications awaiting first action by examiner3             608,283         25,529          633,812
            RCE Awaiting First Action                                             95,200       	-                 95,200
            Rejected, awaiting response by applicant                             296,270          4,137          300,407
            Amended, awaiting action by examiner                                  80,850            940           81,790
            In interference                                                            83      	-                     83
            On appeal, and     other1                                             45,331            144           45,475

       In post-examination processing, total                                      82,631          6,743           89,374
       	    Awaiting issue fee                                                    66,982          5,118           72,100
       	    Awaiting   printing2                                                  12,370          1,623           13,993
       	    D-10s (secret cases in condition for allowance)                        3,279              2            3,281
       1	   Includes cases on appeal and undergoing petitions.
       2	   Includes withdrawn cases.
       3	   Subtotal is not included in pending patent applications total.




178




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                               OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 6  	                                            PATENTS ISSUED
	                                                   (FY 1992 - FY 2012)1
         Year                Utility2             Design               Plant          Reissue                 Total
         1992                99,406                9,612                336             375                109,729
         1993                96,675                9,946                408             302                107,331
         1994              101,270               11,138                 513             346                113,267
         1995              101,895               11,662                 390             294                114,241
         1996              104,900               11,346                 338             291                116,875
         1997              111,977               10,331                 400             267                122,975
         1998              139,297               14,419                 577             284                154,577
         1999              142,852               15,480                 436             393                159,161
         2000              164,486               16,718                 453             561                182,218
         2001              169,571               17,179                 563             504                187,817
         2002              160,839               15,096                 912             465                177,312
         2003              171,493               16,525                1,178            394                189,590
         2004              169,295               16,533                 998             343                187,169
         2005              151,077               13,395                 816             195                165,483
         2006              162,509               19,072                1,106            500                183,187
         2007              160,306               22,543                 979             548                184,376
         2008              154,699               26,016                1,179            662                182,556
         2009              165,213               23,415                1,096            398                190,122
         2010              207,915               23,373                 978             861                233,127
         2011              221,350               21,295                 816             969                244,430
         2012              246,464               21,953                 920             921                270,258
1	   Past years’ data may have been revised from prior year reports.
2	   Includes chemical, electrical, and mechanical applications.




                                                                                                                                179




                                                                                                           www.uspto.gov
                 OTHER ACCOM PAN Y I N G I N F O R M ATI O N




      TABLE 7  	                         PATENT APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES1
      	                                                      (FY 2008 - FY 2012)
      State/Territory          2008     2009       2010       20112     20123   State/Territory    2008       2009       2010    20112    20123

      Total                   257,818 246,777 254,895 266,243           N/A     Nebraska             592        504       600      639    N/A
                                                                                Nevada              1,996      1,680     1,785    1,726   N/A
      Alabama                    996        912         977      986    N/A     New Hampshire       1,564      1,510     1,547    1,690   N/A
      Alaska                      88         95         85        96    N/A     New Jersey          9,428      9,622     9,861    9,669   N/A
      Arizona                   4,460     3,927     4,024       4,407   N/A     New Mexico           857        814       863      873    N/A
      Arkansas                   420        418         456      417    N/A     New York           16,838     15,098 15,279      15,935   N/A
      California               66,370   66,132     66,287      70,720   N/A     North Carolina      7,008      5,803     6,053    6,205   N/A
      Colorado                  4,898     5,019     5,244       5,554   N/A     North Dakota         178        207       168      200    N/A
      Connecticut               4,326     4,009     4,229       4,413   N/A     Ohio                7,791      7,528     8,139    8,086   N/A
      Delaware                   922        904         993     1,006   N/A     Oklahoma            1,048      1,052     1,138    1,107   N/A
      District of                262        261         261      322    N/A     Oregon              4,487      3,911     4,203    4,473   N/A
      Columbia                                                                  Pennsylvania        7,951      7,568     8,068    8,085   N/A
      Florida                   8,480     7,839     8,624       8,580   N/A     Rhode Island         740        666       739      753    N/A
      Georgia                   4,946     5,051     5,214       5,307   N/A     South Carolina      1,585      1,596     1,669    1,935   N/A
      Hawaii                     300        293         267      295    N/A     South Dakota         193        220       224      254    N/A
      Idaho                     1,905     1,544     1,635       1,664   N/A     Tennessee           2,010      2,034     2,287    2,275   N/A
      Illinois                  9,340     8,985     9,278       9,770   N/A     Texas              17,339     15,667 16,568      17,310   N/A
      Indiana                   3,345     3,181     3,515       3,726   N/A     Utah                2,516      2,594     2,782    2,907   N/A
      Iowa                      1,641     1,481     1,581       1,585   N/A     Vermont             1,309       616       679      804    N/A
      Kansas                    1,587     1,671     1,678       1,688   N/A     Virginia            3,532      3,402     3,582    3,806   N/A
      Kentucky                  1,215     1,132     1,124       1,364   N/A     Washington         12,602     12,619 12,815      13,764   N/A
      Louisiana                  709        795         882      835    N/A     West Virginia        274        300       292      316    N/A
      Maine                      411        344         415      440    N/A     Wisconsin           4,341      4,054     3,991    4,179   N/A
      Maryland                  3,694     3,503     3,551       3,760   N/A     Wyoming              183        158       198      180    N/A
      Massachusetts            11,534   11,417     12,376      12,931   N/A     Puerto Rico           70         82        67       74    N/A
      Michigan                  8,447     7,881     7,834       8,243   N/A     Virgin Islands        10         11        13        5    N/A
      Minnesota                 8,164     7,805     7,852       7,984   N/A     U.S. Pacific              -          1      1        3    N/A
      Mississippi                320        337         338      336    N/A       Islands4

      Missouri                  2,335     2,285     2,314       2,286   N/A     United States5            3          -      1        2    N/A
      Montana                    258        239         249      273    N/A

      -	   Represents zero.
      1	   Data include utility, plant, design, and reissue applications.
      2	   Finalized data for FY 2008 to 2011 provided.
      3	   FY 2012 preliminary data should be available January 2013 at www.uspto.gov, and finalized in the FY 2013 PAR.
      4	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
      5	   State/Territory information not available.




180




                 PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                     OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 8  	                           PATENTS ISSUED TO RESIDENTS OF THE UNITED STATES1
	                                                   (FY 2011 - FY 2012)4
State/Territory                       20113             2012       State/Territory                   20113             2012

Total                               120,178           131,651     Montana                                134              124
                                                                  Nebraska                               640              845
Alabama                                  460               453    Nevada                                 640              845
Alaska                                      29              42    New Hampshire                          793              824
Arizona                                2,193             2,294    New Jersey                           4,309            4,529
Arkansas                                 206               218    New Mexico                             414              434
California                            30,397           33,886     New York                             8,026            8,395
Colorado                               2,397             2,598    North Carolina                       2,908            3,137
Connecticut                            2,112             2,212    North Dakota                            80              104
Delaware                                 399               503    Ohio                                 3,850            4,129
District of Columbia                     103               134    Oklahoma                               556              493
Florida                                3,730             4,364    Oregon                               2,278            2,470
Georgia                                2,162             2,471    Pennsylvania                         3,702            3,851
Hawaii                                   147               126    Rhode Island                           363              378
Idaho                                  1,098             1,023    South Carolina                         748              938
Illinois                               4,452             5,025    South Dakota                           108              121
Indiana                                1,600             1,931    Tennessee                            1,083            1,083
Iowa                                     832               949    Texas                                8,054            8,731
Kansas                                   752             1,034    Utah                                 1,117            1,336
Kentucky                                 530               614    Vermont                                599              495
Louisiana                                341               433    Virginia                             1,731            1,794
Maine                                    213               211    Washington                           5,227            5,839
Maryland                               1,674             1,693    West Virginia                          104              145
Massachusetts                          5,466             5,983    Wisconsin                            2,128            2,313
Michigan                               4,202             4,950    Wyoming                                 92              101
Minnesota                              4,172             4,229    Puerto Rico                             26               43
Mississippi                              166               168    Virgin Islands                           3                  3
Missouri                               1,013             1,150    United   States2                         1      	-
-	   Represents zero.
1	   Data include utility, design, plant, and reissue patents.
2	   No State indicated in database.
3	   Finalized data for FY 2011 provided.
4	   Past year’s data may have been revised from prior year reports.




                                                                                                                                      181




                                                                                                                 www.uspto.gov
                 OTHER ACCOM PAN Y I N G I N F O R M ATI O N




      TABLE 9  	                 UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES1
      	                                                       (FY 2008 - FY 2012)
      Residence                 2008        2009        2010        20112        20123   Residence            2008    2009   2010   20112    20123
      Total                    239,068 239,722 255,165 270,928                   N/A     Colombia                 35     28     53     68    N/A
                                                                                         Costa Rica               20     18     28     21    N/A
      Afghanistan                       -          1           1            1    N/A     Croatia                  39     35     31     38    N/A
      Albania                           -          1            -            -   N/A     Cuba                     38     23     26     19    N/A
      Algeria                          1            -          1             -   N/A     Curacao4                   -      -      -     1    N/A
      Andorra                          8           5           4            3    N/A     Cyprus                    8     12     18     16    N/A
      Angola4                           -           -           -           2    N/A     Czech Republic          180    245    279    277    N/A
      Anguilla                          -          3            -            -   N/A     Denmark               1,654 1,783 1,852 2,162       N/A
      Antigua &                        1           1           2            3    N/A     Dominican Republic        9      5      7      8    N/A
        Barbuda                                                                          Ecuador                   5      9      5     18    N/A
      Argentina                    139         151         141         159       N/A     Egypt                    53     33     55     58    N/A
      Armenia                        9           2           8           8       N/A     El Salvador                -     1      1      1    N/A
      Aruba                           -           -           -          2       N/A     Estonia                  35     36     52     62    N/A
      Australia                  4,194       4,211       4,111       4,174       N/A     Ethiopia                   -      -     1       -   N/A
      Austria                    1,785       1,713       1,872       1,964       N/A     Faroe Islands              -      -     1       -   N/A
      Azerbaijan                     1           3           5           1       N/A     Fiji                       -     1       -      -   N/A
      Bahamas                       20          16          15           8       N/A     Finland               2,782 2,793 2,908 2,574       N/A
      Bahrain                         -          2           5           1       N/A     French Polynesia           -      -      -     1    N/A
      Bangladesh                     1            -          2           5       N/A     France                9,281 9,726 10,641 11,436     N/A
      Barbados                       7           6           8           2       N/A     Georgia                   5      2      5      6    N/A
      Belarus                       11           7          11           7       N/A     Germany              26,331 26,855 28,157 29,543    N/A
      Belgium                    1,748       1,917       2,186       2,344       N/A     Ghana                     1      3      2      4    N/A
      Belize                         4           1            -           -      N/A     Gibraltar                 3      7      7      7    N/A
      Benin                          1            -           -           -      N/A     Greece                  128    118    138    139    N/A
      Bermuda                        8           8           5          11       N/A     Greenland                 4       -      -      -   N/A
      Bolivia                        3           4           1           1       N/A     Guatemala                 2      2      8      2    N/A
      Bonaire, Saint                  -           -           -          2       N/A     Guernsey4                  -      -      -     1    N/A
        Eustatius, and                                                                   Guinea                     -     1       -      -   N/A
        Saba4                                                                            Haiti                      -      -     1      1    N/A
      Bosnia &                         6            -          1            2    N/A     Honduras                  1      1      1      1    N/A
        Herzegovina                                                                      Hungary                 203    234    251    245    N/A
      Brazil                       499         497         584         684       N/A     Iceland                  41     49     52     63    N/A
      British Virgin Islands        10          11           3           3       N/A     India                 2,869 2,878 3,696 4,482       N/A
      Brunei Darussalam               -          1           1            -      N/A     Indonesia                25     19     27     21    N/A
      Bulgaria                      83         114          89          70       N/A     Iran                     28     29     67     87    N/A
      Burundi                        1            -           -           -      N/A     Iraq                      1      1       -      -   N/A
      Cameroon                       1           9           5           2       N/A     Ireland                 740    711    785    901    N/A
      Canada                    11,436      11,250      12,203      12,921       N/A     Isle of Man                -      -     2      4    N/A
      Cayman Islands                 6          10          25          17       N/A     Israel                4,916 4,772 5,119 5,666       N/A
      Chad                            -           -           -          1       N/A     Italy                 4,273 4,460 4,576 4,947       N/A
      Chile                         63          65          68         122       N/A     Jamaica                  12     11      3      7    N/A
      China (Hong Kong)          1,419       1,254       1,267       1,379       N/A     Japan                84,473 86,456 84,842 88,861    N/A
      China (Macau)                  5           5           7          16       N/A     Jersey                     -      -     9      9    N/A
      China (People's            5,148       5,301       8,358      10,562       N/A     Jordan                    8     14      5     16    N/A
         Republic)                                                                       Kazakhstan                2      3      8      4    N/A



182




                PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                             OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 9 CONT.  	           UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES1
	                                                       (FY 2008 - FY 2012)
Residence                      2008    2009     2010     20112    20123      Residence                     2008     2009     2010     20112      20123
Kenya                        4      4      2     10                N/A        Romania                         47     58     64    102            N/A
Korea, Dem. Republic of      2      1       -      -               N/A        Russian Federation             531    498    600    741            N/A
Korea, Republic of      25,507 24,066 26,648 28,474                N/A        Samoa                            4      1      2       -           N/A
Kuwait                      18     39     49     71                N/A        San Marino                        -     3      1      1            N/A
Latvia                       6     15     19     10                N/A        Saudi Arabia                    90    153    267    337            N/A
Lebanon                     11     17      8     28                N/A        Serbia                          16      5     27     23            N/A
Libya                         -     1       -      -               N/A        Seychelles                       1      1      1      4            N/A
Liechtenstein               35     42     40     39                N/A        Singapore                    1,376 1,278 1,490 1,655               N/A
Lithuania                   13     13     13     16                N/A        Slovakia                        36     30     42     36            N/A
Luxembourg                 102     94     92    112                N/A        Slovenia                        71     69    111     98            N/A
Macedonia                     -     2       -      -               N/A        South Africa                   319    323    356    361            N/A
Malaysia                   326    325    387    426                N/A        Spain                        1,294 1,224 1,470 1,597               N/A
Malta                       10     11     10      5                N/A        Sri Lanka                       16     12     14      9            N/A
Mauritius                    1       -     1      1                N/A        Sweden                       3,508 3,610 3,906 4,319               N/A
Mexico                     269    244    316    351                N/A        Switzerland                  3,681 3,714 4,168 4,328               N/A
Moldova                      1      1      1       -               N/A        Syria Arab Rep                   1      2       -     3            N/A
Monaco                      16     21     21     43                N/A        Taiwan                      19,733 17,974 21,282 21,678            N/A
Mongolia4                     -      -      -     4                N/A        Thailand                       127    116    111    148            N/A
Morocco                     11      6      4      6                N/A        Trinidad & Tobago                6      8     12      8            N/A
Namibia                      1       -      -     1                N/A        Tunisia                          9      5      5      6            N/A
Nepal                         -     2       -     1                N/A        Turkey                         103    113    142    189            N/A
Netherlands              4,240 4,510 4,639 4,893                   N/A        Turkmenistan                      -     1       -      -           N/A
Netherlands Antilles         1      4      1       -               N/A        Turks and Caicos                 2      1      2       -           N/A
New Zealand                580    579    658    613                N/A           Islands
Niger                         -      -     1       -               N/A        Ukraine                         46     61     67     92            N/A
Nigeria                      1      2      7      5                N/A        United Arab Emirates            30     54     45     58            N/A
Norway                     856    871 1,024 1,026                  N/A        United Kingdom              10,795 11,205 11,852 12,149            N/A
Oman                         5      4      7      5                N/A        Uruguay                         13     27     16     16            N/A
Pakistan                    21      7     20     29                N/A        Uzbekistan                        -     1       -      -           N/A
Panama                      12      6      3      6                N/A        Vanuatu (New                     4       -     2      1            N/A
Paraguay                     1       -      -     2                N/A          Hebrides)
Peru                         9      5      8     16                N/A        Venezuela                       27       32       35         26    N/A
Philippines                 72     61     84     99                N/A        Vietnam                         13        4       10          9    N/A
Poland                     122    150    178    249                N/A        West Bank/Gaza                    -        -       1           -   N/A
Portugal                    91     87    113    115                N/A        Zimbabwe                         2        2         -         4    N/A
Qatar                         -     4      2     20                N/A
-	   Represents zero.	
1	   Data include utility, design, plant, and reissue applications. Country listings include possessions and territories of that country
     unless listed separately in the table. Data are subject to minor revisions.
2	   FY 2011 data are updated and final.
3 	 FY   2012 preliminary data should be available in January 2013 at www.uspto.gov, and finalized in the FY 2013 PAR.
4	   Countries/Territories not previously reported.




                                                                                                                                                         183




                                                                                                                           www.uspto.gov
                   OTHER ACCOM PAN Y I N G I N F O R M ATI O N




      TABLE 10      	                 PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1,3
      	                                                         (FY 2008 - FY 2012) 2
      Residence                    2008       2009       2010       2011       2012       Residence            2008      2009   2010     2011      2012
      Total                        90,713     96,395 117,264        124,252    138,607    Egypt                     6       2      14        19        32
                                                                                          El Salvador                -      -     1            -         -
      Albania                             -          -          -          1          -   Estonia                   2      4     11          14        37
      Algeria                            -         -         1            -          -    Finland                 894    974 1,223        1,030     1,111
      Andorra                           1         2          8           4          2     France                3,683 3,836 4,835         5,024     5,616
      Angola                             -         -          -           -         1     French Polynesia           -     1       -           -         -
      Anguilla                           -        1           -          1          1     Georgia                   3      1      2           2         2
      Antigua and Barbuda               1          -         1            -         6     Germany               9,794 10,279 12,916      13,020    14,569
      Argentina                        46        47         60          49         58     Ghana                      -      -     1           1         3
      Armenia                           1         1          2           4          5     Gibralter                 3      1       -          3         6
      Australia                     1,485     1,717      1,940       2,213      1,777     Greece                   25     26     59          57        80
      Austria                         572       729        850         916        986     Greenland                  -     3       -           -         -
      Azerbaijan                        2          -          -          1          2     Guatemala                 4      1      2            -        2
      Bahamas                           5         6          9          12          7     Guernsey                   -     1      1           2         5
      Bahrain                            -         -         1            -         1     Haiti                      -      -      -           -        1
      Bangladesh                        1          -          -           -         1     Honduras                   -      -      -          1          -
      Barbados                          2         3          2           2           -    Hungary                  68     53     92         103       107
      Belarus                           8         6          7           4          6     Iceland                  23     26     22          27        26
      Belgium                         602       677        853         945        996     India                   650    678 1,076        1,195     1,599
      Belize                             -        1           -           -          -    Indonesia                21     20      5          10        12
      Bermuda                           1          -         2           5          4     Iran                      3      6      7          15        26
      Bolivia                           1          -         1           1           -    Iraq                      1       -      -           -         -
      Bosnia and                         -        2           -           -         2     Ireland                 174    180    259         313       329
        Herzegovina                                                                       Isle of Man               5     11     11          13        17
      Brazil                          131       146        209         232        261     Israel                1,322 1,426 1,828         2,054     2,432
      British Virgin Islands            1         4           -          1           -    Italy                 1,890 1,842 2,150         2,322     2,458
      Brunei Darussalam                  -        1           -          1           -    Jamaica                   2      4      4           2         3
      Bulgaria                         18        31         57          45         30     Japan                35,847 37,879 44,893      47,674    51,609
      Burkina Faso                       -        1           -           -          -    Jersey                    5       -     1           3         5
      Cameroon                           -        1          4            -         2     Jordan                    1      1       -          4         5
      Canada                        4,052     4,361      5,225       5,687      6,197     Kazakhstan                 -     2      1            -        1
      Cayman Islands                    2         1          3           4          7     Kenya                     2      6      4           1         2
      Chad                              1          -          -           -          -    Korea, Democratic          -      -      -          1         1
      Chile                            19        28         23          30         41        People's Rep of
      China (Hong Kong)               738       576        726         680        715     Korea, Republic of    8,410    9,401 11,811    12,858    13,956
      China (Macau)                     2         1          2           6          2     Kuwait                   12       12     17        23        26
      China (Mainland)              1,684     2,195      3,059       3,465      5,044     Kyrgyzstan                1         -      -         -         -
      Colombia                          9        11         10          15         18     Latvia                    2        4      5         3         5
      Costa Rica                       17        14         13          14         12     Lebanon                   5        4      5         8        21
      Croatia                          14        19          9          18         23     Liechtenstein            15       20     18        15        16
      Cuba                              6         5          8           4          5     Lithuania                13        4      7        10         3
      Cyprus                            1         2          5           3          2     Luxembourg               40       55     50        41        51
      Czech Republic                   58        48         79          76        137     Macedonia                  -       1       -        1         1
      Denmark                         573       512        706         837        941     Malaysia                179      173    230       175       199
      Dominican Republic                3         5          3           2          2     Malta                     2        7      3         4         2
      Ecuador                           3         3          5           1          4     Mauritius                 1         -      -         -         -


184




                PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                        OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 10 CONT.  	        PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1,3
	                                                   (FY 2008 - FY 2012)2
Residence                 2008      2009     2010     2011      2012     Residence               2008      2009     2010     2011     2012
Mexico                        78       82      105      116       138    Seychelles                   1         -        -        -     1
Monaco                         9        8        9        8         9    Singapore                  426      496      591      693    800
Morocco                        3        4        1        2         3    Slovakia                    13       13       15       22     21
Namibia                        1         -        -        -         -   Slovenia                    17       27       26       30     42
Netherlands                1,670    1,634    1,823    1,959     2,205    South Africa               111      148      143      134    156
Netherlands                     -        -       1         -         -   Spain                      386      415      484      528    708
 Antilles                                                                Sri Lanka                    1        6        4        8      3
New Zealand                  180      179      243      238       295    Sweden                   1,249    1,230    1,509    1,757 2,207
Nigeria                        1         -        -       1         1    Switzerland              1,340    1,428    1,833    1,825 2,016
Norway                       288      303      414      411       441    Syrian Arab Rep               -        -        -       1       -
Oman                           2        4        2        3         1    Taiwan                   7,424    7,958    9,202    9,584 11,309
Pakistan                       6        5        2        2        11    Thailand                    38       32       58       65     57
Panama                         1        3        4        1         4    Trinidad & Tobago             -       3        5        1      3
Paraguay                        -        -       1         -        1    Tunisia                      2         -       2        2      5
Peru                           1        8        1        5         4    Turkey                      35       32       49       45     48
Philippines                   22       24       33       37        38    Turks and Caicos             1         -        -        -      -
Poland                        64       50       48       61       108       Islands
Portugal                      30       18       28       34        47    Ukraine                     16       21       12       13          42
Qatar                          1        1        1        1         3    United Arab Emirates         6       10        7       11          22
Romania                       11        7       17       24        47    United Kingdom           3,872    3,892    4,817    4,907       5,607
Russian                      186      206      246      311       335    Uruguay                      3        5        5        4           7
  Federation                                                             Uzbekistan                    -        -        -        -          1
Saint Kitts & Nevis            1         -        -        -         -   Vanuatu                       -        -        -       1            -
Samoa                           -        -       2         -         -   Venezuela                   19       11       16       19          22
Saudi Arabia                  28       20       51       56       152    Vietnam                       -       2        2         -          1
Senegal                         -        -       1         -         -   Zimbabwe                      -       4         -        -          1
Serbia                         2        5        4        5        11
-	   Represents zero.	
1	   Data includes utility, design, plant, and reissue patents.
2	   Information that was updated during the year. It is not uncommon for the withdrawal status of patents issued in prior years
     to change.
3	   Each patent grant is listed under only one country of residence. Country listings include possessions and territories of that
     country unless separately listed in the table.
4	   Countries/Territories not previously reported.




TABLE 11  	                                      Utility Patents Issued to Small Entities
 	                                                           (FY 2008 - 2012)
Fiscal Year of Grant                                           2008          2009            2010             2011               2012
Percentage Small Entity                                      20.87%         19.76%           19.87%           19.80%            20.32%
     US origin1                                                28.76%       27.54%           27.76%           27.87%             28.21%
     Foreign   origin1                                         13.06%       12.27%           12.22%           12.16%             13.04%
Percentage Large Entity                                      79.13%         80.24%           80.13%           80.19%            79.68%
     US origin1                                                71.24%       72.46%           72.24%           72.13%             71.79%
     Foreign   origin1                                         86.94%       87.73%           87.78%           87.84%             86.96%
                                                                                                                                                  185
1	   Patent origin is based on residence of the first-named inventor.	




                                                                                                                     www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 12  	                            STATUTORY INVENTION REGISTRATIONS PUBLISHED
       	                                                     (FY 2008 - 2012)
       Assignee                                                 2008            2009              2010           2011            2012
       Air Force                                                   3                2                -               1                -
       Navy                                                        6                3               5                7               3
       Veterans Affairs                                                -            -                -               1                -
       Other Than U.S. Government                                 12                4              12                6               4
       	Total                                                    21                 9              17              15                7
       -	   Represents zero.




        TABLE 13  	                             UNITED STATES GOVERNMENT AGENCY PATENTS1
       	                                                     (FY 2008 - FY 2012)3
       Activity                                                2008         2009          2010           2011        2012         TOTAL
       Agriculture                                              27            24            39            44             52          186
       Air Force                                                36            45            51            40             51          223
       Army                                                    134           119           136           141             146         676
       Attorney General                                            -            -            1             1               -              2
       Commerce                                                   3             5           10            15             11               44
       Energy                                                   20            17            42            25             36          140
       Environmental Protection Agency                          10              9            9            12             16               56
       Health, Education, and Welfare/                         101           105           128           146             137         617
       Health and Human Services
       Interior                                                   1             4            4             1              3               13
       National Aeronautics and Space                           72            86            89           106             106         459
       Administration
       Navy                                                    241           230           284           300             366       1,421
       National Security Agency                                 16            15            24            11             10               76
       National Science Foundation                                 -            -            1              -             1               2
       Postal Service                                           19            14            37            25             39          134
       State Department                                            -            -             -             -             1               1
       Transportation                                              -            -            1              -              -              1
       Tennessee Valley Authority                                 1             -            1              -              -              2
       USA2                                                       3             3            5             3              6               20
       Veterans Affairs                                           8           10             9            13              9               49
       Total                                                   692           686          871            883          990          4,848
       -	   Represents zero.
       1	   Data in this table represent utility patents assigned to agencies at the time of patent issue. Data subject to minor revisions.
       2	   United States of America - no agency indicated in database.
       3	   Past years’ data may have been revised from prior year reports to reflect patent withdrawal information that was updated
            during the year. It is not uncommon for the withdrawal status of patents issued in prior years to change.




186




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                     OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 14A  	                                EX PARTE REEXAMINATION
	                                              (FY 2008 - FY 2012)
Activity                                         2008       2009        2010           2011            2012
Requests filed, total                            680         658         780             759             747
	    By patent owner                              87          67           63            104             683
	    By third party                              593         591         717             654              64
	    Commissioner ordered                           -          -             -              1               -

Determinations on requests, total                666         614         662             773             548
	 Requests granted:
		By examiner                                    626       574           606             685             502
		By petition                                       -    		 -              1               6               4
	 Requests denied                                 40        40            55              82              42

Requests known to have related litigation        316         372         347             349             311

Filings by discipline, total                     680         658         780             759             747
	Chemical                                        138         120         137             143             149
	Electrical                                      305         335         414             395             398
	Mechanical                                      237         203         229             221             192
	Design                                             -          -             -               -              8
-	   Represents zero.




TABLE 14B  	                            INTER PARTES REEXAMINATION
	                                            (FY 2008 - FY 2012)
Activity                                         2008       2009        2010           2011            2012
Requests filed, total                            168         258         281             374             640

Determinations on requests, total                150         229         231             366             354
	    Requests granted:                           142         218         224             344             325
		By examiner                                    142         217         224             342             320
		By petition                                       -          1             -              2               5
	    Requests denied                               8          11            7             22              29

Requests known to have related litigation        115         220         196             280             311

Filings by discipline, total                     168         258         281             374             640
	Chemical                                         38          35           45             57             116
	Electrical                                       67         153         174             216             316
	Mechanical                                       63          70           62            101             204
	Design                                             -          -             -               -              4
-	   Represents zero.




                                                                                                                      187




                                                                                                 www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 15  	                            SUMMARY OF CONTESTED PATENT CASES
        	                                    (Within the USPTO, as of September 30, 2012)
       Item                                                                                  Total

       Ex parte cases
       Appeals
       	 Cases pending as of 9/30/11                                                        24,040
       	 Cases filed during FY 2012                                                         12,710

       	 Disposals during FY 2012, total
       	 Decided, total                                                                     10,180
       		Affirmed                                                                            5,023
       		Affirmed-in-Part                                                                    1,466
       		Reversed                                                                            3,309
       		Dismissed/Withdrawn                                                                   225
       		Remanded                                                                              157

       	    Cases pending as of 9/30/12                                                     26,570

       Rehearings
       	 Cases pending as of 9/30/12                                                           47

       Inter partes cases
       	 Cases pending as of 9/30/11                                                           59
       	 Cases declared or reinstituted during FY 2012                                         56
       		 Inter partes cases, FY 2012 total                                                   115

       	    Cases terminated during FY 2012                                                    62
       	    Cases pending as of 9/30/12                                                        53




188




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                         OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 16  	                            SUMMARY OF TRADEMARK EXAMINING ACTIVITIES
	                                                  (FY 2008 - FY 2012)
Item                                                                      2008           2009          2010           2011             2012

Applications for Registration:
	 Applications including Additional Classes                               401,392        352,051        368,939       398,667          415,026
	 Applications Filed                                                      302,253        266,939        280,649       301,826          311,627

Disposal of Trademark Applications:
	 Registrations including Additional Classes                              274,250        241,637        221,090       237,586          243,459
	 Abandonments including Additional Classes                               156,093        189,687        151,027       141,908          139,832
Trademark First Actions including Additional Classes                      415,896        372,830        367,027       389,084          420,621
Applications Approved for Publication including                           345,067        320,246        307,001       323,072          345,649
   Additional Classes

Certificates of Registration Issued:1
	 1946 Act Principal Register                                             120,173        102,607         93,238       103,233          110,000
	 Principal Register
		Intent-To-Use-Statements of Use Registered                               81,387         69,920         64,086        66,796           64,057
	 1946 Act Supplemental Register                                            8,344          7,993          7,006         7,632            8,704
Total Certificates of Registration                                        209,904        180,520        164,330       177,661          182,761

Renewal of Registration:*
	 Section 9 Applications Filed                                              42,388        43,953         48,214        49,000           63,636
	 Section 8 Applications Filed**                                            42,395        43,868         48,275        49,037           63,642
	 Registrations Renewed                                                     42,159        42,282         46,734        44,873           59,871
Affidavits, Sec. 8/15:
	 Affidavits Filed                                                         68,470         65,322         61,499        65,771           76,646
	 Affidavits Disposed                                                      65,222         63,483         58,510        58,341           72,346
Amendments to Allege Use Filed                                              9,140          8,633          7,629         7,647            7,999
Statements of Use Filed                                                    96,415         90,493         80,927        86,159           86,935
Notice of Allowance Issued                                                220,333        181,702        169,085       166,035          172,122

Total Active Certificates of Registration                               1,497,131     1,547,168      1,614,121 1,719,247          1,838,007

Pendency - Average Months:
  Between Filing and Examiner’s First Action                                    3.0            2.7            3.0           3.1            3.2
  Between Filing, Registration (Use Applications)
    Abandonments and NOAs - including suspended                               13.9           13.5           13.0          12.6            12.0
       and inter partes proceedings
  Between Filing, Registration (Use Applications)
    Abandonments and NOAs - excluding suspended                               11.8           11.2           10.5          10.5            10.2
       and inter partes proceedings

- Represents zero.
1	   With the exception of Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c), the
     workload count includes extra classes.
	    “Applications filed” refers simply to the number of individual trademark applications received by the PTO. There are, however,
     47 different classes of items in which a trademark may be registered. An application must request registration in at least one
     class, but may request registration in multiple classes. Each class application must be individually researched for registerability.
     “Applications filed, including additional classes” reflects this fact, and therefore more accurately reflects the Trademark business
     workload. With the exception of Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c),
     the workload count includes extra classes.
*	   Renewal of registration is required beginning 10 years following registration concurrent with 20 - year renewals coming due.
                                                                                                                                                 189
**	Section   8 Affidavit is required for filing a renewal beginning October 30, 1999 (FY 2000) with the implementation of the Trademark
     Law Treaty.



                                                                                                                     www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 17     	                TRADEMARK APPLICATIONS FILED FOR REGISTRATION AND
       	                                   RENEWAL AND TRADEMARK AFFIDAVITS FILED
       	                                              (FY 1992 - FY 2012)
                         Year                 For Registration                 For Renewal1                Section 8 Affidavit
                         1992                       125,237                        6,355                         20,982
                         1993                       139,735                        7,173                         21,999
                         1994                       155,376                        7,004                         20,850
                         1995                       175,307                        7,346                         23,497
                         1996                       200,640                        7,543                         22,169
                         1997                       224,355                        6,720                         20,781
                         1998                       232,384                        7,413                         33,231
                         1999                       295,165                        7,944                         33,104
                         2000                       375,428                       24,435                         28,920
                         2001                       296,388                       24,174                         33,547
                         2002                       258,873                       34,325                         39,484
                         2003                       267,218                       35,210                         43,151
                         2004                       298,489                       32,352                         41,157
                         2005                       323,501                       39,354                         47,752
                         2006                       354,775                       36,939                         48,444
                         2007                       394,368                       40,786                         49,241
                         2008                       401,392                       42,388                         68,470
                         2009                       352,051                       43,953                         65,322
                         2010                       368,939                       48,214                         61,499
                         2011                       398,667                       49,000                         65,771
                         2012                       415,026                       63,636                         76,646
       1	   Renewal of registration term changed with implementation of the Trademark Law Reform Act (Pub. L. No. 100-667)
            beginning November 16, 1989 (FY 1990).




190




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                           OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 18  	                          SUMMARY OF PENDING TRADEMARK APPLICATIONS
	                                                    (FY 2012)
Stage of Processing                                                                   Application Files              Classes

Pending applications, total                                                               437,850                    607,659

In preexamination processing                                                               76,160                      95,604

Under examination, total                                                                  270,888                    387,327
	 Applications under initial examination                                                   85,947                    127,487
		 Amended, awaiting action by Examiner                                                    82,885                    123,541
		 Awaiting first action by Examiner                                                        3,062                      3,946

	    Intent-To-Use applications pending Use                                               145,812                    202,859

	 Applications under second examination                                                      8,986                     12,320
		 Administrative processing of Statements of Use                                               71                         82
		 Undergoing second examination                                                             2,948                      3,975
		 Amended, awaiting action by Examiner                                                      5,967                      8,263

	    Other pending applications1                                                           30,143                      44,661

In post-examination processing                                                             90,802                    124,728
(Includes all applications in all phases of publication and issue and registration)

1	   Includes applications pending before the Trademark Trial and Appeal Board, and suspended cases.




                                                                                                                                            191




                                                                                                                       www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 19  	             TRADEMARKS REGISTERED, RENEWED, AND PUBLISHED UNDER SECTION 12(C)1
       	                                                 (FY 1992 - FY 2012)
              Year              Certificates of Regis. Issued            Renewed2                  Registrations (Incl. Classes)
              1992                         62,067                           5,733                                -
              1993                         74,349                           6,182                            86,122
              1994                         59,797                           6,136                            68,853
              1995                         65,662                           6,785                            75,372
              1996                         78,674                           7,346                            91,339
              1997                         97,294                           7,389                            112,509
              1998                         89,634                           6,504                            106,279
              1999                         87,774                           6,280                            104,324
              2000                        106,383                           8,821                            127,794
              2001                        102,314                          31,477                            124,502
              2002                        133,225                          29,957                            164,457
              2003                        143,424                          34,370                            185,182
              2004                        120,056                          34,735                            155,991
              2005                        112,495                          32,279                            143,396
              2006                        147,118                          37,305                            188,899
              2007                        150,064                          47,336                            194,327
              2008                        209,904                          42,159                            274,250
              2009                        180,520                          42,282                            241,637
              2010                        164,330                          46,734                            221,090
              2011                        177,661                          44,873                            237,586
             2012                         182,761                          59,871                            243,459
        -	   Represents zero.
        1	   Includes withdrawn numbers.
        2	   Includes Renewal of registration term changed with implemention of the Trademark Law Reform Act (Pub. L. No. 100-667)
             beginning November 16, 1989 (FY 1990).




192




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                   OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 20  	                TRADEMARK APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES
		                                                  (FY 2012)
State/Territory                  2012          State/Territory            2012        State/Territory               2012
Total                          325,926         Kentucky                    1,831      Oklahoma                       1,553
                                               Louisiana                   1,849      Oregon                         3,454
Alabama                           1,817        Maine                        758       Pennsylvania                   9,243
Alaska                              232        Maryland                    5,831      Rhode Island                   1,248
Arizona                           5,688        Massachusetts               8,888      South Carolina                 2,247
Arkansas                          1,094        Michigan                    6,696      South Dakota                     392
California                       69,200        Minnesota                   6,089      Tennessee                      4,323
Colorado                          6,616        Mississippi                  661       Texas                         20,382
Connecticut                       4,857        Missouri                    4,481      Utah                           3,637
Delaware                          2,848        Montana                      618       Vermont                          694
District of Columbia              2,929        Nebraska                    1,181      Virginia                       7,823
Florida                          23,702        Nevada                      5,413      Washington                     6,486
Georgia                           8,486        New Hampshire               1,184      West Virginia                    330
Hawaii                            1,011        New Jersey                 12,842      Wisconsin                      4,075
Idaho                             1,022        New Mexico                   856       Wyoming                          386
Illinois                         14,020        New York                   34,951      Puerto Rico                      453
Indiana                           3,645        North Carolina              6,107      Virgin Islands                     31
Iowa                              1,359        North Dakota                 301       U.S. Pacific Islands1              33
Kansas                            1,768        Ohio                        8,151      United States2                   154
1	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
2	   No state indicated in database, includes Army Post Office filings.




                                                                                                                                    193




                                                                                                               www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




       TABLE 21  	                   TRADEMARKS REGISTERED TO RESIDENTS OF THE UNITED STATES1
       	                                                   (FY 2012)
       State/Territory                  2012         State/Territory              2012         State/Territory              2012
       Total                          148,758        Kentucky                        636       Oklahoma                        597
                                                     Louisiana                       680       Oregon                        1,424
       Alabama                             490       Maine                           294       Pennsylvania                  2,821
       Alaska                              102       Maryland                      1,659       Rhode Island                    310
       Arizona                           2,013       Massachusetts                 2,059       South Carolina                  648
       Arkansas                            288       Michigan                      2,484       South Dakota                    213
       California                      16,314        Minnesota                     2,334       Tennessee                     1,334
       Colorado                          2,321       Mississippi                     226       Texas                         6,245
       Connecticut                       1,192       Missouri                      1,562       Utah                          1,266
       Delaware                        27,651        Montana                         193       Vermont                         250
       District of Columbia                964       Nebraska                        515       Virginia                      2,230
       Florida                           7,445       Nevada                        3,445       Washington                    2,413
       Georgia                           2,635       New Hampshire                   408       West Virginia                   133
       Hawaii                              300       New Jersey                    3,461       Wisconsin                     1,640
       Idaho                               312       New Mexico                      306       Wyoming                         289
       Illinois                          4,467       New York                      8,437       Puerto Rico                     157
       Indiana                           1,451       North Carolina                2,015       Virgin Islands                   95
       Iowa                                732       North Dakota                    106       U.S. Pacific Islands2               7
       Kansas                              611       Ohio                          2,994       United States3               23,584
       1	   When a trademark is registered, the trademark database is corrected to indicate the home state of the entity registering
            the trademark.
       2	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
       3	   No state indicated in database, includes APO filings.




194




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                    OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 22  	                TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
	                                               (FY 2008 - FY 2012)
Residence                2008      2009     2010     2011     2012     Residence             2008      2009      2010     2011       2012
Total                    86,882 77,448 79,664 85,116 89,100            Czech Republic           256    266    164    256    201
                                                                       Denmark                1,197    997    884    827    869
Afghanistan                   2        9        3       11        4    Dominica                   9       -     2      2       -
Albania                       3         -        -       6        1    Dominican Republic        77     50     79     51     71
Algeria                        -        -        -        -       2    Ecuador                   24     32     27     47     34
Andorra                       1        8        7         -      20    Egypt                     11     14     27     38     18
Angola                         -        -      11       11        1    El Salvador               56     34     36     36     25
Anguilla                      7       23        3       17       34    Estonia                   35     48     64     37     56
Antarctica                    1         -        -        -        -   Ethiopia                   2      1       -     1      4
Antigua & Barbuda            20        4       18       15        6    Faroe Islands             12      1       -     2       -
Argentina                   266      223      279      283      268    Fiji                       1       -     6      5     15
Armenia                       4       10        7       32       16    Finland                  526    547    746    675    714
Aruba                         1        3        3        1        3    France                 6,254 5,620 6,176 5,868 6,375
Australia                 3,164    3,025    3,004    3,154    3,381    French Polynesia           3      2       -    11       -
Austria                   1,344    1,181      980    1,212    1,155    Gabon                       -      -      -    10       -
Azerbaijan                    3         -        -       8        3    Georgia                    3     11      8     27      9
Bahamas                     152      121       99      153      331    Germany               12,686 11,345 10,300 10,603 10,525
Bahrain                      11       19       20       31       21    Ghana                      2      1       -     1      1
Bangladesh                    3        4        1        7        6    Gibraltar                 32     52     30     61     63
Barbados                    310      164      274      161      198    Greece                   244    137    209    166    135
Belarus                      20       10       46       35       43    Grenada                     -      -      -     1      4
Belgium                     869      997      788      760      917    Guadeloupe                  -      -     3       -      -
Belize                       19       20       20       30       33    Guatemala                 39     29     27     16     44
Benin                          -        -        -       1        1    Guinea                     1       -     3       -      -
Bermuda                     296      178      164      182      222    Guyana                     7      1       -     1      5
Bolivia                       5        8        3        4        5    Haiti                      1       -     5      2      8
Bosnia & Herzegovinia          -       1        1        1         -   Honduras                   9     17     15      2      4
Botswana                       -       3        1       48        6    Hungary                   77    155    118     87    102
Brazil                      517      477      546      548      608    Iceland                  240     87     67     62     65
British Virgin Islands      623      498      558      597      825    India                    697    461    645    717    606
Brunei Darussalam             3        8       13        2        4    Indonesia                 62     64     51     56     91
Bulgaria                    101       95       77       72      109    Iran                      39     27     38     28     11
Burkina Faso                   -        -       1         -        -   Iraq                        -     4       -     1       -
Cambodia                       -       2        1         -        -   Ireland                  724    441    567    615    619
Cameroon                       -        -        -       1        1    Isle of Man              101     36     82     56     48
Canada                    9,614    8,354    8,707    9,257    9,823    Israel                   764    679    598    677    795
Cayman Islands              360      390      263      292      400    Italy                  4,395 4,203 3,770 4,284 3,960
Channel Islands              68       37       73      127       58    Jamaica                   49     53     14     20     42
Chile                       206      185      193      263      178    Japan                  4,764 4,832 4,633 5,054 5,358
China (Hong Kong)         1,211    1,162    1,190    1,492    1,768    Jordan                    23     21     28     33     30
China (Macau)                  -        -       1         -       8    Kazakhstan                 7       -      -     3       -
China (mainland)          2,262    2,096    2,808    3,652    3,735    Kenya                      3      2      9      1     12
Colombia                    187      183      185      184      300    Korea, Dem.                 -     1      6       -      -
Cook Islands                   -       5        4         -        -      Republic of
Costa Rica                  100       66       91       65       59    Kuwait                    37        16       20       10         14
Croatia                      22       42       33       14       40    Kyrgyzstan                  -         -        -        -         3
Cuba                         13        6        1        3        5    Latvia                    20        30       48       33         40
Curacao                        -        -        -      60       65    Lebanon                   22        24       28       34         32
Cyprus                      101      115      151      210      718    Liberia                    2          -        -       1          1
                                                                                                                                             195




                                                                                                                 www.uspto.gov
               OTHER ACCOM PAN Y I N G I N F O R M ATI O N




      TABLE 22 CONT.  	              TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
      	                                                   (FY 2008 - FY 2012)
      Residence                   2008      2009      2010     2011     2012      Residence                 2008       2009       2010     2011       2012
      Liechtenstein                  247       240       99      182       152    Saint Vincent/                   -          6      17           1          4
      Lithuania                       25        17       10       30        26      Grenadines
      Luxembourg                     550       499      888      807       831    Samoa                          11        5         15       11         11
      Macao                           20        12        5       10          -   San Marino                      3       17         10        8         13
      Macedonia                        7          -       8        4        27    Sao Tome/Principe                -        -         1        1          0
      Madagascar                        -        7         -        -        1    Saudi Arabia                   61       49         61       66        108
      Malaysia                       119       126      122       89        89    Scotland                       73       18         27       56         57
      Malta                           48        81       34       63        99    Senegal, Republic of            1         -          -       7           -
      Marshall Island                  5         4        4       12         7    Serbia/Montenegro              11       14         38       47         38
      Martinique                        -         -        -       1         1    Seychelles                     27       26         19       38         27
      Mauritania                        -        1         -        -         -   Singapore                     479      526        470      695        627
      Mauritius                       32        28       39       64        29    Slovakia                       82       46         56       65         84
      Mexico                       1,484     1,393    1,790    1,792     1,990    Slovenia                      105      152         82      129         89
      Micronesia                       7         2         -       1         1    South Africa                  218      183        232      253        271
      Monaco                         113        81       96      168       135    Spain                       1,864    1,798      1,789    2,200      2,097
      Mongolia                         4         7        2       30         3    Sri Lanka                      33       15         17       19         21
      Montserrat                        -         -        -       6          -   Suriname                         -        -         1         -         2
      Morocco                         60        35       48       23        50    Swaziland                        -        -          -       1           -
      Myanmar                           -         -       1         -         -   Sweden                      1,482    1,222      1,467    1,536      1,709
      N. Mariana Island                 -        5        9        2         7    Switzerland                 4,772    3,883      4,750    4,770      4,901
      Namibia                          3         2         -       2         4    Syria                           6        7         14        7           -
      Nepal                            1         2         -       5         1    Taiwan                      1,283    1,221      1,359    1,525      1,661
      Netherlands                  2,618     2,220    2,387    2,357     1,851    Tanzania                        2         -         1        2           -
      Netherlands Antilles            76        68      113       41          -   Thailand                      206      146        105      174        190
      New Zealand                    534       486      482      520       522    Timor-Leste                      -        -          -       1           -
      Nicaragua                        7         5        7        8        16    Togo                            5         -          -       8          2
      Nigeria                          1        25        8        4         6    Trinidad & Tobago               1       23         13        5         13
      Norway                         630       835      556      638       434    Tunisia                         2        7         14       17          6
      Oman                             2        11        5        6          -   Turkey                        602      511        363      571        610
      Pakistan                        27        19       17       17        12    Turkmenistan                     -        -          -        -         6
      Palau                             -        1         -        -         -   Turks and Caicos               13       10         30       18         48
      Panama                         149       114      167      148       126       Islands
      Papua New Guinea                 3         1        3         -         -   Uganda                          3        1           -       3          2
      Paraguay                        11         7        4       12         6    Ukraine                        90       63        102       92        118
      Peru                           101        49       38       69        62    United Arab Emirates          307      212        135      172        224
      Philippines                     62        66       54       65       128    United Kingdom              9,463    7,624      7,727    8,451      8,939
      Poland                         273       300      225      240       330    Uruguay                        35       35         47       35         14
      Portugal                       372       318      335      261       232    Uzbekistan                      1        3           -        -         2
      Qatar                           16        10       20       43        26    Vanuatu (New                     -        -          -        -         1
      Republic Moldova                 6         9       14        9         7      Hebrides)
      Romania                         73        37       78       83        61    Venezuela                     120       35         38       62         46
      Russian Federation             733       676      650      591     1,036    Vietnam                        61      101         71       61         99
      Rwanda                            -        1         -        -         -   West Bank/Gaza                   -        -         3        1          2
      Saint Christ-Nevis              31        16        6         -         -   Yemen                           4         -         1        4          1
      Saint Kitts & Nevis               -         -        -      31        18    Yugoslavia                      4         -         3         -          -
      Saint Lucia                     17        12       21       12         8    Zimbabwe                        1        1           -        -         4
      Saint Marten                      -         -        -       2         3    Other1                         16       33         11        8          3
      -	   Represents zero.
      1	   Country of Origin information not available or not indicated in database, includes African Regional Industrial Property Organization filings.

196




               PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                       OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 23  	                        TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES
	                                                     (FY 2008 - FY 2012)
Residence                2008       2009      2010     2011     2012     Residence               2008      2009     2010      2011      2012
Total                    38,800 34,648 31,855 33,752 34,003              Cyprus                      41       37        44       78        80
                                                                         Czech Republic              79       69        68       57        94
Afghanistan                   5          2        3        4        2    Denmark                    424      424       378      372       333
Albania                       6          6        4         -       3    Djibouti                     1         -         -        -        1
Algeria                       3          3        3        2        1    Dominica                     2        1         1        2         1
Andorra                       2          1        1        4        3    Dominican Republic          32       25        26       47        29
Angola, Republic of           1          2         -       2        2    Ecuador                     17       17        15       23        19
Anguilla                      8          5        7        7       25    Egypt                        5        6         6        8        16
Antigua & Barbuda            18         13        4        3        4    El Salvador                 64       38        36       20        26
Argentina                   182        131      127      161      150    Estonia                      9       13        16       15        14
Armenia                      19          6        8       17       11    Ethiopia                     3        1         4        3          -
Aruba                        18          5         -       2        2    Faroe Islands                 -       1          -       1         1
Australia                 1,609      1,383    1,295    1,338    1,331    Fiji                         1        2          -       1         2
Austria                     397        367      322      337      361    Finland                    218      221       196      225       212
Azerbaijan                     -          -        -       1        2    France                   2,638    2,278     2,154    2,353     2,160
Bahamas                      61         56       44       60       71    French Guiana                1         -         -        -         -
Bahrain                        -         2        3       18        6    French Polynesia            10        2          -       2          -
Bangladesh                    4          1        3        1        6    Gabon                         -        -         -        -        1
Barbados                    115         92       62       89       67    Georgia                       -        -        3        4        14
Belarus                      10         10        6       13       17    Germany                  4,674    4,409     3,759    3,730     3,660
Belgium                     399        337      309      287      302    Ghana                        5        2         3        2         5
Belize                       14          5       20       12       29    Gibraltar                   32       30        10       29        38
Benelux Convention            9         13        9       18        8    Greece                      68       53        52       42        67
Benin                         2          1        1         -        -   Greenland                     -        -        1         -         -
Bermuda                     164        197      161      105       95    Guatemala                     -        -       24         -         -
Bhutan                        1           -        -        -       1    Guinea                        -        -         -        -        1
Bolivia                       4          5        7        1        3    Guinea (Equitorial)           -        -         -       1         1
Bosnia & Herzegovina          1          1         -       1        2    Guinea-Bissau                 -        -         -       1         3
Botswana                       -          -        -        -       2    Guyana                       4        5          -       4         3
Brazil                      235        227      188      180      209    Haiti                        6        2         5        2         4
British Virgin Islands      381        323      302      315      258    Honduras                    12        8        17        4         7
Brunei Darussalam             8           -       1         -        -   Hungary                     45       36        64       36        34
Bulgaria                     47         26       24       21       28    Iceland                     62       66        48       17        29
Burkina Faso                   -          -        -       1         -   India                      186      213       202      252       259
Burundi                       1           -        -        -        -   Indonesia                   36       29        36       23        40
Cambodia                      1           -       1        1        1    Iran                        16       13         9        4        17
Cameroon                       -         2        2        3        2    Iraq                          -        -        1        2
Canada                    4,396      4,084    3,714    4,069    3,888    Ireland                    264      260       211      212       227
Cape Verde                     -         3         -        -        -   Isle of Man                 10        7          -      24        13
Cayman Islands              146        170      151      133      124    Israel                     392      319       348      341       412
Channel Islands               5          2       15       25       29    Italy                    2,281    1,819     1,556    1,733     1,657
Chile                       145         84       97      100      122    Jamaica                     41       23        24       21        28
China (Hong Kong)           633        521      502      562      601    Japan                    2,941    2,453     2,344    2,272     2,198
China (Macau)                  -         2        5        2        1    Jordan                       4       13         7       16        20
China (mainland)          1,601      1,459    1,356    1,705    2,024    Kazakhstan                   1        1          -       1         1
Colombia                    114        115      105       94      134    Kenya                        2        4         5        3         1
Congo                          -          -       1         -        -   Korea, Dem.                  1        7         4        2         9
Cook Islands                  3          1        1         -       1        Republic of
Costa Rica                   24         27       36       21       25    Korea, Republic of         849      760       773      904     1,043
Cote D'Ivoire                  -         1         -       1        4    Kuwait                       3        6         6        3         7
Croatia                      22          8       10       14        7    Kyrgyzstan                    -        -        1         -        1    197
Cuba                         16          6        7        7        4    Laos                          -        -         -       1          -
Curacao                        -          -        -       1        9    Latvia                      17        6         8       14        10


                                                                                                                    www.uspto.gov
                OTHER ACCOM PAN Y I N G I N F O R M ATI O N




      TABLE 23 CONT.  	                  TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES
      	                                                     (FY 2008 - FY 2012)
      Residence                   2008      2009     2010        2011     2012     Residence              2008     2009     2010        2011        2012
      Lebanon                          7        6          12       15       15    Saint Martin                -        -           -           -          3
      Liberia                          8       22          12        8        6    Saint Vincent/             1        2           1           2           2
      Liechtenstein                   85       75          48       37       45      Grenadines
      Lithuania                        7        8           7       11       16    San Marino                 4        2         7            -          1
      Luxembourg                     168      184         177      246      270    Saudi Arabia              19       13        14          10          38
      Macedonia                        6        1            -       3        2    Scotland                  30       50        15          17          12
      Malawi                            -        -           -       1         -   Senegal                     -        -        3           2           1
      Malaysia                        58       57          63       78       76    Serbia                      -        -        4           6           9
      Mali                              -        -          1         -        -   Seychelles                11        8        12          14          18
      Malta                           12        5          11       20       24    Sierra Leone                -        -         -          2           1
      Marshall Islands                 3        3           6        3        5    Singapore                199      174       220         230         239
      Martinique                        -        -           -       1         -   Slovakia                   9       26        12          17          17
      Mauritius                       33       25          13       15       28    Slovenia                  27       33        15          29          31
      Mexico                         952      830         736      954      897    South Africa             125      104       140         119          93
      Micronesia                       4        1           3        2         -   Spain                  1,000      821       780         797         885
      Monaco                          32       24          19       25       19    Sri Lanka                  7       21        13          16          12
      Mongolia                         1        1            -       3        1    Swaziland                  1        4          -           -          3
      Montenegro                        -        -          1         -       1    Sweden                   644      603       566         524         655
      Montserrat                        -        -           -        -       1    Switzerland            1,953    1,672     1,338       1,566       1,560
      Morocco                          3        7           8        9        8    Syria                      2        2          -          5           3
      Mozambique                       2         -           -        -        -   Taiwan                 1,096      845       782         843         820
      Myanmar                           -        -           -       1         -   Tajikistan                 1         -         -           -           -
      N. Mariana Island                2         -          3        5        1    Tanzania                    -        -         -          1           1
      Namibia                           -        -           -        -       1    Thailand                  82       71        53          49          67
      Nauru                            2         -           -        -        -   Timor-Leste                 -        -         -           -          1
      Nepal                             -       1            -       2        2    Togo                        -       1          -           -          2
      Netherlands                  1,001      931         883      831      897    Trinidad & Tobago         13        7        14           5           6
      Netherlands Antilles            47       32          39       30       21    Tunisia                    3        3         3           5           3
      New Zealand                    333      265         267      285      223    Turkey                   206      169       167         167         194
      Nicaragua                        7        5           2        6       10    Turks and Caicos           5        2          -         12           8
      Nigeria                         16       10           4        6       12       Islands
      Norway                         192      175         212      197      195    Uganda                     1        3         1           1           2
      Oman                              -        -          1        6        2    Ukraine                   33       18        30          41          33
      Pakistan                        19       11          15       20       11    United Arab Emirates      27       36        56          52          62
      Palistinian Authority             -        -           -       3         -   United Kingdom         3,136    3,098     3,010       2,989       2,905
      Panama                          98       58          68       88       53    Uruguay                   21       20        23          24          19
      Papua New Guinea                 1        1            -        -        -   Uzbekistan                  -       2          -          1            -
      Paraguay                         6        4           5        7        2    Vanuatu (New               4        1          -           -           -
      Peru                            49       57          26       31       33      Hebrides)
      Philippines                     42       50          41       38       34    Vatican City               1         -         -          1           1
      Poland                         104      103          74       87       98    Venezuela                 49       45        42          41          49
      Portugal                       147      136         123      130       91    Vietnam                   42       34        39          37          43
      Qatar                            9        6           9        5        1    Western Samoa/              -        -        8           9           4
      Republic Moldova                 8        3           2        4        1      Samoa
      Romania                         23       20          11       17       15    Yemen                      2        1         1            -          4
      Rwanda                            -        -           -       1         -   Yugoslavia                 2        3         1           1           2
      Russian Federation             168      162         154      206      252    Zambia                      -        -         -          1            -
      Saint Christ & Nevis            16       26          26       10       31    Zimbabwe                   2        2          -          4           2
      Saint Lucia                      4        8           2        6        1    Other1                    40       55        19          14          16
198   -	   Represents zero.
      1	   Country of Origin information not available.



               PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                             OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 24  	                       SUMMARY OF CONTESTED TRADEMARK CASES
	                                 (Within the USPTO, as of September 30, 2012)
                                                                  Concurrent
Activity                               Ex Parte   Cancellations      Use           Interference     Opposition         Total

Cases pending as of 9/30/11, total       1,213       1,520             76                 -             5,466          8,275

Cases filed during FY 2012               2,634       1,463             18                 -             5,160          9,275

Disposals during FY 2012, total          2,656       1,450             38                 -             5,130          9,274
	 Before hearing                         2,257       1,423             38                 -             5,022          8,740
	 After hearing                            399          27               -                -               108            534

Cases pending as of 9/30/12, total       1,191       1,533             56                 -             5,496          8,276
	 Awaiting decision                        192          17              1                 -                46            256
	 In process before hearing1               999       1,516             55                 -             5,450          8,020

Requests for extension of time         16,946     	-              	-                      -         	-                16,946
	 to oppose FY 2012

-	   Represents zero.
1	   Includes suspended cases.




                                                                                                                               199




                                                                                                         www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 25  	     ACTIONS ON PETITIONS TO THE DIRECTOR OF THE U.S. PATENT AND TRADEMARK OFFICE
       	                                              (FY 2008 - FY 2012)
       Nature of Petition                                                 2008         2009         2010         2011            2012
       Patent matters
       	 Actions on patent petitions, total                              51,774       51,482       51,649        53,755          51,323
       	 Acceptance of:
       		Late assignments                                                   621          628           773          892             739
       		 Late issue fees                                                 1,819        1,792         1,720        1,920           1,529
       		 Late priority papers                                               10           13             5            4               6
       	Access                                                               12           42            14            9               4
       	 Certificates of correction                                      26,878       25,527        27,611       26,033          25,441
       	 Deferment of issue                                                  21           20             9            8               9
       	 Entity Status Change                                             1,263        1,246         2,567        2,842           3,016
       	 Filing date                                                        975          723           539          531             413
       	 Maintenance fees                                                 2,774        1,949         2,173        2,457           1,984
       	Revivals                                                         10,339       11,478         9,326        9,949           8,202
       	 Rule 47 (37 CFR 1.47)                                            1,837        2,583         2,259        3,077           2,748
       	 Supervisory authority                                              183          347           411          470             439
       	 Suspend rules                                                      228          301           237          275             162
       	 Withdrawal from issue                                            1,642        1,423         1,912        1,948           2,196
       	 Withdrawals of holding of aband.                                 3,172        3,410         2,093        3,340           4,435
       Late Claim for Priority                                               986        1,121        1,094        1,389           1,298
       Withdraw as Attorney                                                6,164        6,133        5,237        5,798           3,922
       Matters Not Provided For (37 CFR 1.182)                             1,009        1,334        1,236        1,603           1,775
       To Make Special                                                     4,653        4,797        4,264       10,573          12,832
       Patent Term Adjustment/Extension                                      476        1,613       28,775        2,117           1,298
       Trademark matters
       	 Actions on trademark petitions, total                           29,703       24,747       21,852        23,133          21,036
       		 Filing date restorations1                                          28           20           13             6              19
       		 Inadvertently issued registrations                                178          134          116            78              81
       		 Letters of Protest                                                876        1,011        1,003         1,213           1,490
       		Madrid Petitions                                                    13           21           28            46              43
       		Make special                                                       121           94          225           170             302
       		Reinstatements2                                                  1,249          851          563           547             354
       		 Revive (reviewed on paper)                                      6,524        2,526        1,096         1,276             698
       		 Revive (granted electronically)3                               19,654       18,967       17,686        18,802          16,913
       		Waive fees/refunds                                                  30           18           18             5              18
       		 Miscellaneous Petitions to the Director                           940        1,008          971           840             967
       		Board Matters                                                        9           11           16             9              15
       		 Post Registration Matters                                          81           86          117           141             136
       	 Petitions awaiting action as of 9/30
       		 Trademark petitions awaiting response                               56           72           51            60            26
       		 Trademark petitions awaiting action                                 95            3            5             2             5
       		 Trademark pending filing date issues                                  -            -            -             -             -
       -	   Represents zero.
       1	   Trademark Applications entitled to a particular filing date; based on clear evidence of Trademark organization error.
       2	   Trademark Applications restored to pendency; inadvertently abandoned by the Trademark organization.
       3	   The petition to revive numbers were not separated into two categories (paper versus electronic) in previous years.



200




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                             OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 26  	                                       CASES IN LITIGATION
	                           (Selected Courts of the United States, as of September 30, 2012)
                                                               Patents     Trademarks          OED             Total

United States District Courts
	 Civil actions pending as of 9/30/11, total                      114             1               2             117
	 Filed during FY 2012                                             35             1                -             36
	 Disposals, total                                                 37              -              2              39
		Reversed                                                          1              -               -              1
		Remanded                                                          2              -               -              2
		Dismissed                                                        28              -              1              29
		 Summary Judgement (SJ) Granted - USPTO                           1              -              1               2
		 SJ Granted - Opposing Party                                       -             -               -               -
		Transfer                                                          5              -               -              5
Civil actions pending as of 9/30/12, total                        112             2                -            114

United States Courts of Appeals1
	 Ex parte cases
		 Cases pending as of 9/30/11                                     93             6                -             99
		 Cases filed during FY 2012                                      91             7               2             100
		Disposals, total                                                114             7               2             123
			USPTO Affirmed                                                  69             3               1              73
			District Court Affirmed                                           -             -               -               -
			Reversed                                                         1              -               -              1
			Remanded                                                        14             1                -             15
			Dismissed                                                       30             3                -             33
			Vacated                                                           -             -               -               -
			Transfer                                                          -             -              1               1
			Mandamus Denied                                                   -             -               -               -
			Mandamus Granted                                                  -             -               -               -
	 Total ex parte cases pending as of 9/30/12                       70             6                -             76
	 Inter partes cases
		 Cases pending as of 9/30/11                                      8           12                 -             20
		 Cases filed during FY 2012                                       6           13                 -             19
		Disposals, total                                                  8           20                 -             28
			Affirmed                                                         6            7                 -             13
			Reversed                                                          -           1                 -              1
			Remanded                                                         2            4                 -              6
			Dismissed                                                         -           8                 -              8
			Transferred                                                       -            -                -               -
	    Total inter partes cases pending as of 9/30/12                 6             5                -             11
Total United States Courts of Appeals cases pending                76           11                 -             87
as of 9/30/12

Supreme Court
	 Ex parte cases
		 Cases pending as of 9/30/11                                      1              -               -               1
		 Cases filed during FY 2012                                       5              -               -               5
		Disposals, total                                                  3              -               -               3
	    Cases pending as of 9/30/12, total                             3              -               -               3
Notices of Suit filed in FY 2012                                     -             -               -               -
-	   Represents zero.
1	   Includes Federal Circuit and Other Appellate Courts


                                                                                                                              201




                                                                                                         www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 27  	                                    PATENT CLASSIFICATION ACTIVITY
       	                                                     (FY 2008 - FY 2012)
       Activity                                                                2008     2009     2010       2011       2012

       Original patents professionally reclassified - completed projects       13,727    9,955   90,869      25,540     6,175

       Subclasses established                                                   1,037     631     1,429        753       311

       Reclassified patents clerically processed, total                      111,507    60,778 156,590 165,019         31,232
       	 Original U.S. patents                                                25,903    18,765  52,036  55,090         10,969
       	 Cross-reference U.S. patents                                         85,604    42,013 104,554 109,929         20,263



        TABLE 28  	                    SCIENTIFIC AND TECHNICAL INFORMATION CENTER ACTIVITY
       	                                                     (FY 2012)
       Activity                                                                                            Quantity

       Prior Art Search Services Provided:
            Commercial Database Searches Completed                                                           27,720
            Genetic Sequence Searches Completed                                                               7,508
            Number of Genetic Sequences Searched                                                             31,258
            CRF Submissions Processed                                                                        18,467
            PLUS Searches Completed                                                                          71,353
            Foreign Patent Searches Completed                                                                 5,749

       Document Delivery Services Provided:
            Document Delivery/Interlibrary Loan Requests Processed                                           19,493
            Copies of Foreign Patents Provided                                                               11,365

       Information Assistance and Automation Services:
            One-on-One Examiner Information Assistance                                                       20,877
            One-on-One Examiner Automation Assistance                                                        35,029
            Patents Employee Attendance at Automation Classes                                                52,792
            Foreign Patents Assistance for Examiners and Public                                               8,136
            Examiner Briefings on Scientific & Technical Information Center                                  30,964
              Information Sources and Services

       Translation Services Provided for Examiners:
            Written Translations of Documents                                                                 4,037
            Number of Words Translated (Written)                                                          13,551,306
            Documents Orally Translated1                                                                      3,628

       Total Number of Examiner Service Contacts                                                            348,376

       Collection Usage and Growth:
       	    Print/Electronic Non-Patent Literature Collection Usage                                        1,556,019
       	    Print Books/Subscriptions Purchased                                                              77,824
       	    Full Text Electronic Journal Titles Available                                                    69,484
       	    Full Text Electronic Book Titles Available                                                      187,815
       	    NPL Databases Available for Searching (est.)                                                      1,581
202    1	   includes orally translated requests for Trademarks.




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                                                 OT H E R AC C O M PA N Y IN G IN F O R MAT ION




TABLE 29  	                                     END OF YEAR PERSONNEL1
	                                                  (FY 2008 - FY 2012)
Activity                                                    2008         2009           2010         2011           2012

Business
	    Patent Business Line                                   8,582        8,786         8,645         9,234        10,632
	    Trademark Business Line                                 936          930             862          976            899
		Total USPTO                                              9,518     9,716             9,507       10,210         11,531

Examination Staff
	    Patent Examiners
		      Utility, Plant, and Reissue Examiners               5,955        6,145         6,128         6,685          7,831
		Design Examiners                                           100           98              97           95            104
			        Total UPR and Design Examiners                   6,055        6,243         6,225         6,780          7,935
     Patent Examiner Attrition Rate Less Transfers         7.83%     5.51%             3.75%        2.96%          3.07%
     and Retirees

	    Trademark Examining Attorneys                           398          388             378          378            386
	    Trademark Examining Attorneys Attrition Rate          7.87%     3.24%             3.08%        2.83%          3.98%

1	   Number of people on-board.




                                                                                                                                  203




                                                                                                             www.uspto.gov
      OTHER ACCOM PAN Y I N G I N F O R M ATI O N




        TABLE 30A  	   TOP 50 TRADEMARK APPLICANTS              TABLE 30B  	   TOP 50 TRADEMARK REGISTRANTS
       	                         (FY 2012)                     	                         (FY 2012)
       Name of Applicant                            Classes1   Name of Registrant                         Registrations
       MATTEL, INC.                                   720      MATTEL, INC.                                    358
       OUT FIT 7 LIMITED                              443      Johnson & Johnson                               246
       NOVARTIS AG                                    356      LG Electronics Inc.                             191
       JOHNSON & JOHNSON                              352      Disney Enterprises, Inc.                        163
       Disney Enterprises, Inc.                       339      Bally Gaming, inc.                              143
       Monster, Inc.                                  305      DA LIAN YA TU TOU ZI ZI XUN YOU XIAN GON        143
       Advance Magazine Publishers Inc.               304      The Procter & Gamble Company                    131
       Societe des Produits Nestle S.A.               294      Summit Entertainment, LLC                       123
       Archetypes, Inc.                               265      IGT                                             112
       The Procter & Gamble Company                   260      Novartis AG                                     109
       A&E Television Networks, LLC                   245      Sears Brands, LLC                               107
       LG Electronics Inc.                            240      Aristocrat Technologies Australia Pty Lt         89
       Bristol-Myers Squibb Company                   225      NINTENDO OF AMERICA INC.                         85
       Walgreen Co.                                   225      American Express Marketing &                     77
       Samsung Electronics Co., Ltd.                  219          Development
       Bally Gaming, Inc.                             212      Columbia Insurance Company                      76
       Target Brands, Inc.                            206      Target Brands, Inc.                             71
       Baha Mar Ltd.                                  191      Advance Magazine Publishers Inc.                66
       Glaxo Group Limited                            189      Hershey Chocolate & Confectionery Corpor        65
       Hewlett-Packard Development Company, L.P       186      Konami Gaming, Inc.                             65
       Eli Lilly and Company                          184      T-Mobile USA, Inc.                              63
       Theranos, Inc.                                 180      Conair Corporation                              62
       Twentieth Century Fox Film Corporation         180      Twentieth Century Fox Film Corporation          62
       Whole Foods Market IP, L.P.                    174      L'Oreal USA Creative, Inc.                      59
       S. C. Johnson & Son, Inc.                      173      Siemens Aktiengesellschaft                      58
       Sears Brands, LLC                              172      Warner Bros. Entertainment Inc.                 58
       Discovery Communications, LLC                  165      Koninklijke Philips Electronics N.V.            57
       Boehringer Ingelheim International GmbH        161      Societe des Produits Nestle S.A.                57
       Microsoft Corporation                          157      Walgreen Co.                                    55
       UnitedHealth Group Incorporated                154      Australian Gold, LLC                            53
       L'Oreal USA Creative, Inc.                     149      Discovery Communications, LLC                   53
       L'OREAL                                        145      Boehringer Ingelheim International GmbH         52
       DreamWorks Animation L.L.C.                    136      S. C. Johnson & Son, Inc.                       52
       Google Inc.                                    135      Samsung Electronics Co., Ltd.                   52
       Topco Holdings, Inc.                           133      Bayer Aktiengesellschaft                        51
       Columbia Insurance Company                     131      Home Box Office, Inc.                           51
       Conopco, Inc.                                  131      U.S. Marine Corps, a component of the U.        51
       Victoria's Secret Stores Brand Managemen       129      Formula One Licensing BV                        50
       DAIMLER AG                                     125      Amorepacific Corporation                        49
       Conair Corporation                             124      Merck KGaA                                      49
       Callaway Golf Company                          119      SANOFI                                          49
       The Wine Group LLC                             118      WMS GAMING INC.                                 49
       IGT                                            117      Bayerische Motoren Werke Aktiengesellsch        46
       Frito-Lay North America, Inc.                  115      Kraft Foods Global Brands LLC                   46
       HASBRO, INC.                                   110      Televisa, S.A. de C.V.                          46
       Born This Way Foundation                       108      HEB GROCERY COMPANY, LP                         45
       IDT Telecom, Inc.                              108      Kohler Co.                                      45
       Reckitt Benckiser LLC                          108      Mars, Incorporated                              45
       DIE ERSTE; österreichische Spar-Casse; P       106      Horvath, David                                  44
       BRIDGESTONE CORPORATION                        104      Karsten Manufacturing Corporation               44
       1	 Applications with Additional Classes.                Kim, Sun-Min                                    44


204




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
      G LO S S A RY O F AC R O N Y M S A N D A B B R E V IAT ION LIST




Glossary of Acronyms
and Abbreviation List




                                                                        205




                                                  www.uspto.gov
      Glossary of Acronyms
      and Abbreviation List

      ABC	       Activity Based Costing                          D&ISP	    Diversity and Inclusion Strategic Plan

      ACR	       Accelerated Case Resolution                     DOC	      Department of Commerce

      AFCP	      After Final Consideration Pilot                 DOL	      Department of Labor

      AIA	       America Invents Act                             EFT	      Electronic Funds Transfer

      AIPA	      American Inventors Protection Act               EPA	      Environmental Protection Agency

      APJ	       Administrative Patent Judge	                    EPO	      European Patent Office

      BPAI	      Board of Patent Appeals and Interferences       EVS	      Employee Viewpoint Survey

      CAFC	      U.S. Court of Appeals for the Federal Circuit   FECA	     Federal Employees’ Compensation Act

      CFR	       Code of Federal Regulations                     FEGLI	    Federal Employees Group Life Insurance

      CFS	       Consolidated Financial System                   FEHB	     Federal Employees Health Benefit Program

      COOP	      Continuity of Operations Plan                   FERS	     Federal Employees Retirement System

      COPA	      Clearing the Oldest Patent Applications         FFMIA	    Federal Financial Management
                 (Initiative)                                              Improvement Act

      COTS	      Commercial-off-the-shelf (software)             FICA	     Federal Insurance Contributions Act

      CPC	       Cooperative Patent Classification               FISMA 	   Federal Information Security Management
                                                                           Act
      CRF 	      Computer Readable Form
                                                                 FMFIA	    Federal Managers’ Financial Integrity Act
206   CSRS	      Civil Service Retirement System
                                                                 FMS	      Financial Management Services



      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                                                               G LO S S A RY O F AC R O N Y M S A N D A B B R E V IAT ION LIST




FPNG	   Fee Processing Next Generation                 NASA	            National Aeronautics and Space
                                                                        Administration
FY	     Fiscal Year
                                                       NOA	             Notice of Allowance (Table 16)
GAAP	   Generally Accepted Accounting Principles
                                                       NPL	             Non-Patent Literature
GAO	    Government Accountability Office
                                                       NPRM	            Notice of Proposed Rulemaking
GIPA	   Global Intellectual Property Academy
                                                       NSA	             National Security Agency
GOTS	   Government-off-the-shelf
                                                       NSF	             National Science Foundation
GPO	    U.S. Government Printing Office
                                                       OBRA	            Omnibus Budget Reconciliation Act
GSA 	   U.S. General Services Administration
                                                       OCAO	            Office of the Chief Administration Officer
HEW	    Department of Health, Education and
        Welfare (predecessor to HHS)                   OCFO 	           Office of Chief Financial Officer

HHS	    U.S. Department of Health and Human            OCIO	            Office of Chief Information Officer
        Services
                                                       OEEOD	           Office of Equal Employment Opportunity and
IDP	    Individual Development Plan                                     Diversity

IDS	    Information Disclosure Statement               OGC 	            Office of General Counsel

IG	     Inspector General                              OGL	             Office of General Law

IP	     Intellectual Property                          OHIM	            Office for Harmonization in the Internal Market

IP5	    The Five Largest Patent Offices in the World   OHR	             Office of Human Resources

IPIA	   Improper Payments Information Act              OID	             Office of Innovation Development

IPR 	   Intellectual Property Rights                   OIG	             Office of the Inspector General

ISO	    International Organization for                 OMB	             Office of Management and Budget
        Standardization
                                                       OPEA	            Office of Policy and External Affairs
ISP	    Internet Service Provider
                                                       OPM	             Office of Personnel Management
IT 	    Information Technology
                                                       OPQA	            Office of Patent Quality Assurance
JPO 	   Japan Patent Office
                                                       OPT	             Office of Patent Training
KIPO	   Korean Intellectual Property Office
                                                       PAR	             Performance and Accountability Report
LDP	    Leadership Development Program
                                                       PATI	            Patent Application Text Initiative
MTS	    Metric Tracking System
                                                       PCT 	            Patent Cooperation Treaty                                207
N/A	    Not Available



                                                                                                           www.uspto.gov
      GLOSSA RY O F ACR O N Y M S AN D AB B R EV I AT IO N L IS T




      PE2E	         Patent End-to-End                               TC	        Technology Center

      PETTP	        Patent Examiner Technical Training Program      TEAPP	     Telework Enhancement Act Pilot Program

      PHP	          Patent Hoteling Program                         TEAS	      Trademark Electronic Application System

      PLUS	         Patent Linguistics Utility System               TPAC	      Trademark Public Advisory Committee

      POA&M	        Plan of Actions and Milestones                  TPP	       Trans-Pacific Partnership

      PPAC	         Patent Public Advisory Committee                TSDR	      Trademark Status and Data Retrieval

      PPH	          Patent Prosecution Highway                      TTAB	      Trademark Trial and Appeal Board

      PRPS	         Patent Review Processing System                 TVA	       Tennessee Valley Authority

      PTAB	         Patent Trial and Appeal Board                   UL	        Universal Laptop

      Pub. L. No.	 Public Law                                       UPRD	      Utility, Plant, Reissue, Design

      QPIDS	        Final Practice and Quick Path IDS               U.S. 	     United States

      RAM	          Revenue Accounting and Management               U.S.C. 	   United States Code

      RCE	          Request for Continued Examination               USG	       United States Government

      SAIC	         State Administration for Industry and           USPTO 	    United States Patent and Trademark Office
                    Commerce of China
                                                                    USTR 	     United States Trade Representative
      SEE	          Site Examiner Education Program
                                                                    VA	        U.S. Department of Veterans Affairs
      SES	          Senior Executive Service
                                                                    WIPO 	     World Intellectual Property Organization
      SFFAS	        Statements of Federal Financial
                    Accounting Standards                            WTO 	      World Trade Organization

      SJ	           Summary Judgement                               XML	       Extensible Markup Language

      SME	          Small to Medium-Sized Enterprise

      TBMP	         Trademark Board Manual of Procedure




208




      PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2012
                         O W LEDGM
                       N           EN
            CK                                                         TS
        A


                      This Performance and Accountability Report was produced
                      with the energies and talents of the USPTO staff.

                      To these individuals we would like to offer our sincerest thanks
                      and acknowledgement.

                      In particular, we would like to recognize the following
                      organizations and individuals for their contributions:

                      Office of the Under Secretary and Director – Vikrum Aiyer and
Lisa Houston; Office of the Chief Communications Office – Patrick Ross, Cheron Green,
and Arva Adams; Office of the Chief Administrative Officer – Roger Williams; Office
of the Chief Financial Officer – Michelle Picard; Office of Planning
and Budget – Bonita Royall, Walter Schlueter, Robert Fawcett, and
Candice Goodman; Office of Finance – Shana Willard, Dennis Detar,
and Mark Krieger; Office of External Affairs – Dr. Jasemine Chambers
and Janette Brown; Office of the Chief Information Officer – Scott
Williams and Maureen Brown; Office of the General Counsel – Mary
Kelly; Patent Trial and Appeal Board – Kurt Brown; Trademark Trial and
Appeal Board – Latoya Brown; Office of the Commissioner for Patents
– Jennifer Jacobs and David Fitzpatrick; Office of the Commissioner
for Trademarks – Robert Allen and Karen Strohecker.

We would also like to acknowledge the Office of the Inspector General and KPMG
LLP for the professional manner in which they conducted the audit of the FY 2012
Financial Statements.

We offer special thanks to AOC Solutions, Inc. and The DesignPond for their outstanding
contributions in the design and production of this report. To send comments or
provide feedback about this report, please contact:

Office of Planning and Budget
600 Dulany Street
Alexandria, VA 22314
PARmail@uspto.gov
Phone: 571-272-3333
Fax: 571-273-0127
United States Patent and Trademark Office


600 Dulany Street
Alexandria, Virginia 22314


www.uspto.gov
